<html>
<title> - SOLAR ENERGY DEVELOPMENT ON FEDERAL LANDS: THE ROAD TO CONSENSUS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
                       SOLAR ENERGY DEVELOPMENT
                           ON FEDERAL LANDS:
                         THE ROAD TO CONSENSUS

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

            Monday, May 11, 2009, in Palm Desert, California

                               __________

                           Serial No. 111-18

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
49-683                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                


              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                    JIM COSTA, California, Chairman
           DOUG LAMBORN, Colorado, Ranking Republican Member

Eni F.H. Faleomavaega, American      Don Young, Alaska
    Samoa                            Louie Gohmert, Texas
Rush D. Holt, New Jersey             John Fleming, Louisiana
Dan Boren, Oklahoma                  Jason Chaffetz, Utah
Gregorio Sablan, Northern Marianas   Cynthia M. Lummis, Wyoming
Martin T. Heinrich, New Mexico       Doc Hastings, Washington, ex 
Edward J. Markey, Massachusetts          officio
Maurice D. Hinchey, New York
John P. Sarbanes, Maryland
Niki Tsongas, Massachusetts
Nick J. Rahall, II, West Virginia, 
    ex officio


                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Monday, May 11, 2009.............................     1

Statement of Members:
    Bono Mack, Hon. Mary, a Representative in Congress from the 
      State of California........................................     8
        Prepared statement of....................................    10
    Costa, Hon. Jim, a Representative in Congress from the State 
      of California..............................................     1
        Prepared statement of....................................     5
    Lummis, Hon. Cynthia M., a Representative in Congress from 
      the State of Wyoming.......................................     6

Statement of Witnesses:
    Abbott, James, Acting California State Director, Bureau of 
      Land Management, U.S. Department of the Interior...........    39
        Prepared statement of....................................    41
    Chong, Rachelle, Commissioner, California Public Utilities 
      Commission.................................................    35
        Prepared statement of....................................    37
        Response to questions submitted for the record...........    39
    Corcoran, Bill, Senior Regional Representative, Sierra Club, 
      Oral statement on behalf of Carl Zichella, Western 
      Renewable Projects Director, Sierra Club...................    68
    Ferguson, Hon. Jim, Councilman, City of Palm Desert, 
      California.................................................    12
        Prepared statement of....................................    14
        Renewable Siting Criteria for California Desert 
          Conservation Area......................................    21
        Response to questions submitted for the record...........    24
    Gensler, Katherine A., Manager of Regulatory and Legislative 
      Affairs, Solar Energy Industries Association...............    74
        Prepared statement of....................................    76
        Response to questions submitted for the record...........    79
    Kretzschmar, Thomas M., Real Estate Division, Baltimore 
      District, U.S. Army Corps of Engineers, U.S. Department of 
      the Army...................................................    47
        Prepared statement of....................................    49
        Response to questions submitted for the record...........    50
    Levin, Julia, Commissioner for Renewable Energy, California 
      Energy Commission..........................................    26
        Prepared statement of....................................    28
        Executive Order S-14-08..................................    29
        Response to questions submitted for the record...........    32
    Malnight, Steven, Vice President, Renewable Energy, Pacific 
      Gas and Electric Company...................................    62
        Prepared statement of....................................    64
        Response to questions submitted for the record...........    67
    Niggli, Michael R., Chief Operating Officer, Sempra Energy 
      Utilities..................................................    80
        Prepared statement of....................................    82
        Response to questions submitted for the record...........    88
    Zichella, Carl A., Director of Western Renewable Projects, 
      Sierra Club, Prepared statement of.........................    71
        Response to questions submitted for the record...........    73

Additional materials supplied:
    Anderson, Ileene, Desert Program Director, Center for 
      Biological Diversity, Statement on the Implementation of 
      Renewable Energy Projects in the Western United States.....   103
    Basin and Range Watch, Letter submitted for the record.......   105
    Form letter on ``Solar Development in the San Luis Valley, 
      Colorado,'' delivered by CitizenSpeak!, with personal 
      comments submitted for the record by the following 
      individuals: Andy Zaugg; Catherine Broadbent, San Luis 
      Valley Water Protection Coalition; Cecelia Smith, Director, 
      San Luis Valley Water Protection Coalition; Charles Tidd, 
      San Luis Water Protection Coalition; Claire Barker; David 
      and Renee Hill; Dr. Bonnie M. Orkow; Francis Bonny; Glyder, 
      Biosphere Coalition; Jay Bremyer; Kathryn Van Note, San 
      Luis Valley Water Protection Coalition; Liza Marron, 
      LiveWell Alamosa, ScSEED, Mountain Valley School Board; 
      Matthew Crowley, Shumei International Institute; Pavita 
      Decorah, Sri Aurobindo Learning Center; Randi Young; Ron 
      Sitts; Sandia Belgrade; Stephen Smilack; Tamar Ellentuck...   107
    Form letter on ``Solar Done Right'' delivered by 
      CitizenSpeak!, with personal comments submitted for the 
      record by the following individuals: Andy Liberman; Annette 
      Rojas; Arvind Says; Brendan Hughes; Cecelia Smith, San Luis 
      Valley Water Protection Coalition; Chris Clarke; Connie 
      Crusha; David Crawford, Desert Protective Council; David 
      McMullen; Diane Conklin, Mussey Grade Road Alliance; Donna 
      Thomas; Florian Boyd; George Wuerthner; Gidon Taylor 
      Singer; Helena Quintana; James Dyer; Janeen Armstrong; Jill 
      Giegerich; Karen Schambach, Public Employees for 
      Environmental Responsibility; Katherine McTaggart; Kim F. 
      Floyd; Kurt Leuschner, Desert Cities Bird Club; Laraine 
      Turk, California Desert Coalition; Larry Hogue, Desert 
      Protective Council; Linda Harter; Luana Lynch; Mesonika 
      Piecuch, ORV Watch Kern County; Michael Howard; Michael 
      Pinto; Nick Comer; Nick Ervin; Olivia de Haulleville; 
      Philip Leitner, California State University; Phillip 
      Schuyler Carskaddan; Rachel Shaw, Sungazer Photography and 
      Images; Richard Ryan, Desert Protective Council; Ruth 
      Rieman; Spencer Berman; Stacey Landfield; Steve Hartman; 
      Terry Frewin; Vanessa Rusczyk, The Protect Our Communities 
      Foundation; William Modesitt; Willie Walker................   108
    Gutierrez, Veronica, Director, Public Affairs, Edison 
      International, Statement submitted for the record..........   109
        White Paper on the potential use of the authority in 
          section 4(d) of the Endangered Species Act to 
          streamline the ESA permit process for renewable energy 
          projects...............................................   110
    Hartig, Anthea, Regional Director, Western Office, The 
      National Trust for Historic Preservation, Statement 
      submitted for the record...................................   114
    Natural Resources Defense Council, Letter submitted for the 
      record.....................................................   117
    Smith, Ceal, Director, San Luis Valley Water Protection 
      Coalition, Letter submitted for the record.................   118
    The Protect Our Communities Foundation, Letter submitted for 
      the record.................................................   119
    The Wildlands Conservancy (TWC), Letter submitted for the 
      record.....................................................   124


OVERSIGHT FIELD HEARING ON ``SOLAR ENERGY DEVELOPMENT ON FEDERAL LANDS: 
                        THE ROAD TO CONSENSUS.''

                              ----------                              


                          Monday, May 11, 2009

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                        Palm Desert, California

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:00 a.m., at 
the University of California, Riverside (UCR) Palm Desert 
Graduate Center, 75080 Frank Sinatra Drive, Palm Desert, 
California, Hon. Jim Costa [Chairman of the Subcommittee] 
presiding.
    Present: Representatives Costa and Lummis.
    Also Present: Representative Bono Mack.

 STATEMENT OF THE HON. JIM COSTA, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Costa. Good morning. Oh, we can do a better job than 
that. Good morning, all these wonderful Californians, I believe 
for the most part, here in Palm Desert. And we thank the City 
of Palm Desert and Congresswoman Mary Bono Mack for being 
gracious hosts--of course along with the University of 
California, Riverside, for being a partner in the University of 
California's efforts over the years, and with the State 
Legislature. I do appreciate very much all the good work UC 
does throughout our State.
    I should introduce myself. I am Jim Costa, and I am the 
Chairman of the Subcommittee on Energy and Mineral Resources, 
which is a Subcommittee of the full Committee on Natural 
Resources in the House.
    We are part of a large effort that is attempting to try to 
help America develop a comprehensive energy effort, and the 
term I like to use, the term of art, is using all of the energy 
tools in our energy toolbox that looks at the near term, i.e., 
now and over the next 10 years, and then over what I view as 
the midterm between 10 and 20 years, and then beyond, to really 
achieve the goals that I think all Americans would like to see 
us achieve, and that is reduce our dependency on foreign 
sources of energy, to develop a more efficient, more cost 
effective, cleaner source of energy with the issues that 
involve climate change, and focus on how we deal with that 
transition from traditional sources of energy that are critical 
today, and they will be critical tomorrow, to new energy 
sources. In some cases, they are not that new at all.
    And, in California's case, obviously, we have done a great 
deal. And, of course, part of one of those energy tools in our 
energy toolbox is conservation. As we all know, that is low-
hanging fruit, and we know how successful we have been here in 
California in pursuing that effort of conservation.
    Let me get a few housekeeping functions here managed, and 
then each of my colleagues here have opening statements, and 
then we will begin with our panel. We have two well-qualified 
panels this morning, and we have five witnesses on our first 
panel and four witnesses on our second panel.
    And it is the Chair's intent that hopefully we will 
conclude this hearing sometime around 12:30, 1:00 p.m., I 
think. We do want to try to get back to--most of us--
Washington, either this evening or early, early tomorrow 
morning. So, we are working under those constraints.
    There have been a few modifications to our witness list. I 
will acknowledge that as we get to that point.
    As I said, Congresswoman Mary Bono Mack serves with us in 
the 111th Congress. She has represented this area for a number 
of years, has done a good job. I enjoy working with my 
colleague, and we thank you and your staff, Chris and Paul, for 
being very helpful to ensure that this hearing goes smoothly. 
And you have done a great job, and thank you and your staff.
    I also want to thank the Ranking Member today, Cynthia 
Lummis from Wyoming. She is a new Member of the 111th Congress, 
but she has hit the ground running, having served in the 
Wyoming Legislature for many years. She comes from a ranching 
family that goes back to the 19th Century in Wyoming. I am very 
honored to serve with her.
    She has taken a slight detour. Somehow on Mother's Day--I 
don't know how you get from Wyoming and Cheyenne to Palm 
Springs, but I guess airlines being what they are today you 
were able to make that work. We appreciate that, and I hope 
your family understands that we appreciate you giving up your 
Mother's Day. That is awful nice of you to do so.
    Today's hearing in Palm Desert is kind of fitting and 
appropriate because, as I said, this Subcommittee deals with 
energy and minerals on Federal lands. And the focus of today's 
hearing is on solar energy development and wind development, 
and how we develop a road to consensus.
    I love maps, and this map here, all of you who can see it, 
I know it is hard back there, but you can see the colors, the 
red and the different shades of yellow depict those areas that 
have the most potential to utilize solar power in America. And, 
as you can see, here in Palm Desert and the southeastern 
portion of California, as well as the Southwest, is 
proverbially the ``mother lode,'' to take a term from the 19th 
Century--solar power in America.
    And obviously, there is tremendous potential, as we know, 
but we need to deal with some of the issues that are of concern 
as it relates to solar power. In Palm Desert in this part of 
the world there are, Mary tells me, 360 days of sunshine. I 
don't know what happens to those five days that the sun doesn't 
shine, but I am sure it is nice anyway.
    Also, Palm Desert has been a leader in aggressively 
pursuing, thanks to its City Council, and we have Councilman 
Ferguson here and the Mayor, on efforts to pursue solar power. 
The City has picked up and run with state legislation referred 
to as AB 811, California law, that allows municipalities to 
provide loans to help homeowners install solar panels on roofs. 
They also have a feed-in tariff pilot program that makes 
rooftop solar power even more attractive.
    So, we thank you for the good work you are doing here. It 
was actually featured in The Wall Street Journal, along with 
other energy efforts that are taking place in cities such as 
Chicago, London, and Amsterdam. So, we are in the right place, 
obviously, and I would rather have a hearing here than in 
Chicago or London or Amsterdam.
    [Laughter.]
    Not really, no. They are all wonderful cities.
    Energy conservation and rooftop solar panels are part of 
our tools in our energy toolbox, but they are part of, in my 
mind, an overall comprehensive energy effort. And I think that 
is what has been lacking. You know, since we had the first gas 
lines in 1973, President Nixon announced an energy policy, and 
every President since him has announced an energy policy. And 
most of the Congresses have tended to act on an energy policy.
    And so we might ask ourselves in 2009 why we are not 
farther along than we are today after all of that time and 
effort. And I think there are a number of contributing factors 
on why we are not farther along. But what I think--and I like 
to underline and put a fine point on it--is that we have never 
really thoughtfully--we get in these sound bites. Remember the 
sound bites last September? Use it or lose it? Or drill, baby, 
drill?
    And my response is, both sound bites are rather nonsensical 
when we are talking about a comprehensive energy policy. But, 
yes, sloganeering is a part of what drives public debate.
    What really has been lacking, I think, is developing how we 
use all of the energy tools in our energy toolbox, in the next 
10 years, in the next 20 years, and beyond, and how we do the 
bridging in a way that makes economic sense. And so our little 
Subcommittee is trying to see how we can play a role in that 
larger overall effort.
    As we know, these issues are being debated in the Congress 
right now. The Administration has a proposal that they have 
outlined. And we know that here, whether it is in the Southwest 
or in any other parts of America, that whether it is oil and 
gas--and gas, as we know, is one of the energies du jour of 
California because of our air quality issues, whether it is 
wind power, whether it is coal, whether it is geothermal, 
whether it is solar, that we have the most varied of energy 
options probably more than any other country does in the world. 
But where we are not doing well, in my view, is really trying 
to put this together.
    This Subcommittee, obviously, focuses just as it relates to 
those issues on Federal lands. Let us be clear about this. We 
have no jurisdictional area over non-Federal lands.
    So, the major question that we wanted to talk about this 
morning is not just as it relates to wind on Federal lands, but 
solar power on public lands, and trying to see how we use the 
vast potential that is demonstrated on this map, because solar 
power, depending upon the various models that are followed, can 
be very land-intensive.
    Siting solar plants means that you limit the availability 
for multiple use, but I have heard of some very innovative ways 
that folks would like to deal with whether it is solar thermal 
or solar panels, and still allow for multiple use on those 
lands. We look forward to Mr. Abbott's and other's comments on 
their take on that.
    Footprints, though, are significant as it relates to these 
utility scale solar panel plant efforts. And so when we talk 
about footprint, we are talking about the mitigation and some 
of the challenges we are dealing with.
    In my view, and I know there is a proposal that Senator 
Feinstein has and others, and I will be interested in hearing 
people's thoughts on that, the last thing we want to do, in my 
opinion, the last thing is to lock up or prevent the ability to 
develop solar power on utility scale levels. I am one who 
thinks that you have to use all of the options.
    And so I want to discuss how we pursue solar power in ways 
that will ensure that we have this robust renewable portfolio 
that I think we want to develop over the next 20 years, again 
to achieve the longer term goals, to reduce our dependency on 
foreign sources of energy, and to create a much cleaner source.
    So, we are going to take the time today to listen to all of 
those thoughts. Obviously, we are very interested in the 
Renewable Energy Transmission Initiative that our California 
witnesses will speak on. We are also interested in the 
collaboration with the Renewable Energy Transmission 
Initiative, referred to as RETI, with what is taking place with 
the energy zones that the Bureau of Land Management has also 
been working on, and the transmission. The transmission lines 
are a very critical part of all of this effort.
    California, as we know, the Governor has indicated by the 
year 2020 would like to raise the standard of our renewable 
portfolio to 33 percent. So, we have to figure out what sort of 
thoughtful, creative ways we can reach those goals. I think the 
Federal Government can learn a great deal, as we look at what 
states are doing, best management practices.
    Both Cynthia and I came from state legislatures. I tend to 
believe that state legislatures are the laboratories of 
democracy. A former Justice of the Supreme Court once said, 
``But when we look at large-scale projects that are available 
in the Mojave Desert, and throughout our southwestern arid 
areas, the resource is too great and the needs are too large to 
not do a good job in looking at all of the efforts we can to 
pursue it.'' Obviously, we don't want a land rush, but we do 
want to make sure that we do our due diligence and that we have 
a process that makes sense in which everyone can participate.
    So, I am looking forward to the collaborative discussion in 
developing this effort. I am looking forward to listening to my 
colleagues. And I would now like to recognize the Ranking 
Member this morning, Ms. Cynthia Lummis from Wyoming, for her 
opening statement.
    Again, thank you for taking the time to be here this 
morning.
    [The prepared statement of Mr. Costa follows:]

            Statement of The Honorable Jim Costa, Chairman, 
              Subcommittee on Energy and Mineral Resources

    I would like to welcome everyone to the Energy and Mineral 
Resources Subcommittee field hearing on solar energy development on 
federal lands. I would particularly like to thank Congresswoman Mary 
Bono Mack for being here and for being an extremely gracious host to 
her district, and also for the tremendous help that she and her staff 
have been in helping us put this hearing together. I would also like to 
thank our Ranking Member today, Ms. Cynthia Lummis, for taking this 
slight detour from her normal Wyoming to Washington, D.C. commute, and 
our hosts here at the University of California Riverside Palm Desert 
Campus, who have been extremely helpful and accommodating for this 
hearing.
    I am particularly pleased to be holding this hearing in Palm 
Desert, which is an ideal location for a solar hearing for a couple of 
reasons. First, we are in one of the sunniest places on Earth, with 
close to 360 days of sunshine each year. Second, Palm Desert has been a 
leader in aggressively pursuing solar energy development, thanks in 
large part to the leadership of councilman and former-mayor Ferguson, 
who is with us today. Palm Desert has really picked up and run with 
A.B. 811, the recent California law that allows municipalities to 
provide loans to help homeowners install solar panels on their roofs, 
and they have also attempted to start a feed-in tariff pilot program 
here to make rooftop solar even more attractive. I think a great 
example of the job that Palm Desert is doing on energy is the fact that 
they were featured in a Wall Street Journal section on energy 
conservation last year alongside such cities as Chicago, London, and 
Amsterdam. So being here really could not be more fitting.
    Energy conservation and rooftop solar panels are certainly two of 
the essential tools in our energy toolbox that should be included in a 
comprehensive energy policy. Some of the largest and most useful 
resources are to be found on our public lands. Whether it is oil and 
gas, wind power, coal, geothermal, or solar, our public lands contain 
some of the best and most varied energy resources anywhere in the 
world. As the subcommittee responsible for crafting policy for the 
development of these energy resources, we have to tackle the difficult 
questions about how much is appropriate, and where.
    The question of where, of course, is one of the major challenges 
facing solar power on public lands. Solar power is very land-intensive, 
and siting a solar plant means that most if not all of the other uses 
of that land are precluded. This is quite different from windmills or 
even oil and gas rigs, whose footprints are mere pinpoints compared to 
that of a solar plant. However, this does not mean that we should not 
develop solar power on federal lands. Far from it. Solar power is 
essential for meeting our renewable energy, clean energy, and domestic 
energy security goals. But it also means we need to take extra care to 
make sure we are doing it right. We need to have all stakeholders in 
the process working together to build consensus about the best ways to 
put solar plants on the ground and get the power to where it is needed.
    Our own state of California has been a leader in this effort with 
the Renewable Energy Transmission Initiative, or RETI. California has a 
very strong renewable portfolio standard--33% by 2020--and the RETI 
initiative has taken a thoughtful and detailed look at where the solar 
and wind plants and transmission lines that will be needed to meet that 
goal can be sited with the least impacts and the least conflicts, and I 
look forward to hearing more about that today from some of the people 
who are intimately involved in that process. I believe that the federal 
government can often learn much from looking at what the states are 
doing, and this is one example that I believe we should be paying close 
attention to.
    We cannot exclude large-scale solar in the Mojave Desert. The 
resource is too great and the needs are too large to not expeditiously 
move forward. But we do not want a land rush, and we do not want a 
process that we will regret in the coming decades. This hearing is just 
one step along what I hope will be a very cooperative and collaborative 
road towards achieving consensus. I thank all the witnesses and our 
audience for being here today, and I look forward to working with all 
of you on this issue in the near future.
    I now recognize the Ranking Member, Ms. Cynthia Lummis of Wyoming, 
for her opening statement.
                                 ______
                                 

   STATEMENT OF THE HON. CYNTHIA LUMMIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF WYOMING

    Ms. Lummis. Thank you, Mr. Chairman. My name is Cynthia 
Lummis. I am the representative from Wyoming. Greetings from 
the smallest population state in the Nation to the largest 
population state in the Nation.
    What we do have in common is a vast array of 
extraordinarily impressive public lands, and my State of 
Wyoming is almost half public lands. From those public lands we 
produce coal, oil, gas, wind, a little bit of solar, which I am 
so excited to learn more about today, because you are so far 
ahead of us in that regard, and also biomass in the terms of 
cellulosic ethanol.
    So, we have an all-of-the-above approach to energy in 
Wyoming. What we are working on is how to sequester carbon from 
coal, how to improve the recovery of resources from public 
lands to more efficiently serve the people of this nation, and 
to do it in a way that exemplifies good stewardship of public 
resources.
    My reason for being so pleased to attend this meeting today 
is because California is ahead of some states in the Nation 
with regard to its understanding of the capabilities of solar 
energy and the substantial progress that is being made in 
evolving that technology to something that is way more 
efficient and more valuable to throw into the mix of energy 
resources.
    I also want to thank, in addition to our Chairman, your 
Member of Congress from this District, Representative Mary Bono 
Mack, who is also tremendously engaged in the issues that we 
are discussing today. As a member of the very important Energy 
and Commerce Committee of Congress, she serves on subcommittees 
on energy, environment, and telecommunications, all of which 
are not only pivotal to you but pivotal to this discussion in 
particular.
    So, her willingness to host this hearing in your wonderful 
District, and display the innovations that are occurring on 
public lands or private lands here in Southern California, is 
really wonderful for those of us from other parts of the 
country to see. So, thank you, Congresswoman Bono Mack, for 
your kind attention to this subject, and to your constituents 
here in Southern California.
    So, the main purpose of our being here today is to look at 
the consensus that Chairman Costa described, so we can support 
plans that are appropriate for the development, through 
multiple use activities, of solar resources. According to the 
Energy Information Administration, at the end of 2007, seven 
percent of our nation's energy needs were generated from 
renewable and alternative sources of energy.
    Of these resources, most is used for electrical power 
generation. Solar energy provided two-tenths of one percent of 
that electrical power generation and lags significantly behind 
wind energy, which provided about seven percent of the 
electricity in the renewable mix. Hopefully, with the 
completion of a solar energy programmatic EIS, we will see 
additional solar energy projects coming online in the near 
future.
    I believe for the United States to improve both its 
economic and national security we will have to develop more of 
our own resources--renewable resources, such as wind and solar, 
which we are here to discuss today, and which you so proudly 
exemplify, and other renewable resources, such as hydropower, 
geothermal, biomass, and nuclear.
    We must also recognize that we need to use fossil fuels 
well into the future. Whether we like it or not, we and the 
rest of the world are highly dependent on these fuel resources, 
and they are wholly integrated in our society. Of course, 
natural gas is the cleanest burning of all the hydrocarbons 
that we use, and my State of Wyoming produces a large amount of 
the natural gas in this country. And we are the largest coal 
producer in this country.
    Coal provides about 50 percent of the nation's electrical 
power generation. So, it is going to take some time either to 
get to the point where we can integrate other resources into 
the electrical mix, or to advance clean coal technology to the 
point where we can continue to use that resource, so it does 
not become a stranded asset. But, nevertheless, it is not a 
drag on our efforts to clean up our air.
    If solar and wind and other renewable fuels are going to 
displace the need for fossil fuels now and in the future, we 
are going to have to get down to the business of getting these 
facilities sited and built, and that will be part of our 
discussion today.
    Yesterday was a wonderful day for Mother's Day. I woke up 
in Jackson, Wyoming, where we had snow on the ground, and it 
was a magnificent, crisp, beautiful, fabulous day. Took off at 
the base of the Tetons and flew to Salt Lake City. When I 
boarded a plane to Palm Springs, the pilot, you know, who 
usually gives you this nice weather report about your 
destination said, ``Clear skies and 102 degrees.'' And I 
thought, ``I didn't hear that right.''
    [Laughter.]
    But indeed I did, and I spent a lovely afternoon out at 
Twentynine Palms with the staff members you see here today, and 
Chairman Costa, touring the Marine Corps base there via 
helicopter, and seeing the wonderful advances they are making 
in renewable resources--geothermal, particularly solar, and 
wind as well.
    We had an opportunity to see some of the solar that they 
are adding to the platforms that shield their mechanics from 
the sun as they are working on machinery. We saw actual 
photovoltaic units that are advancing that base's ability to 
become more dependent on renewable sources of energy. We saw a 
240-acre lake bed that is going to be used eventually for solar 
panels that will make that base the most sustainable and 
renewable fuels advanced base in the military. It was truly 
impressive.
    In addition, I had a chance to see with Chairman Costa the 
simulated Iraqi villages that are in the desert there that 
prove to be very accurate training grounds for our troops as 
they are about to enter combat, or situations in Iraq and in 
communities that allow them to avoid combat, because of their 
understanding of the cultures or the communities in which they 
are involving themselves on the Iraqi and Afghani landscapes.
    So, it was an absolutely instructive, marvelous, diverse, 
unique Mother's Day. And, further, we enjoyed last evening some 
of your wonderful Southern California hospitality, and I want 
to thank the people of Southern California, my Chairman, Jim 
Costa, and our host, Member of Congress Congresswoman Mary Bono 
Mack for their extraordinary hospitality, the great education 
they are providing to me, and that we will share with our 
fellow Members of Congress.
    So, thank you so much, Mr. Chairman.
    Mr. Costa. Thank you very much, Congresswoman Lummis, for 
your participation. And I think you did a good description of 
yesterday's tour of Twentynine Palms and the innovative efforts 
that the Marines, as other branches of our service, are 
attempting to ensure that we do our best to have good energy 
practices.
    Our hostess this morning, you have not only done a great 
job with your staff and everything else, but you got all of 
your friends and relatives to come, too.
    [Laughter.]
    We like the turnout here. Thank you very much, Mary. And I 
was thinking about the first time that you and I met, I was the 
Chairman of the State Senate Agriculture and Water Committee, 
and we held a hearing here, and you participated in that 
hearing. And that was the first time that we got to chat. So, 
we obviously work together in the House, but it is nice to be 
back and holding a hearing again in your District.
    Your Congresswoman, Mary Bono Mack.

   STATEMENT OF THE HON. MARY BONO MACK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Bono Mack. I thank the Chairman very, very much for 
being here today, and the Ranking Member as well for your kind 
words, and welcome to probably the best Congressional District 
in the entire United States.
    [Laughter.]
    Yes.
    [Applause.]
    Although I do love Jackson Hole, it is definitely God's 
country, it is beautiful, I have spent many, many days hiking 
and camping and backpacking up in that area, so I welcome you 
to the 103-degree weather. And I usually--now you know what I 
face every week when I fly back and forth to Washington, D.C., 
where it is 30 degrees there, and usually it is about 85 
degrees here and perfect. So, trust me, it is something I do 
quite often.
    And to the Chairman, usually now we see each other weekly 
on the flight. We usually meet up in Denver. That is sort of 
our halfway point to Washington, D.C., on our weekly trek. So, 
it is much better to see you here in my District and working 
hard, and I thank you and your staff for holding this.
    And I just want to say one thing I regret is there are not 
typical C-SPAN cameras showing the faces of the witnesses as 
they deliver their testimony. But I really thank all of you for 
being here today, and I hold this Congressional District really 
as a high example of how to do environmental policy, because we 
are consensus-builders. We sit down and talk to each other 
about issues, and we really try to form answers and work 
together.
    And I can point to many examples I think in my written 
remarks, from the prepared remarks. I will point to those 
examples on how we work together quite successfully.
    But I, again, want to thank the staff for your hard work, 
and my staff, Chris Foster, who is over here, for his hard work 
as well.
    So, the Chairman mentioned we have 360 days of sunshine 
here. It is actually about, I don't know, 350. Those days that 
it rains, generally speaking, we hold a film festival.
    [Laughter.]
    And if you want to end a drought, you just have to throw a 
film festival, and it rains and it pours on those few days. So 
anyway, in fact, we do have about 350 days of sunshine here, 
making this area a natural fit for utilizing solar energy as a 
clean, renewable energy source.
    It is my hope that today's hearing can start us down a path 
toward finding a thoughtful approach to increasing solar energy 
development. There are a few fundamental components that can 
guide our thinking and approach, but we all know that in order 
to decrease our carbon emissions and meet the current 33 
percent state renewable electricity standard, and a potential 
Federal RES, we need to move forward and to tackle the hurdles 
in front of us.
    First off, it is important that when considering large 
solar commercial installations we keep in mind the unique lands 
around us. I am sure, Chairman Costa, in the short time you 
have been here, you have seen just how beautiful our ecosystem 
is here in Riverside County.
    It is these surroundings that bring so many tourists to our 
area and the reason so many families have chosen to call the 
desert home. Finding a balance between moving forward in the 
near term with solar energy development and protecting our 
local environment is really why we have to bring all sides to 
the table and work out how best to move forward.
    I know we can do it here in this area, as I have said, and 
there are already a few local examples that really show how a 
collaborative approach like that can achieve great results. 
That is why we now have the newly created wilderness lands in 
the county, the multi-species habitat conservation plan, and, 
of course, Santa Rosa and San Jacinto Mountains National 
Monument.
    I have truly enjoyed working with numerous local 
constituencies, many of those who are here today, on these 
efforts ever since coming to Congress. We have to keep in mind 
the larger goal of reducing our dependence on foreign oil and 
using more renewable energy as part of the way to get there 
when we hear from today's witnesses.
    Currently, in Washington and at the Energy and Commerce 
Committee, we are in the middle of crafting a massive effort to 
regulate and cap carbon emissions. Today's hearing will 
hopefully begin to address both the challenges of siting large 
solar projects but also how we move this energy, as these issue 
are clearly intertwined. I strongly believe we need to increase 
the efficiencies of our transmission infrastructure.
    Thank you.
    You guys should have said, ``We can't hear you.'' Do you 
want me to start over?
    [Laughter.]
    I strongly believe we need to increase the efficiencies of 
our transmission infrastructure while also pushing for ways to 
improve transmission for more rural areas where renewable 
energy potential is greatest to the areas that will use the 
resource. Whether it be moving the energy or siting a renewable 
energy project, I think it is also crucial for our businesses 
and financing community to have certainty.
    We all know with the conditions of the credit markets over 
the last six months that clear direction from Federal policy is 
going to be vital. Right now, we have various laudable efforts, 
be it the State's RETI initiative, the partnership between the 
U.S. DOE and the Western Governors' Association, pushing for 
western renewable energy zones, and multiple pieces of Federal 
legislation, but what we should seek in the end is a harmonized 
approach that aggressively brings online new renewable energy 
sources.
    The House and the Senate both are working on legislation 
that would accelerate the construction of new transmission 
through providing new authorities to the FERC. And I am hopeful 
we hear more about how to address this energy disconnect in a 
thoughtful manner.
    With that, I would like to welcome our witnesses today and 
thank them for coming. I really look forward to your testimony, 
and I definitely want to welcome my local City Councilman, Jim 
Ferguson, who is truly a pioneer and a leader in all of these 
initiatives. And, Commissioner Chong, it is nice to see you 
again. We visited in my office not too long ago. And Mr. Rabbit 
as well. We all had the chance to visit, and I am especially 
pleased that you are here today.
    And I thank the entire distinguished panel for being here 
today.
    So, again, thank you, Mr. Chairman. Again, I serve on the 
Energy and Commerce Committee, which probably is a bit 
confusing to my constituents in the audience. We don't always 
share a jurisdiction, but the goals are the same, and I look 
very much forward to working with you on all of these issues as 
we move forward.
    Again, I thank you for allowing me to be a part of your 
panel, since I am sort of an interloper from a different 
Committee. So, thank you very, very much.
    Thank you all for being here.
    [The prepared statement of Mrs. Bono Mack follows:]

Statement of The Honorable Mary Bono Mack, a Representative in Congress 
                      from the State of California

    Chairman Costa and Congresswoman Lummis, let me first welcome you 
both and the Subcommittee on Energy and Mineral Resources to 
California's Coachella Valley. I hope you've taken some time to enjoy 
the area and take in the sun. You're right in one of the sunniest parts 
of our country, and it's the perfect setting for today's field hearing.
    In fact, we have around 350 days of sunshine here, making the area 
a natural fit for utilizing solar energy as a clean, renewable energy 
source. It is my hope that today's hearing can start us down a path 
toward finding a thoughtful approach to increasing solar energy 
development.
    There are a few fundamental components that can guide our thinking 
and approach, but we all know that in order to decrease our carbon 
emissions and meet the current 33% State Renewable Electricity Standard 
and a potential Federal RES, we need to move forward and tackle the 
hurdles in front of us. First off, it's important to me that when 
considering large solar commercial installations we keep in mind the 
unique lands around us. I'm sure, Chairman Costa, in the short time 
you've been here, you've seen just how beautiful the ecosystem is that 
surrounds us in Riverside County.
    It's these surroundings that bring so many tourists to our area and 
the reason so many families have chosen to call the desert home in the 
last 20 years.
    Finding the balance between moving forward in the near term with 
solar energy development and protecting our local environment is really 
why I think we have to bring all sides to the table to work out how 
best to progress. I know we can do it here in this area, though, and 
there are already a few local examples that really show how a 
collaborative approach like that can achieve great results. That's why 
we now have newly-created wilderness lands in the County, the Multi-
Species Habitat Conservation Plan, and, of course, the Santa Rosa San 
Jacinto Mountains National Monument. I've truly enjoyed working with 
numerous local constituencies on these efforts since coming to 
Congress.
    We have to keep in mind the larger goal of reducing our dependence 
on foreign oil and using more renewable energy as part of the way to 
get there when we hear from today's witnesses. Right now, at the Energy 
and Commerce Committee we're in the middle of crafting a massive effort 
to regulate and cap carbon emissions. Today's hearing will hopefully 
begin to address both the challenges of siting large solar projects but 
also how we move this energy, as these issues are clearly intertwined. 
I strongly believe we need to increase the efficiencies of our 
transmission infrastructure while also pushing for ways to improve 
transmission from more rural areas where renewable energy potential is 
greatest to the areas that will use the resource.
    Whether it be moving the energy or siting a renewable energy 
project, I think it's also crucial for our business and financing 
community to have certainty. We all know with the conditions of the 
credit markets over the last 6 months that clear direction from federal 
policy is going to be vital. Right now we have various laudable 
efforts, be it the State's Renewable Energy Technology or the ``RETI'' 
initiative, the partnership between the U.S. Department of Energy and 
the Western Governors' Association pushing for Western Renewable Energy 
Zones, and multiple pieces of Federal legislation. But what we should 
seek in the end is a harmonized approach that aggressively brings 
online new renewable energy sources.
    The House and Senate both are working on legislation that would 
accelerate the construction of new transmission through providing new 
authorities to the FERC, and I'm hopeful we hear more about how to 
address this energy disconnect in a thoughtful manner.
    With that, I'd like to welcome our witnesses and thank them for 
coming today, as I really look forward to their testimony. In 
particular, it's great to see Councilman Jim Ferguson here to testify, 
as so often these issues of national scope are really very local in 
nature.
    Thank you Mr. Chairman, and I yield back the balance of my time.
                                 ______
                                 
    Mr. Costa. Your presence and participation is always 
welcomed, and we thank you again.
    Since you were kind enough to actually acknowledge your 
staff, I would be remiss. But we have Kathy Benedetto who I 
have worked with over the years with the Minority staff, we 
have Steve Feldgus, who is the person who has done a great deal 
of the work to put this hearing together, and we thank you, 
Steve, for your hard work. And then, Marcie Cooperman, who is 
back there, who is trying to make sure that the mics work and 
that everybody comes on time and leaves on time, and all that 
good stuff. So, I thank all three of you for your good work.
    Let us begin with the reason that we are here. You didn't 
come here to hear us expound on necessarily our own thoughts, 
but to hear thoughtful testimony from the two panels this 
morning, and to allow us an opportunity to have an exchange and 
ask questions and make comments.
    So, without further ado, we have our first panel, and we 
have The Honorable Jim Ferguson, Councilman from Palm Desert. 
We have Commissioner Julia Levin from the California Energy 
Commission. I remember when that was created. I date back when 
Governor Brown was there, and my friend, Chuck Imbrecht, used 
to chair it, and appreciate the good work.
    A lot of the energy standards for residential and 
commercial development took place as a result of the California 
Energy Commission, which has made itself felt--not only around 
the country but around the world.
    Commissioner Rachelle Chong from the California Public 
Utilities Commission. The California Public Utilities 
Commission does a wonderful job, and please give my friend, 
Mike Peavey, my regards. I am sorry he couldn't be here.
    And James Abbott, the Acting State Director for the Bureau 
of Land Management, from the California office as I understand. 
And then, our fifth witness is Mr. Thomas Kretzschmar--did I 
pronounce that properly? Kretzschmar. Who is the Senior 
Projects Manager for the United States Army Corps of Engineers. 
So, we look forward to that.
    I mention to the first panel, and the second panel should 
also take this to heart, for the witnesses the Federal way in 
which we do these hearings, we have these little boxes here, 
and there is a light. And while the written statements that all 
of our witnesses can provide can be as voluminous as you choose 
to make them, for the purpose of the hearing we would like to 
keep your comments to five minutes.
    So, for the first four minutes the light is green, and then 
on the fifth minute it turns yellow. And then, when it turns 
red, your seat collapses.
    [Laughter.]
    No, that is not true. But I provide a little leeway there, 
but we do obviously want to be mindful of everyone's time, so 
that we can get to the best part which is the question and 
answer portion.
    So, with that understood, it says here on my agenda that 
Mr. Ferguson, Councilmember, you are up first. So, why don't 
you begin with your testimony, please.

 STATEMENT OF THE HONORABLE JIM FERGUSON, COUNCILMAN, CITY OF 
                    PALM DESERT, CALIFORNIA

    Mr. Ferguson. Thank you, Mr. Chairman, and members of the 
Subcommittee. I want to start by applauding you for your 
recognition of not only Palm Desert's but California's 
conservation efforts. I truly believe the first line in our 
national, if not state, energy policy is conservation at home. 
And that conservation I think must be a necessary precedent to 
development of solar energy on Federal lands, and I will 
explain that to you in somewhat greater detail.
    For the past 13 years I have been a Councilman in the City 
of Palm Desert, having served twice as its mayor. I am also 
Chairman of the Coachella Valley Mountains Conservancy, a state 
agency of California having land holdings within the Santa Rosa 
and San Jacinto Mountains National Monument. As we sit here 
today, we are located in the center of the Coachella Valley, a 
region made up of nine cities, four Native American tribes, the 
County of Riverside. We number approximately one-half million 
people and represent one of the hottest per capita areas in the 
United States.
    We guard the uniqueness of our value zealously. For 
example, we recently enacted one of the most forward-reaching 
habitat conservation plans in the country, reflecting our high 
priority on the preservation of the natural resources with 
which we have been blessed. The Bureau of Land Management has 
committed to manage its lands within this protected area 
consistent with the plan as part of its Federal, state, and 
local partnership to conserve local ecosystems.
    As is evidenced by the wind farms at the entrance to our 
valley, we also recognize the value of alternative forms of 
energy, particularly solar. We embrace solar technology in both 
residential and rural areas, and let me be clear about that 
distinction. Residential and rural areas. In order to fulfill 
environmental climate change and economic development goals, we 
need both of them.
    In the residential sector, our support is in the form of 
distributed generation and energy conservation and efficiency. 
Working in a groundbreaking partnership with both our electric 
and natural gas service providers, Palm Desert has taken the 
lead and committed itself to a 30 percent reduction in its 
consumption of gas and electricity over the next five years. 
This includes the peak period of demand.
    We are well on our way to that goal with about 100--or, 
excuse me, one-third of our savings already attained. This is 
achieved primarily through increased energy efficiency in 
residential rooftop solar systems supported by incentives and 
financed by the City for the homeowner at a reasonable rate of 
interest rate for both.
    The City earns a fair rate of interest. The property owner 
immediately adds equity and energy savings to his residential 
investment, and our major utilities are better able to manage 
demand response during their peak periods.
    This program started with the simple premise that it is 
less expensive to save energy than it is to buy out-of-state 
``dirty power'' or permit new powerplants or power facilities 
in the State of California, which is almost an impossible task 
if you are from our State.
    To put this in better perspective, if all of California 
could simply conserve 20 percent, two-thirds of Palm Desert's 
goal, 20 percent of its energy consumption through efficiency 
in solar at home it would be the energy equivalent of 
permitting 10 new nuclear power generating facilities. This is 
exactly what we can expect from the energy equivalency of 
drilling an Alaska Wildlife National Refuge, which is a much 
better option.
    The Palm Desert Energy Independence Program has proven 
itself extraordinarily successful. It shows that more 
aggressive approaches to energy efficiency and renewable energy 
financing makes sense and can get us on a path to energy 
sustainability and security. We salute efficiency in renewable 
gains thus far, and call dramatically on increased activity.
    When environmental, economic development, and national 
security values are factored into the cost-benefit equation, 
energy efficiency and renewable energy on all scales make 
tremendous sense. It is our energy future, and we support 
prompt response as soon as possible.
    Let me be clear. We support commercial development of solar 
generation facilities in rural areas. We support President 
Obama's direction to develop renewable sources of energy on 
Federal lands, and Secretary Salazar's aggressive approach in 
addressing that directive. Frankly, I see no other way for us 
to meet the carbon dioxide mandates of the International 
Conference of Parties that crafted the Kyoto Protocol that was 
endorsed by the United Nations in Bali in 2007, and that will 
meet in Copenhagen later this year.
    California has also a 33 percent, as mentioned earlier, 
renewable portfolio standard mandate that it must meet by 2020. 
At a time when solar energy only factors approximately one 
percent into our State's solar mix, it is highly unlikely that 
any of our utilities will meet their interim targets by 2010, 
just next year, without the aggressive expansion of solar 
energy on Federal lands.
    Thank you very much.
    [The prepared statement of Mr. Ferguson follows:]

           Statement of Jim Ferguson, Palm Desert Councilman

    Good Morning Chairman Costa and Members of the Subcommittee on 
Energy and Mineral Resources:
    My name is Jim Ferguson and, for the past 13 years, I have been a 
Councilman in the City of Palm Desert--having served twice as its 
Mayor. I am also Chairman of the Coachella Valley Mountains 
Conservancy, a State agency of California having land holdings within 
the Santa Rosa and San Jacinto Mountains National Monument. As we sit 
here today, we are located in the center of the Coachella valley--a 
region made up of 9 cities, 4 Native American tribes and the County of 
Riverside. We number approximately 1/2 million residents and represent 
one of the hottest per capita places in America.
    Collectively, we recently enacted one of the most forward reaching 
habitat conservation plans in the country reflecting our high priority 
on the preservation of the natural resources with which we have been 
blessed. The Bureau of Land Management has committed to manage its 
lands within this protected consistent with this Plan area as part of 
the federal, state and local partnership to conserve local ecosystems
    Rather than solely focusing on large-scale solar developments on 
public and private lands, we enthusiastically embrace solar technology 
in both the residential and rural areas of our community. In order to 
fulfill energy, environmental, climate change and economic development 
goals, we need it all!
    In the residential sector our support is in the form of distributed 
generation and energy conservation/efficiency. Working in a 
groundbreaking partnership both our electric and natural gas service 
utilities, Palm Desert has taken the lead and committed itself to a 30% 
in overall city-wide reduction in its electrical load over a five year 
period. And we are well on our way, with about 1/3 of our savings 
attained to date. This is achieved primarily through increased energy 
efficiency and residential rooftop solar systems--supported by 
incentives and financed by the City for the homeowner at a reasonable 
interest rate for both. The City earns a fair rate of interest, the 
property owner immediately adds equity and energy savings to his 
residential investment, and our major utilities are better able to 
manage demand response during peak periods.
    This program started with the simple premise that it is less 
expensive to conserve energy off of our grid, than it was to buy out-
of-state power or permit new power generating facilities in California. 
To put this into better perspective, if all of California could simply 
conserve 20% of its energy consumption through efficiency and solar at 
home, it would be the energy equivalent of having ten (10) new nuclear 
generating facilities, or twenty (20) new gas fired plants in this 
State. This is roughly the energy we could expect from drilling in the 
Alaska Wildlife National Refuge--and what a better option!
    The ``Palm Desert Energy Independence Program'' has proven itself 
extraordinarily successful. It shows that more aggressive approaches to 
energy efficiency and renewable energy financing make sense and can get 
us on a path to energy sustainability and security. We salute 
efficiency and renewable gains thus far and call on dramatically 
increased activity. When environmental, economic development, and 
national security values are factored into the cost-benefit equation, 
energy efficiency and renewable energy--on all scales--makes tremendous 
sense. It is our energy future and we support prompt responsible action 
as soon as possible.
    One of the most exciting opportunities to promote renewable power 
development is a so called ``Feed-in-Tariff.'' The model has proven so 
successful in Europe, where Germany became the World leader in both 
solar energy and wind energy in a few years. It's time that America 
enacts a Federal feed-in-tariff program to reap similar gains. The 
Federal Energy Regulatory Commission could direct each state to develop 
feed-in-tariff prices that give investors a reasonable and predictable 
return for twenty (20) years.
    At the household level, the feed-in-tariff is quite simple. 
Homeowners are paid a fair price for their excess solar and other 
``green'' generated capacity. Germany and Spain have both instituted 
aggressive models and Spain now expects to have 100 Giga watts of solar 
capacity (100 nuclear facilities) by 2020.
    The point is, before we march off to disturb federal soils and 
disrupt their native habitat, there is much we can do through ever-more 
aggressive energy efficiency--throughout our society--and the 
deployment of safe, clean, renewable generation, distributed throughout 
our communities and close to its end use.
    We also support commercial development of solar generation 
facilities in rural areas: however, that is not unqualified support. We 
appreciate President Obama's direction to develop renewable sources of 
energy on federal land and Secretary Salazar's aggressive approach in 
addressing that directive. Frankly, I see no other way for us to meet 
the carbon reduction mandates of the International Conference of 
Parties that crafted the Kyoto Protocol, that was endorsed by the 
United States in Bali in 2007 and that will meet in Bali, and that will 
meet in Copenhagen later this year without increased efficiency, 
renewable energy and particularly solar production. California has also 
set a 33% renewable portfolio standard mandate for 2020 at a time when 
solar energy only factors approximately 1% into our state's energy mix. 
It is highly unlikely any of our utilities will meet their interim 
target by 2010--just next year!
    Since the turn of the last century, our Government has classified 
federal lands for various uses--predominantly conservation and 
preservation. Our new mandate for solar development should not be 
undertaken in a blanket, rushed approach. Unquestionably there are 
public lands which may be appropriate for solar development. These 
should be identified and cultivated. Similarly, there are lands which 
have previously been identified for cultural, biological and other 
purposes which must also be respected. In my opinion, the dual 
responsibility of cultivation of renewable resources and the 
preservation and conservation of cultural and biological resources is 
the main task before this Subcommittee. In that regard, I would like to 
share some of the thoughts of a consortium of environmental groups who 
have been working to develop a consensus approach to the issue.

I. INTRODUCTION
    The California Desert is a unique and special environment, as 
recognized by the Federal Land Policy Management Act in establishing 
the California Desert Conservation Area. The vast landscape is home to 
diverse biological communities, cultural sites, scenic and wild places, 
and other valuable areas. The desert lands also sequester carbon in the 
fragile desert crust, providing an important benefit in the effort to 
reduce carbon emissions in our state. These lands also are attractive 
for renewable energy projects, and have fueled a rush by companies to 
file applications on public lands for potential projects. The need to 
find alternatives to carbon based energy is great. In California, we 
are moving forward to meet a Renewable Portfolio Standard of 33% by 
2020, a goal which is widely supported as necessary to address climate 
change.
    We appreciate Subcommittee's leadership on the dual issues of 
natural resource conservation and renewable energy development in the 
California Desert and we are committed to working with her and all 
stakeholders to develop solutions.
    We support providing legislative protection for both the Catellus 
lands acquired for conservation purposes and other park and wilderness 
quality lands that have been identified throughout the California 
Deserts. We also believe that protection of these lands is a 
continuation of, and builds upon, the conservation work begun many 
years ago in the California Deserts.
    The protection of the Catellus lands and other wilderness and 
conservation lands should not be considered as mitigation for allowing 
for the development of renewable energy on other public lands in the 
California desert. Working to responsibly site renewable energy is not 
a quid pro quo for the protection of other lands. The siting of 
renewable energy projects in the California desert needs to be 
addressed separately from any conservation lands proposal.
    As detailed below, we believe that the siting of renewable energy 
projects in the California Desert can be done in a way that can benefit 
local communities while reducing the level of impact to the fragile 
desert ecosystems. For example, new renewable energy projects should 
not fuel sprawl, but should be clustered in appropriate locations, 
reducing the carbon footprint. And, we must ensure that future siting 
of renewable energy projects is conducted in a way that protects 
resilient habitat, which will provide room for species to adapt to 
climate change.
    This memo sets forth a two-phased approach that addresses short-
term needs with a process to identify pilot project areas and expedite 
siting in those areas, and also provides for a long-term plan to ensure 
sustainability of the desert environment. This memo also includes 
recommendations on how to incentivize development of renewable energy 
projects on private lands so that public lands do not bear the entire 
burden of renewable energy generation. Finally, this memo details a 
mapping process undertaken by the NGOs to produce a map of areas 
(public and private) identified as having a high potential for suitable 
solar energy development. To be clear, however, this map is not a 
definitive representation of what are considered thoroughly vetted 
development zones and does not address wind energy siting, biomass or 
geothermal. Instead, this map is an illustration of what could result 
from the recommended short-term, pilot project area process.

II. TWO-PHASED PLANNING APPROACH
    There are a large number of renewable energy projects proposed in 
the California Desert that potentially threaten the very lands that 
many, including Senator Feinstein, have worked hard to protect. The 
Bureau of Land Management (BLM) right of way process for evaluating 
these projects is not working--it is very time consuming and is not 
well suited to the task. Staffing shortages at BLM and other permitting 
agencies create additional problems.
    In order to meet our pressing need for clean energy in an 
environmentally responsible manner, we recommend that the siting of 
solar renewable energy projects in California take place in a two-
phased process. The first phase would addresses short-term needs to 
bring solar renewable power online to meet California's RPS goals, and 
the second phase would consist of a longer-term, comprehensive desert 
planning process. Both initiatives must move forward simultaneously.
   A. Phase One: Expedite progress by avoiding conflict.
Pilot Project Areas
    We recommend an accelerated short-term exercise to designate a 
limited number of ``pilot project areas'' without undermining existing 
environmental laws. This effort should evaluate public and private 
lands to identify areas appropriate for development and screen out 
lands that are inappropriate for development. Please see Attachment 1 
for a list of criteria for lands that are suitable and unsuitable for 
development and Attachment 3 for the preliminary map.
    To initiate this phase, we recommend that state and federal 
agencies work with stakeholders to identify pilot project areas 
sufficient to produce enough MW to meet half of the net short as 
defined by the California Energy Commission. This number should be 
calculated in conjunction with energy conservation, energy efficiency, 
projects on private lands, and distributed generation efforts.
    The BLM must focus its resources on project applications within the 
pilot project areas. While the BLM is currently utilizing the tool of 
``right of way'' applications, we do not believe that this 
administrative tool is suitable for solar renewable energy projects 
particularly because such projects completely destroy habitat values on 
site. The BLM must be able to use its authority to deny project 
applications in the pilot project areas (as they do elsewhere) if the 
project impacts are deemed significant and un-mitigable. The pilot 
project areas should be considered as feasible alternative sites for 
project applications currently in the environmental review process.
    Pilot projects can test or identify a number of important 
components of solar renewable energy siting, development and operations 
where more research and/or information is needed including:
    <bullet>  Ways to create a ``race to the top'' for generators in 
terms of environmental performance.
      <all>  Attachment 2 provides additional conditions that can be 
placed on renewable project applications to encourage more 
environmentally responsible project proposals
    <bullet>  Environmental impacts of different and emerging energy 
production technologies
      <all>  Impacts will vary project to project.
      <all>  Pilot projects should be used to establish BMPs for 
compiling conservation baseline prior to initiation of development.
    <bullet>  Technology-specific on site mitigation measures for 
different solar technologies.
      <all>  Environmental impacts will vary from technology to 
technology
    <bullet>  Technology-specific BMPs for operations (e.g., methods to 
minimize water use for cleaning, wastewater disposal/reclamation 
practices, ways to ensure wildlife movement corridors, measures to 
minimize adverse hydrological impacts both on- and off-site and 
appropriate types of fencing, etc).
    <bullet>  Robustness of, and gaps in, land use criteria
    <bullet>  Federal, state and local agency needs for additional 
staff and decision support tools to enable their participation in a 
cooperative siting process for additional renewable energy development.
    <bullet>  Ability of BLM and state agencies to work together across 
land ownerships
    <bullet>  Ways to expedite permitting, such as coordinated, 
simultaneous, multi-agency environmental review.
    <bullet>  Clustering development sites to minimize transmission/
interconnection needs.
    <bullet>  Presumed environmental benefits of clustering near 
existing infrastructure (e.g., waste water capture and reuse, adjacency 
to existing developments, support of local economies ``green jobs'', 
shared workplace transit for energy facility workers).
    <bullet>  Measures of the disturbance that results from solar 
development, including the change of vegetation and change of species 
found at and in the vicinity of the site.
    <bullet>  Methods for scaling up the research and analysis to 
measure the physical and biological changes at the ecosystem-level as a 
result of development. For example, studies should measure soil 
disturbance and its relationship to air quality in the deserts. 
Ecosystem scale analysis could also be particularly important for 
species that have a large range (e.g., bighorn sheep).

Mitigation
    Impacts to resources in pilot project areas should be fully 
mitigated to satisfy both federal and state requirements.

Disturbed Lands in Pilot Projects (please see Attachment 1, Section A 
        for definition)
    Disturbed lands should be prioritized for inclusion in pilot 
project areas. It is anticipated that mechanically disturbed lands 
support minimal or reduced sensitive biological, archaeological, 
paleontological and hydrological resources, due to the high level of 
disturbance they have experienced. Therefore, by design, it is unlikely 
that sensitive resources would be encountered on site. However, 
compliance with all applicable environmental laws will be necessary.
    We suggest the following measures to help expedite the process for 
solar plants on Disturbed Pilot Project Lands:
    <bullet>  A rapid assessment to determine whether sensitive species 
are present despite the disturbance;
    <bullet>  A maximum of a single season of appropriately timed 
surveys will be required; or
    <bullet>  If sensitive species are presumed or detected onsite, 
mitigation will be required, preferably using predetermined habitat 
acquisition and mitigation ratios which may also include an option of a 
fixed percent of mitigation through appropriately scaled payments into 
an established mitigation bank (if available) or other fund to pool 
resources for large-scale conservation land acquisition or mitigation 
projects such as tortoise fencing along major roads and bighorn sheep 
corridors/overpasses.

Undisturbed Pilot Project Lands
    Before undisturbed lands are included in pilot projects, they must 
be evaluated in order to establish that they have low resource 
conflicts potential despite the fact that they are undisturbed (i.e., 
lands which support a high level of ecological functioning). 
Undisturbed areas that are adjacent to existing mechanically disturbed 
lands should be favored over areas that are not.
    It is anticipated that undisturbed lands in pilot project areas 
will support reduced or minimal sensitive biological, archaeological, 
paleontological, visual and hydrological resources, based on the best 
current available resource information and their adjacency to disturbed 
lands. While it is possible that sensitive resources could be 
encountered on site, these sites will experience a conversion from 
natural function ecosystems to industrialization, and therefore all 
environmental laws are applicable.
    Key issues to be addressed in mitigation for projects on 
undisturbed Pilot Project lands include:
    <bullet>  A minimum of a single season of appropriately timed 
surveys will be required;
    <bullet>  If no sensitive or rare resources are encountered, 
impacts to these lands will be mitigated at a [specified] ratio, as 
appropriate; for federally protected species including but not limited 
to the desert tortoise, clearance surveys must be still be done;
    <bullet>  If surveys encounter sensitive or rare resources, 
additional surveys may be required in order to accurately characterize 
those resources. Based on the type of resources encountered, 
appropriate mitigations for sensitive resources on these undisturbed 
lands would be developed in coordination with local, State and federal 
agencies.

Mitigation Measures
    Mitigation measures for solar projects on undisturbed lands in the 
Pilot Project Areas should include:
    <bullet>  Acquisition of private lands that provide replacement 
habitat (``compensation lands'')
    <bullet>  Enhanced conservation management of specified public 
lands:
      <all>  For example, mitigation mechanisms identified in the CDCA 
Plan as amended including construction and maintenance of fencing near 
roads, buy outs of permits on grazing allotments relegation of closed 
routes, etc.
    <bullet>  Enhancement of compensation lands.
      <all>  Similar to enhancement of management of public lands the 
mitigation for private conservation lands could include funding fencing 
of the acquired lands or needed restoration.
    <bullet>  Managing compensation lands as conservation lands in the 
CDCA.
      <all>  Any compensation lands transferred to BLM shall be 
permanently segregated or withdrawn from use under the mining and land 
laws.
    Development of mitigation packages will be done in coordination 
with state, federal and local resource agencies.
   B. Interim Guidance
    The BLM must provide interim guidance for prioritizing project 
applications while the long term planning process is underway. The BLM 
should issue an Instruction Memorandum that details the criteria to be 
used to establish priorities for processing applications. These 
criteria must be designed to identify those applications which minimize 
both harm to the natural values of undisturbed public lands and the 
likelihood of controversy with the public and local communities. Such 
criteria must include:
    <bullet>  Avoiding lands with conservation values (see Attachment 
1, Section B)
    <bullet>  Prioritizing degraded lands and lands adjacent to 
degraded lands (see Attachment 1, Section B)
    <bullet>  Proximity to load centers
    <bullet>  Proximity to existing population centers including 
workforce housing
    <bullet>  Proximity to existing transmission and infrastructure;
    <bullet>  Availability of sufficient water without causing 
significant impacts to conservation values (primarily for cleaning--no 
``wet cooled'' projects in the desert unless the water used is 
reclaimed water from close by municipalities.);
    <bullet>  Demonstrated secure funding;
    <bullet>  Additional ``points'' for prioritizing projects for those 
that make commitments to reduce demand through energy efficiency 
projects in population centers or create positive local benefits 
through distributed generation projects
   C.  Phase Two: Develop comprehensive, strategic, management plan for 
        all types of renewable energy development that protects desert 
        resources and secures long term protection of biologically 
        important areas.
    The long-term phase of the process should include direction to the 
BLM to engage in a landscape level analysis for siting of all types of 
renewable energy development in the California Desert. This process 
should be coordinated with state and local agencies across the region 
in order to develop a comprehensive plan that addresses private as well 
as public lands. The plan should also establish requirements for 
enhanced management that will ensure long term conservation of desert 
biodiversity.

Desert Blueprint
    A comprehensive, strategic planning process for renewable energy 
development in the desert is needed to address the multiple land uses 
and values in the desert, including conservation, recreation, tourism, 
cultural sites, military testing and training, local economic 
development, and transportation infrastructure, as well as renewable 
energy. Federal and state agencies must work together in a transparent 
public process to develop a common ``blueprint'' for the desert. This 
``blueprint'' should include well-defined, measurable standards, 
developed via public involvement processes (e.g., habitat condition 
and/or population-level objectives). It should also employ science-
based analytical tools to evaluate compliance with the standards (e.g., 
population viability assessment). It should also provide consistent 
implementation of science-based analysis and decision-making (i.e., 
dedicated funding for monitoring and science-based adaptive management 
processes).
    The ``blueprint'' should reflect the best science available and 
specifically assess:
    <bullet>  Direct and indirect cumulative impacts
    <bullet>  Rare, sensitive, threatened and endangered species and 
wildlife corridor needs
    <bullet>  Climate change adaptation needs
    <bullet>  Carbon sequestration value of intact habitat
    <bullet>  Ecological process needs
    <bullet>  Ecological thresholds /limits for development
    <bullet>  Maintenance of hydrology in these arid environments
    California's Natural Community Conservation Plan (NCCP) coupled 
with the federal Habitat Conservation Plan (HCP) process may be able to 
provide an appropriate framework for this coordination, but federal 
legislative language would be required to ensure federal agencies' 
engagement. The strategic planning process must also provide meaningful 
opportunities for public participation by a broad array of 
stakeholders.

Renewable Energy Development Zones
    A primary goal of the comprehensive planning process will be to 
guide development of renewable energy projects to appropriate areas to 
provide certainty, minimize conflicts, and facilitate environmentally 
responsible siting. Directing development towards appropriate areas 
must include the following steps:
    <bullet>  Identification of the MW contribution expected to be 
generated by the lands covered by the plan in conjunction with 
contributions from other renewable energy sources (e.g., energy 
conservation, energy efficient, distributed generation, and renewable 
energy from other parts of the state).
    <bullet>  Designation of federal renewable energy zones for 
renewable development (please see Attachment 1 for land use criteria)
      <all>  Lessons learned from pilot projects should inform the 
designation of additional renewable energy zones
    <bullet>  Rating of designated areas based on greatest energy 
resource value and least environmental conflict and phasing of 
development accordingly
    <bullet>  Requiring existing and new applicants to locate projects 
in identified renewable energy zones in appropriate phases
    The BLM should establish a competitive application process going 
forward that is designed to encourage a ``race to the top'' among 
generators. This process would provide incentives for generators to put 
forward the most environmentally responsible project proposals, both in 
terms of siting and project impacts on the ground. Lessons learned from 
the pilot project areas should also inform the processing of 
applications. Among other strategies, technology-specific BMPs for 
solar development will set high performance standards for developers. 
(Please see Attachment 2 for a list of additional conditions that could 
be placed on renewable energy applications to create a more competitive 
application process).

Strategic Desert Conservation
    Long term protection of biologically important lands is a critical 
component of the long term planning process. The blueprint process 
must:
    <bullet>  Identify specific public lands with high resource values 
that require additional conservation designations (outside of the 
mitigation process).
    <bullet>  Identify additional lands for acquisition by public 
agencies.

Mitigation
    All impacts of renewable energy projects must be fully mitigated. 
The blueprint effort can be a framework for developing a strategic 
mitigation process which generates more robust and effective mitigation 
over the long term than can be achieved on a project by project basis.
    Strategic long-term mitigation planning must address the following:
    <bullet>  Incorporation of biodiversity sustainability/viability 
indicators
    <bullet>  Long term stewardship and funding of stewardship of 
mitigation lands
    <bullet>  Mechanisms for ensuring conservation is prioritized on 
public lands
    <bullet>  Opportunities for pooling mitigation funds for larger 
scale land acquisitions of properties identified in the desert 
blueprint process and managing those compensation lands for the benefit 
of the lost and impacted resources.
    <bullet>  Expanding legal requirements for mitigation as impacts of 
renewable energy projects are documented.

III. INCENTIVES FOR PRIVATE LAND DEVELOPMENT FOR RENEWABLE ENERGY 
        PROJECTS
   A. Identify funding and/or incentives for land aggregation:
    <bullet>  Federal zero-interest loans for aggregators of private 
lands for solar energy development (with sidebars to exclude 
speculators).
    <bullet>  Capital gains tax exemptions for those purchasing private 
land for solar energy development.
    <bullet>  Subsidies (such as partial or full closing costs).
    <bullet>  State and federal tax breaks (capital gains, tax credits 
etc.).
   B.  Create mechanisms to reward generators for locating on disturbed 
        areas:
    <bullet>  Federal zero-interest loans for solar energy 
infrastructure development on private lands (with sidebars).
    <bullet>  Capital gains tax exemptions for developers on private 
lands.
    <bullet>  State and federal tax breaks (capital gains, tax credits 
etc.).
    <bullet>  Regulatory advantages (such as expedited review and 
interconnection preferences at the state and federal level).
    <bullet>  Simplifying and minimizing mitigation for development on 
disturbed land
    <bullet>  Accelerated environmental review of solar facilities on 
disturbed private lands. For example, there could be local incentives 
for accelerating local permitting.
    <bullet>  Accelerated depreciation of solar infrastructure on 
private lands.
   C. Foster community benefits by siting on private lands:
    Create federal redevelopment or enterprise zones (e.g., Imperial 
County's Economic Development Corporation, http://www.ivedc.com/
?pid=2). Or, create a state economic development zone or a county 
Energy Element to a General Plan or a redevelopment area.
    Provide payments in lieu of taxes or revenue sharing for local 
governments to compensate for lost tax revenues due to lower solar 
assessments.
    Create state and federal tax breaks (capital gains, tax credits 
etc.) for landowners who develop their lands with renewable energy 
projects.
    Provide federal financing modeled after AB 811 (http://
www.ab811.org/).
    For landowners, make them eligible for a portion of the Investment 
Tax Credit that currently goes to producers.
    For landowners, tax the rental profits at a lower rate than regular 
income if the profits are from solar producers using the land.
   D. What are the attributes to qualify for a solar energy zone?
    <bullet>  Adequate insolation (average hours of sunlight); if a 
value is used, it should be set to include such areas as west San 
Joaquin Valley.
    <bullet>  Proximity to transmission.
    <bullet>  Degraded biological, scenic and cultural values, 
especially previously graded lands, fragmented land, or land exposed to 
edge effects, etc.
    <bullet>  Avoidance of ``core'' natural areas.
    <bullet>  Avoid incentivizing small isolated solar farms in 
relatively pristine natural areas

III.  Overview of Mapping of potential Pilot Project Areas For 
        Renewable Energy Development in the California Deserts
    In response to Senator Feinstein's request to identify public lands 
that are appropriate for renewable energy development, we have used the 
criteria, set forth in this memorandum, to identify potential areas for 
renewable energy pilot projects. This mapping exercise clearly 
demonstrates the potential availability of acreage for renewable 
projects on public lands. Similarly, an initial mapping exercise has 
also identified significant acreage of private disturbed lands that are 
likely appropriate for renewable energy development.
    It is important to note that the NGOs involved in this exercise are 
not specifically endorsing the identified pilot project areas as ``go 
zones'' for development. Nor do we support legislative designation of 
renewable energy zones.
    Instead, it is our strong belief that the state and federal 
government agencies, working with stakeholders, will be able to conduct 
an accelerated short-term exercise to quickly identify renewable energy 
pilot project areas. We also believe that it will be possible to gain 
broad consensus on a number of areas for development. The NGOs involved 
in this effort are willing to collaborate with the state and federal 
agencies to identify renewable energy pilot project areas as part of a 
larger planning effort that includes both a short-term and a long-term 
process for comprehensive planning, as described above in this 
memorandum.
    The potential pilot project areas in the attached map were 
identified based on the criteria contained in this memorandum. 
Particular consideration was given to the following factors:
    1.  Protecting the core of pristine desert lands, which provides 
the following benefits:
        a.  Areas are located in proximity to existing population 
        centers
        b.  Areas are located in proximity to existing transmission and 
        infrastructure.
        c.  Areas are located in the vicinity of homes and services for 
        the workforce that will be required
        d.  Reduction of greenhouse gas emissions related to necessary 
        travel of workforce to these facilities
        e.  Opportunities for economic stimulus are created for 
        population centers in need of jobs
        f.  Areas will not create small cities to support facility 
        operation in remote desert locations
    2.  Avoidance of lands with known ecological and biological values, 
and known cultural values, based on site visits and database queries. 
Lands are not underrepresented in other public lands conservation 
areas.
    3.  Prioritization of public lands and lands adjacent to degraded 
public and private lands (as defined above), for the following reasons:
        a.  Lands adjacent to degraded lands typically have lower 
        biological value due to the edge effect of disturbed lands.
        b.  Locating pilot projects adjacent to private disturbed lands 
        allows for expansion of the renewable energy development and 
        clustering of renewable energy projects over larger areas.
        c.  Locations have the potential to attract projects from 
        siting in core habitat areas.
    4.  This mapping exercise was conducted in one week with a 
relatively small team of ecologists, biologists and conservation 
professionals. The first step was to identify to a number of potential 
pilot project areas based on firsthand knowledge of the landscape, a 
GIS evaluation, and biological and cultural database queries. The 
second step was to refine these initial pilot project areas through 
site visits. In one week, the group identified public lands that are 
potentially appropriate for renewable energy development. Our 
conclusion from this mapping exercise is it is possible to site pilot 
areas for renewable facilities in a manner that minimizes impact to the 
desert ecosystems and we are ready to collaborate in finding those 
areas.
    In conclusion, I would strongly recommend the Subcommittee look at 
maximizing energy efficiency, Conservation and distributed generation 
(rooftop solar) with s a federal feed-in-tariff to stimulate this 
activity, prior with commercial solar developments as outlined above.
    Thank you for your time this morning.
                                 ______
                                 

  Audubon California * California Wilderness Coalition * Defenders of 
   Wildlife * Desert Protection Council * Mojave Desert Land Trust * 
     Natural Resources Defense Council * Sierra Club * The Nature 
                             Conservancy * 
           The Wilderness Society * The Wildlands Conservancy

Renewable Siting Criteria for California Desert Conservation Area
    Environmental stakeholders have been asked by land management 
agencies, elected officials, other decision-makers, and renewable 
energy proponents to provide criteria for use in identifying potential 
renewable energy sites in the California Desert Conservation Area 
(CDCA). Large parts of the California desert ecosystem have survived 
despite pressures from mining, grazing, ORV, real estate development 
and military uses over the last century. Now, utility scale renewable 
energy development presents the challenge of new land consumptive 
activities on a potentially unprecedented scale. Without careful 
planning, the surviving desert ecosystems may be further fragmented, 
degraded and lost.
    The criteria below primarily address the siting of solar energy 
projects and would need to be further refined to address factors that 
are specific to the siting of wind and geothermal facilities. While the 
criteria listed below are not ranked, they are intended to inform 
planning processes and were designed to provide ecosystem level 
protection to the CDCA (including public, private and military lands) 
by giving preference to disturbed lands, steering development away from 
lands with high environmental values, and avoiding the deserts' 
undeveloped cores. They were developed with input from field 
scientists, land managers, and conservation professionals and fall into 
two categories: 1) areas to prioritize for siting and 2) high conflict 
areas. The criteria are intended to guide solar development to areas 
with comparatively low potential for conflict and controversy in an 
effort to help California meet its ambitious renewable energy goals in 
a timely manner.

Areas to Prioritize for Siting
    <bullet>  Lands that have been mechanically disturbed, i.e., 
locations that are degraded and disturbed by mechanical disturbance:
      <all>  Lands that have been ``type-converted'' from native 
vegetation through plowing, bulldozing or other mechanical impact often 
in support of agriculture or other land cover change activities 
(mining, clearance for development, heavy off-road vehicle use). 
<SUP>1</SUP>
    <bullet>  Public lands of comparatively low resource value located 
adjacent to degraded and impacted private lands on the fringes of the 
CDCA: <SUP>2</SUP>
      <all>  Allow for the expansion of renewable energy development 
onto private lands.
      <all>  Private lands development offers tax benefits to local 
government.
    <bullet>  Brownfields:
      <all>  Revitalize idle or underutilized industrialized sites.
      <all>  Existing transmission capacity and infrastructure are 
typically in place.
    <bullet>  Locations adjacent to urbanized areas: <SUP>3</SUP>
      <all>  Provide jobs for local residents often in underserved 
communities;
      <all>  Minimize growth-inducing impacts;
      <all>  Provide homes and services for the workforce that will be 
required at new energy facilities;
      <all>  Minimize workforce commute and associated greenhouse gas 
emissions.
    <bullet>  Locations that minimize the need to build new roads.
    <bullet>  Locations that could be served by existing substations.
    <bullet>  Areas proximate to sources of municipal wastewater for 
use in cleaning.
    <bullet>  Locations proximate to load centers.
    <bullet>  Locations adjacent to federally designated corridors with 
existing major transmission lines. <SUP>4</SUP>

High Conflict Areas
    In an effort to flag areas that will generate significant 
controversy the environmental community has developed the following 
list of criteria for areas to avoid in siting renewable projects. These 
criteria are fairly broad. They are intended to minimize resource 
conflicts and thereby help California meet its ambitious renewable 
goals. The criteria are not intended to serve as a substitute for 
project specific review. They do not include the categories of lands 
within the California desert that are off limits to all development by 
statute or policy. <SUP>5</SUP>
    <bullet>  Locations that support sensitive biological resources, 
including: federally designated and proposed critical habitat; 
significant <SUP>6</SUP> populations of federal or state threatened and 
endangered species, <SUP>7</SUP> significant populations of sensitive, 
rare and special status species, <SUP>8</SUP> and rare or unique plant 
communities. <SUP>9</SUP>
    <bullet>  Areas of Critical Environmental Concern, Wildlife Habitat 
Management Areas, proposed HCP and NCCP Conservation Reserves. 
<SUP>10</SUP>
    <bullet>  Lands purchased for conservation including those conveyed 
to the BLM. <SUP>11</SUP>
    <bullet>  Landscape-level biological linkage areas required for the 
continued functioning of biological and ecological processes. 
<SUP>12</SUP>
    <bullet>  Proposed Wilderness Areas, proposed National Monuments, 
and Citizens' Wilderness Inventory Areas. <SUP>13</SUP>
    <bullet>  Wetlands and riparian areas, including the upland habitat 
and groundwater resources required to protect the integrity of seeps, 
springs, streams or wetlands. <SUP>14</SUP>
    <bullet>  National Historic Register eligible sites and other known 
cultural resources.
    <bullet>  Locations directly adjacent to National or State Park 
units. <SUP>15</SUP>

EXPLANATIONS
<SUP>1</SUP> Some of these lands may be currently abandoned from those 
prior activities, allowing some natural vegetation to be sparsely re-
established. However, because the desert is slow to heal, these lands 
do not support the high level of ecological functioning that 
undisturbed natural lands do.

<SUP>2</SUP> Based on currently available data.

<SUP>3</SUP> Urbanized areas include desert communities that welcome 
local industrial development but do not include communities that are 
dependent on tourism for their economic survival.

<SUP>4</SUP> The term ``federally designated corridors'' does not 
include contingent corridors.

<SUP>5</SUP> Lands where development is prohibited by statute or policy 
include but are not limited to: National Park Service units; designated 
Wilderness Areas; Wilderness Study Areas; BLM National Conservation 
Areas; National Recreation Areas; National Monuments; private preserves 
and reserves; Inventoried Roadless Areas on USFS lands; National 
Historic and National Scenic Trails; National Wild, Scenic and 
Recreational Rivers; HCP and NCCP lands precluded from development; 
conservation mitigation banks under conservation easements approved by 
the state Department of Fish and Game, U.S. Fish and Wildlife Service 
or Army Corps of Engineers a; California State Wetlands; California 
State Parks; Department of Fish and Game Wildlife Areas and Ecological 
Reserves; National Historic Register sites.

<SUP>6</SUP> Determining ``significance'' requires consideration of 
factors that include population size and characteristics, linkage, and 
feasibility of mitigation.

<SUP>7</SUP> Some listed species have no designated critical habitat or 
occupy habitat outside of designated critical habitat. Locations with 
significant occurrences of federal or state threatened and endangered 
species should be avoided even if these locations are outside of 
designated critical habitat or conservation areas in order to minimize 
take and provide connectivity between critical habitat units.

<SUP>8</SUP> Significant populations/occurrences of sensitive, rare and 
special status species including CNPS list 1B and list 2 plants, and 
federal or state agency species of concern.

<SUP>9</SUP> Rare plant communities/assemblages include those defined 
by the California Native Plant Society's Rare Plant Communities 
Initiative and by federal, state and county agencies.

<SUP>10</SUP> ACECs include Desert Tortoise Desert Wildlife Management 
Areas (DWMAs). The CDCA Plan has designated specific Wildlife Habitat 
Management Areas (HMAs) to conserve habitat for species such as the 
Mohave ground squirrel and bighorn sheep. Some of these designated 
areas are subject to development caps which apply to renewable energy 
projects (as well as other activities).

<SUP>11</SUP> These lands include compensation lands purchased for 
mitigation by other parties and transferred to the BLM and compensation 
lands purchased directly by the BLM.

<SUP>12</SUP> Landscape-level linkages provide connectivity between 
species populations, wildlife movement corridors, ecological process 
corridors (e.g., sand movement corridors), and climate change 
adaptation corridors. They also provide connections between protected 
ecological reserves such as National Park units and Wilderness Areas. 
The long-term viability of existing populations within such reserves 
may be dependent upon habitat, populations or processes that extend 
outside of their boundaries. While it is possible to describe current 
wildlife movement corridors, the problem of forecasting the future 
locations of such corridors is confounded by the lack of certainty 
inherent in global climate change. Hence the need to maintain broad, 
landscape-level connections. To maintain ecological functions and 
natural history values inherent in parks, wilderness and other 
biological reserves, trans-boundary ecological processes must be 
identified and protected. Specific and cumulative impacts that may 
threaten vital corridors and trans-boundary processes should be 
avoided.

<SUP>13</SUP> Proposed Wilderness areas: lands proposed by a Member of 
Congress to be set aside to preserve wilderness values. The proposal 
must be: 1) introduced as legislation, or 2) announced by a Member of 
Congress with publicly available maps. Proposed National Monuments: 
areas proposed by the President or a Member of Congress to protect 
objects of historic or scientific interest. The proposal must be: 1) 
introduced as legislation or 2) announced by a Member of Congress with 
publicly available maps. Citizens' Wilderness Inventory Areas: lands 
that have been inventoried by citizens groups, conservationists, and 
agencies and found to have defined ``wilderness characteristics.'' The 
proposal has been publicly announced.

<SUP>14</SUP> The extent of upland habitat that needs to be protected 
is sensitive to site-specific resources. For example: the NECO 
Amendment to the CDCA Plan protects streams within a 5-mile radius of 
Townsend big-eared bat maternity roosts; aquatic and riparian species 
may be highly sensitive to changes in groundwater levels.

<SUP>15</SUP> Adjacent: lying contiguous, adjoining or within 2 miles 
of park or state boundaries. (Note: lands more than 2 miles from a park 
boundary should be evaluated for importance from a landscape-level 
linkage perspective, as further defined in footnote 12).
                                 ______
                                 

           Response to questions submitted for the record by 
                        Councilman Jim Ferguson

1.  Councilman Ferguson, in your testimony you mentioned the need to 
        identify pilot projects that can be sited quickly and without 
        conflict. Can you identify any sites that can be located 
        without local objection?
    Response: In the Coachella Valley, there do not appear to be any 
sites. There is already a significant number of wind turbine facilities 
located on both BLM and private lands in the Coachella Valley. While it 
is likely that some additional wind energy projects may be sited in the 
valley, or that existing turbines will be replaced by larger-generating 
turbines, it is doubtful that a large solar project could be easily 
sited in the Coachella Valley, where significant urbanization has 
already occurred and many areas have already been committed to 
conservation. We are, however, actively pursuing roof-top solar and 
improved energy conservation in the valley. Not far outside the 
Coachella valley, there is a large area on both private and BLM lands 
by Desert Center that has been disturbed by abandoned agricultural 
activities. There is also a large area in the Palo Verde Valley area 
near Blythe that has also been disturbed. It is my understanding that a 
coalition of environmental organizations has identified these two areas 
as potentially suitable for renewable energy projects. This coalition 
submitted the attached map to BLM (``Map'') as part of the coalition's 
input into BLM's siting process. In addition, they have provided the 
attached Desert Siting Criteria (``Criteria'') for further ascertaining 
suitable sites within the designated solar zones. You will see on the 
map that the coalition also identified areas in other parts of the 
California desert that they consider as potentially suitable for 
renewable energy project siting. This Map and Criteria are in 
preliminary draft form and represent the view of predominantly 
environmental groups. Other interest groups can be expected to desire 
an expansion of the identified on the Map areas and greater flexibility 
with the Criteria,.

2.  Councilman Ferguson, does an inventory of degraded or previously 
        used lands that would be suitable for siting renewable energy 
        projects exists? If not, how much time and money do you 
        estimate it would take to compile such an inventory, and what 
        would be the best agency to carry this out?
    As indicated in the response to Question 1, a coalition of 
environmental groups has been working to prepare an inventory of what 
they consider to be previously disturbed lands suitable for siting 
renewable energy projects. While this inventory would reflect their 
particular assumptions and criteria, it may make a good point of 
departure for preparation of an inventory for use by BLM to consider 
siting facilities on federal land. I believe, however, that preparation 
of an inventory should be coordinated among all stakeholders. The State 
of California has, for example, already expended considerable effort 
through its RETI (Renewable Energy Transmission Initiative) process to 
identify suitable sites. There has been criticism, seemingly 
justifiably, of this process for its lack of inclusion of affected 
local governments and other interests. For example, the County of 
Riverside was critical of the process for not having sought to 
coordinate with the county and other local governments and interest 
groups. To achieve an expedited process, I would suggest that perhaps 
your committee staff could work with BLM, USFWS, state energy and 
resource agencies, affected local governments, and environmental 
interests to seek rapid consensus about disturbed areas suitable for 
renewable energy development. As an example of what the environmental 
coalition has done, their criteria have resulted in their identifying 
the following areas as potentially suitable for renewable energy 
facility siting.

[GRAPHIC] [TIFF OMITTED] T9683.005

3.  Councilman Ferguson, please explain the difference between a 
        ``feed-in-tariff'' system and ``net metering.''
    Thank you for the opportunity to clarify the difference between 
``net energy metering'' and ``feed-in tariffs.'' The following chart 
compares California and German solar installations. California's 
incentive structure--in blue--is based on net energy metering. In 
Germany, the feed-in tariff model has had dramatic results as shown in 
red.

[GRAPHIC] [TIFF OMITTED] T9683.006

    Net energy metering prices are established based on utilities' 
avoided costs, or simply what's best for the utility in the short term. 
Feed-in tariffs are used to catalyze markets, and to assure independent 
investors with reasonable returns to make this a reality.

Net Energy Metering (NEM)
    Without question, ``net energy metering'' limits solar 
installations and greatly complicates the solar investment analysis. To 
participate in a net energy metering program like the California Solar 
Initiative (CSI), a solar installation must offset a specific meter and 
the system must be sized to generate no more power than is used by that 
meter on site. The rules limit the size of the solar system to the 
consumption on site. Because of this meter restriction, virtually all 
multi-family buildings and multi-metered commercial buildings are 
excluded from participation.
Sectors where NEM does not work
        1.  Multi-family buildings
        2.  Multi-metered commercial properties
        3.  Properties that can generate excess power
        4.  Industries, businesses and institutions on low-cost rates
    Payback of the net system costs for photovoltaics installed under 
the NEM rules comes from reducing the owner's electric bill. That 
reduction is based on avoiding the purchase of conventional power. Its 
value is a function of the rate at that meter, which varies. 
Consequently, buildings that have very low electric rates will not 
benefit sufficiently from the net metered savings to make their 
projects economically viable. A low rate--in addition to retarding 
investments in energy efficiency--devalues the output of a solar 
system.
    Many of the best roofs for solar in the urban environment are on 
buildings that are multi-metered or pay very low rates, making them 
unsuited for CSI participation. Time of use rates complicate the 
situation further.

Background on Feed-In Tariffs (FIT)
    A distinctly different incentive model for solar systems and other 
renewables are ``feed-in tariffs.'' These are sets of prices used to 
jumpstart renewable energy production. When subject to feed-in tariffs, 
electric utilities are obligated to buy renewable power such as solar, 
wind, biomass, and geothermal at above-market rates set by the 
government. And investors can generate as much as they want--or as much 
as their roofs or land areas will allow. Unlike net energy metering, 
feed-in tariff incentives are built around the requirements of solar 
investors.
    Different tariffs are paid for different renewables--wind, solar, 
biomass, geothermal, etc.--and for different-sized systems. Generally, 
the tariffs paid per kilowatt-hour are 2--3 times the retail rate, well 
above utility avoided costs and the wholesale rates traditionally paid 
for power purchases. Over time, and based on their success and 
technology gains, the prices can be reduced.
    Without question, the German FIT model has proven to be the world's 
most effective practice for boosting adoption of renewable energy 
technologies. The model has been used for wind and solar, with wind 
developments providing many times more power than solar. More than 41 
nations--from Spain and Portugal to France, Italy, Denmark, the Czech 
Republic, and South Korea are now emulating the German model, using 
FITs to stimulate renewable power production. California--despite its 
abundant sunshine--is seriously lagging.
                                 ______
                                 
    Mr. Costa. Thank you.
    [Applause.]
    Excuse me. We appreciate the enthusiasm, but we don't 
encourage either cheering or booing or any of those kinds of 
things during these hearings. They take away from it. But 
obviously you invited your family here.
    [Laughter.]
    Our next witness is Commissioner Julia Levin from the 
California Energy Commission. And our last witness was about 30 
seconds over. As I say, I give a little leeway, but do be 
mindful of the time.
    Thank you very much. Commissioner Levin?

            STATEMENT OF JULIA LEVIN, COMMISSIONER, 
                  CALIFORNIA ENERGY COMMISSION

    Ms. Levin. Good morning, Mr. Chairman, and members of the 
Committee. Thank you very much for the opportunity to testify 
and for looking for ways to build consensus on this very, very 
important issue for California.
    Mr. Costa. Is the mic on there?
    Ms. Levin. OK. Is this better?
    Mr. Costa. Yes.
    Ms. Levin. Sorry.
    Mr. Costa. You have to be right up close.
    Ms. Levin. All right. I will try.
    The California Energy Commission, for those of you that 
aren't familiar with it, is the statewide agency responsible 
for implementing California's policies on renewable 
electricity, energy efficiency, we set building and appliance 
standards for efficiency, transmission, transportation, fuels, 
climate change policies, and other energy-related policies.
    We are also the permitting agency in California for thermal 
powerplants, which includes geothermal, natural gas, and solar 
thermal. It does not include photovoltaics, however, because 
those are not thermal power. And we also permit transmission 
lines associated with thermal powerplants.
    As you know, California has been a leader in climate and 
clean energy policies for many, many decades. And we hope to 
continue our leadership on this very important issue of 
balancing accelerated renewable energy development and 
conservation of sensitive resources.
    As many people have mentioned, California has a very 
aggressive renewable electricity goal, 33 percent. You may not 
be aware that we also have a state Global Warming Solutions 
Act, which many of us refer to as AB 32, which requires 
California to reduce our global warming emissions back to 1990 
levels by 2020, which is a cut of about 29 percent from 
business as usual.
    It is an aggressive goal, but our Governor, like President 
Obama, has stated an even more impressive goal for 2050, which 
is the goal proposed by most scientists around the world, and 
that is a reduction of 80 to 90 percent of all global warming 
emissions by 2050.
    These are very, very critical goals.
    Mr. Costa. Listen, I am really serious about this. We 
appreciate your enthusiasm, but it is not polite for the 
witness, and it takes away from the time. And if there come to 
be more demonstrations, we will have to ask you to please 
leave. So, we really are serious about that.
    Commissioner Levin, please go ahead.
    Ms. Levin. Thank you.
    Mr. Costa. We won't count that against your time.
    Ms. Levin. Thank you. These are very, very important goals, 
not just to protect California from the worst impacts of 
climate change, including impacts on sensitive ecosystems like 
the California desert, these are also critical for our economy 
and for building a clean energy economy of the future. These 
will create jobs, these will create new businesses, business 
opportunities in California. It will also protect consumers and 
finally give us true energy independence.
    All of these goals are recognized in the American Recovery 
and Reinvestment Act, which puts more than $40 billion into 
clean energy programs, and California would like to get our 
share of that money, in part by accelerating renewable energy 
development in the right places in California.
    How do we plan to achieve all of these goals? By working 
together in a collaborative, science-based, transparent 
planning process that identifies the right places for renewable 
energy development and the most important places to conserve 
and protect from development.
    Several of the Committee members have recognized RETI, the 
Renewable Energy Transmission Initiative. This is a process 
California began nearly two years ago to identify the most 
important areas for renewable energy development based on 
energy, economic, and environmental factors. We have recently 
begun to expand that effort due to the Governor's Executive 
Order last November and a memorandum of understanding between 
state and Federal agencies, including the Bureau of Land 
Management, U.S. Fish and Wildlife Service, the California 
Department of Fish and Game, and the California Energy 
Commission.
    The Executive Order and the memorandum of understanding 
call on the Federal and state agencies not just to expedite and 
streamline permitting for new renewable energy development, but 
to create one-stop permitting so it is easier for applicants to 
establish renewable energy zones that are priority areas for 
renewable energy development and the transmission needed to 
serve those zones, and to develop a desert renewable energy and 
conservation plan, which will provide the long-term 
conservation needed in the most sensitive areas of our 
important desert.
    And we are well along in this process, and I really have to 
thank my Federal colleagues, particularly the Bureau of Land 
Management, which has been an absolutely astounding, wonderful 
partner in this, as have the branches of the armed services, 
particularly the Marines at Twentynine Palms and elsewhere. 
They really have been full partners and participated in RETI 
and in the DRECP planning and the other--both renewable energy 
permitting and conservation planning in the desert.
    That partnership is critical, and if I have one request of 
the Committee it is to increase the resources for these Federal 
agencies, so that they can only increase their participation 
or, maybe more realistically, get some sleep every once in a 
great while, because they really--their partnership is critical 
to the success.
    As I said, it is very, very important to be successful, to 
achieve a consensus that you are striving for by having a 
science-based, public, transparent process. We believe this 
process will help to accelerate renewable energy in the right 
places, and to help us to develop the long-term conservation 
plan that we need to protect the most sensitive, vulnerable, 
and unique California resources.
    So, we thank you again very much for your time, and we look 
forward to achieving that consensus together.
    [The prepared statement of Ms. Levin follows:]

                Statement of Julia Levin, Commissioner, 
             Renewable Energy, California Energy Commission

    Good Morning, Mr. Chairman and Committee Members. My name is Julia 
Levin and I am the presiding Commissioner for Renewable Energy at the 
California Energy Commission. Thank you for the opportunity to provide 
this testimony.
    The California Energy Commission is responsible for implementing 
statewide policies on renewable energy, energy efficiency, electricity 
transmission, transportation fuels and the State's climate change 
policies. The Energy Commission is also the state permitting agency for 
thermal power plants greater than 50 megawatts (MW), including solar 
thermal, geothermal and natural gas powered plants. In addition, the 
Energy Commission permits transmission lines associated with thermal 
power plants, develops a statewide Strategic Transmission Investment 
Plan and designates transmission corridors on non-federal lands.
    As you know, California has a long history of leadership on climate 
and clean energy issues. In 2002, California enacted the country's 
largest Renewable Portfolio Standard, requiring 20 percent of the 
State's electricity to be from renewable sources. In 2006, California 
enacted the Global Warming Solutions Act, also known as ``AB 32,'' 
which requires California to reduce its global warming emissions to 
1990 levels by 2020, a cut of about 29% from business-as-usual levels. 
Last fall, Governor Schwarzenegger issued Executive Order S-14-08 
raising California's Renewable Portfolio Standard to 33 percent by 2020 
and calling on the State to reduce its global warming emissions 80 
percent below 1990 levels by 2050.
    Achieving these goals is critical to protect California from the 
worst impacts of climate change--rising sea level, air pollution, 
droughts, forest fires, declining fish and wildlife populations, and 
significant adverse impacts on agriculture. California's climate and 
clean energy policies also strengthen our economy by creating new jobs 
and business opportunities, saving consumers money, and providing 
energy security. The American Recovery and Reinvestment Act recognizes 
the economic benefits of moving toward a clean energy economy by 
investing more than forty billion dollars into clean energy programs. 
We hope to take advantage of those dollars by expediting the permitting 
of appropriately sited renewable energy projects in California.
    These are ambitious goals that require state and federal agencies 
to work together to accelerate renewable energy development while 
protecting and conserving sensitive resources. California began a more 
coordinated planning effort called the Renewable Energy Transmission 
Initiative--known as ``RETI''--to bring agencies and stakeholders 
together to identify the most cost-effective and environmentally 
preferable renewable energy zones and transmission corridors. Federal, 
state and local agencies, renewable energy companies and associations, 
conservation groups, utilities, the Armed Services and other 
stakeholders have participated in RETI. RETI will identify and rank 
Competitive Renewable Energy Zones (CREZ's), develop transmission plans 
to access those zones, and lead to applications for new transmission. 
We believe that RETI will facilitate the siting and permitting of 
renewable energy projects and the transmission needed to serve those 
projects.
    Last fall, Governor Schwarzenegger issued Executive Order S-14-08 
(Attachment A) to increase California's RPS to 33 percent by 2020 and 
to build on RETI to expedite renewable energy development. At the same 
time, state and federal agencies--including the Bureau of Land 
Management (BLM), U.S. Fish and Wildlife Service (USFWS), California 
Department of Fish and Game (CDFG), and California Energy Commission 
(CEC)--entered into a Memorandum of Understanding (MOU) that 
establishes a Renewable Energy Action Team charged with the following 
tasks:
    <bullet>  Identify Renewable Energy Zones based on energy, economic 
and environmental factors--this would build on RETI and other 
scientific and stakeholder input;
    <bullet>  Develop a Desert Renewable Energy Conservation Plan 
(DRECP) that identifies priority areas for renewable energy development 
and conservation;
    <bullet>  Prioritize and expedite review and permitting of 
renewable energy projects, especially projects within designated 
Renewable Energy Zones.
    State and federal agencies, including BLM, USFWS, the Armed 
Services, CDFG and CEC, are working together very closely now to 
coordinate project siting and permitting, transmission planning and 
conservation in the California Desert. We are very grateful to the 
federal agencies for their full partnership in these important planning 
efforts and believe that our partnership is critical to success.
    The CEC and CDFG will work together with local and federal agencies 
as well as stakeholders and scientific experts to produce a guide to 
Best Management Practices for siting and development of renewable 
energy, which will be tailored to each energy type--solar, wind, 
geothermal, biomass. We will also produce a map that identifies 
appropriate development areas and areas critical to protect from 
development. These will then form the basis for a long-term 
conservation plan, known as a Natural Communities Conservation Plan, or 
NCCP.
    We believe that working together with state, federal and local 
agencies, as well as a wide range of stakeholders in these science-
based, transparent planning processes will identify the best areas for 
renewable energy development, and will expedite that development. We 
also believe that these processes will identify and lead to the 
protection of the areas most critical to conserve.
                                 ______
                                 

                        EXECUTIVE ORDER S-14-08

                               11/17/2008

    WHEREAS, the State of California is a world leader in efforts to 
reduce global warming and greenhouse gas emissions, increase renewable 
energy production, promote energy efficiency, energy conservation, 
clean air and emission controls, expand the use of low carbon, 
alternative fuels and promote and commercialize new technologies and 
industries; and
    WHEREAS, California has previously led the nation with an 
aggressive Renewable Portfolio Standard (RPS), requiring California's 
retail sellers of electricity to serve 20 percent of their load with 
renewable energy by 2010; and
    WHEREAS, in 2003, the Governor called for an acceleration of the 
RPS, urging that 20 percent of California's electricity come from 
renewable sources by 2010 rather than 2017, seven years earlier than 
previously required, and this accelerated standard became law in 
September 2006, when the Governor signed SB 107; and
    WHEREAS, California's high standards and ambitious goals have 
resulted in California leading the nation in renewable energy 
innovation, receiving more investment funding in clean technology than 
anywhere else in the United States, and accounting for 44 percent of 
all U.S. patents in solar technologies and 37 percent of all U.S. 
patents in wind technologies; and
    WHEREAS, producing electricity from renewable resources provides 
multiple and significant benefits to California's environment and 
economy, including improving local air quality and reducing global 
warming pollution, diversifying energy supply, improving energy 
security, enhancing economic development, and creating jobs; and
    WHEREAS, California has some of the best renewable energy resource 
areas in the world, providing immense potential for clean, valuable 
electricity generation in the state, and the development of these 
resources must be accelerated; and
    WHEREAS, substantially increased development of renewable 
electricity sources, energy efficiency and demand response is needed to 
meet the greenhouse gas reduction goal of 1990 levels by 2020 and 80 
percent below 1990 emissions levels by 2050, making the success and 
expansion of renewables a key priority for California's economic and 
environmental future; and
    WHEREAS, fostering greater and more timely renewable energy 
development means California's energy agencies must establish a more 
cohesive and integrated statewide strategy, including greater 
coordination and streamlining of the siting, permitting, and 
procurement processes for renewable generation, improving the manner in 
which the state develops its transmission infrastructure, and 
encouraging technically and economically feasible distributed renewable 
energy opportunities; and
    WHEREAS, the California Public Utilities Commission (CPUC) has 
approved more than 6,300 MW of renewable generation contracts for 
investor-owned utilities, and has identified various challenges that 
impede their timely realization, relating to transmission, financing, 
siting, permitting, integration, environmental and military objectives, 
technology development and commercialization and equipment procurement; 
and
    WHEREAS, the California Energy Commission (CEC) in its 2007 
Integrated Energy Policy Report (IEPR) indicated that there are 
substantial barriers to generation siting, permitting and transmission 
that must be addressed in order to achieve the 2010 and 2020 RPS goals; 
and
    WHEREAS, the Renewable Energy Transmission Initiative (RETI) is a 
statewide initiative to help identify the transmission projects needed 
to accommodate these renewable energy goals and facilitate transmission 
corridor designation and transmission and generation siting and 
permitting; and
    WHEREAS, RETI will (1) assess competitive renewable energy zones in 
California and surrounding regions that can provide significant 
electricity to California consumers by 2020; (2) identify those zones 
that can be developed in the most timely and cost effective way, with 
least environmental impact; and (3) prepare detailed transmission plans 
for those zones identified for development; and
    WHEREAS, deployment of new renewable energy technologies across the 
state will require utilizing new areas of biologically sensitive land; 
and
    WHEREAS, California is committed to conserving natural communities 
at the ecosystem scale through the use of California's unique Natural 
Community Conservation Planning (NCCP) tool, coordinated by the 
Department of Fish and Game (DFG) and CEC, which identifies and 
provides for the region-wide protection of plants, animals, and their 
habitats while allowing for compatible economic activities such as 
renewable energy generation; and
    WHEREAS, the Western Governor's Association has initiated the 
Western Renewable Energy Zone (WREZ) initiative to identify and 
expedite cost-effective, environmentally sensitive transmission 
development to areas with high-grade, renewable energy resources in 
order to bring about the development of 30,000 megawatts of clean and 
diversified energy across the West by 2015.
    NOW, THEREFORE, I, ARNOLD SCHWARZENEGGER, Governor of the State of 
California, by virtue of the power vested in me by the Constitution and 
statutes of the State of California, do hereby order effective 
immediately:
     1.  That the following Renewable Portfolio Standard target is 
hereby established for California: All retail sellers of electricity 
shall serve 33 percent of their load with renewable energy by 2020. 
State government agencies are hereby directed to take all appropriate 
actions to implement this target in all regulatory proceedings, 
including siting, permitting, and procurement for renewable energy 
power plants and transmission lines.
     2.  The Resources Agency shall lead the joint collaboration 
between the CEC and the DFG to expedite the development of RPS eligible 
renewable energy resources through the actions outlined in this order.
     3.  The Department of Fish and Game shall immediately create a new 
internal division, the primary purpose being comprehensive planning and 
streamlined compliance services; including for renewable energy 
projects. The division shall ensure the timely completion of NCCPs, 
which embody the balancing of project assurances with ecosystem 
protection.
     4.  Pursuant to this Order and the MOU signed on November 17, 2008 
by the CEC and DFG formalizing the Renewable Energy Action Team (REAT), 
the REAT shall lead completion of items 5 through 12.
     5.  Pursuant to the MOU, DFG and CEC shall immediately create a 
``one-stop'' process for permitting renewable energy generation power 
plants. Instead of filing multiple sequential applications, the DFG and 
CEC shall create a concurrent application review process, which shall 
be filed directly at the state level. To facilitate this process, a 
special joint streamlining unit shall be created and shall reduce 
permit processing times by at least 50% for projects in renewable 
energy development areas, as such areas are defined by the REAT 
beginning on February 1, 2009.
     6.  Pursuant to the MOU signed on November 17, 2008 by the CEC, 
the DFG, the United States Bureau of Land Management and the U.S. Fish 
and Wildlife Service, the REAT shall endeavor to include all 
appropriate federal partners in the expedited permitting process 
described in number 5 above.
     7.  By December 1, 2008, the REAT shall initiate the Desert 
Renewable Energy Conservation Plan (DRECP) process for the Mojave and 
Colorado Desert regions.
     8.  By March 1, 2009, the REAT shall identify and publish top 
priority areas in California where other NCCPs or similar plans should 
be developed based upon their renewable energy development potential.
     9.  By December 31, 2009, the REAT shall develop and publish a 
Best Management Practices manual to assist RPS project applicants in 
designing projects to emphasize siting considerations and minimize 
environmental impacts for RPS desert projects.
    10.  By December 31, 2009, the REAT, in conjunction with our 
federal partners and stakeholder groups, shall develop a conservation 
strategy that clearly identifies and maps areas for RPS project 
development and areas intended for long-term natural resource 
conservation as a foundation for the DRECP.
    11.  By December 31, 2010, the REAT, in conjunction with our 
federal partners and stakeholder groups, shall complete the draft DRECP 
and initiate the environmental review process.
    12.  By June 1, 2012, the final DRECP shall provide binding, long-
term endangered species permit assurances, facilitate the RPS desert 
project approval process, and provide a process for state and federal 
conservation funding to implement the DRECP.
    13.  By January 1, 2010, the CEC shall provide an estimate of total 
retail electricity sales in California in 2020 by utility and shall 
update this number every two years through the IEPR.
    14.  Direct the CEC, and request the CPUC and California 
Independent System Operator (ISO), to work with other RETI stakeholders 
to complete the following by March 31, 2009: (a) develop a product that 
identifies top priority renewable energy zones that can be developed 
reliably, cost-effectively and with least environmental impact; and (b) 
issue a Renewable Transmission Development Report that identifies 
potential routes and interconnection points for new lines. I direct DFG 
to participate in the RETI process and the REAT to provide increased 
technical support to the RETI stakeholder group. I also request that 
the CPUC and the ISO support the RETI stakeholder group as appropriate 
in order to meet this deadline.
    15.  Direct the CEC, and request the CPUC, to participate in the 
WREZ initiative in order to increase availability to all potential 
renewable energy resources, coordinate research, planning, and 
investments with our regional partners, and to complement RETI. 
Specifically, I request that the CPUC, in conjunction with the CEC, 
ensure that there is information exchange and coordination between the 
WREZ initiative and RETI and to facilitate the feasible integration of 
the resulting plans from each initiative.
    16.  In order to facilitate the timely permitting of renewable 
energy projects, all state regulatory agencies shall give priority to 
renewable energy projects as set forth in this Executive Order.
    17.  In conjunction with its work with DFG to develop the DRECP 
pursuant to number 7 above and any work it performs to facilitate the 
siting and permitting of renewable generation and transmission 
projects, the CEC shall coordinate with BLM, CPUC, the California ISO, 
and other interested federal, state, and local agencies, work closely 
with interested stakeholders, and utilize input from RETI.
    This Order is not intended to create, and does not create, any 
right or benefit, whether substantive or procedural, enforceable at law 
or in equity, against the State of California, its agencies, entities, 
officers, employees, agents or any other person.

I FURTHER DIRECT that as soon as hereafter possible, this Order be 
        filed with the Office of the Secretary of State and that 
        widespread publicity and notice be given to this Order.

IN WITNESS WHEREOF I have here unto set my hand and caused the Great 
        Seal of the State of California to be affixed this the 17th day 
        of November 2008.

ARNOLD SCHWARZENEGGER
Governor of California

ATTEST:
DEBRA BOWEN
Secretary of State
                                 ______
                                 

    Response to questions submitted for the record by Julia A. Levin

1.  Commissioner Levin, does an inventory of degraded or previously 
        used lands that would be suitable for siting renewable energy 
        projects exist? If not, how much time and money do you estimate 
        it would take to compile such an inventory, and what would be 
        the best agency to carry this out?
    While inventories of degraded or previously used land exist with 
various state, local, and federal agencies, this information is neither 
complete nor consistent on a statewide basis. A comprehensive inventory 
could help renewable energy developers and permitting agencies to 
determine the most suitable locations for the development of renewable 
energy projects. The Energy Commission, building on the work of the 
collaborative Renewable Energy Transmission Initiative (RETI), is 
working closely with the California Department of Fish and Game (CDFG), 
the Bureau of Land Management (BLM), and the U.S. Fish and Wildlife 
Service (USFWS) to identify disturbed areas that are suitable for the 
development of renewable energy projects, as well as areas for 
conservation purposes. The Energy Commission has been supportive of any 
efforts to provide renewable developers guidance, tools, and 
information necessary to develop renewable projects while minimizing 
environmental impacts, and believes a comprehensive statewide inventory 
of degraded or previously used lands would be a valuable tool to assist 
both renewable developers and the REAT agencies as they move forward in 
the DRECP process.
    We are unable to estimate the dollar amount that would be required 
to compile such an inventory, but for the Mojave and Colorado Desert 
region of California, it could require several persons working full 
time for six months to do so. Such work would require coordination with 
multiple state, local, and federal agencies, including county planning 
departments. In addition to examining aerial photography, there would 
be a need to acquire zoning and other land use information, including 
GIS layers, accompanied by some amount of on the ground verification. 
Based upon their responsibility for mapping and monitoring prime 
agricultural land, the California Department of Conservation may be the 
appropriate agency to undertake this work. However, such work may not 
have the highest priority within the Department. The Energy Commission 
believes there is merit in compiling such an inventory and has begun to 
identify areas most suitable for solar development in support of RETI 
and the Governor's Executive Order S-14-08. We would like to accelerate 
this work given its importance, but have been unable to do so due to a 
lack of adequate staff resources. Going forward, the Energy Commission 
will continue to identify previously disturbed land for purposes of 
assisting renewable developers and will coordinate our efforts with the 
appropriate land use agencies.

2.  Commissioner Levin, could you explain in more detail how the 
        Renewable Energy Transmission Initiative differs from the 
        Western Governors' Renewable Energy Zone process? Are there are 
        differences in the methodologies or expected results of the two 
        processes?
    The Renewable Energy Transmission Initiative (RETI) and the Western 
Governor's Renewable Energy Zone (WREZ) initiative are both processes 
to identify, through objective analysis and broad stakeholder 
participation, major new transmission to access renewable resources. 
The differences between the processes lie in the scale of the efforts 
and the level of granularity associated with the analyses. RETI will 
also provide one of the bases for the development of California's 
Desert Renewable Energy Conservation Plan. We will also explore ways to 
encourage and accelerate renewable energy development within Completive 
Renewable Energy Zones (CREZ) identified by RETI.
    WREZ is a West-wide effort to identify those concentrated areas 
throughout the West with potential for significant renewable energy 
available for export throughout the Western Interconnection. Given this 
aim, and given the size of the study area, WREZ has taken a relatively 
broad-brush approach to identification of renewable resources and land 
use constraints.
    RETI, on the other hand, is a California effort to identify zones, 
and the transmission needed to access them, sufficient to meet a 
specific statewide target by 2020: 33% renewable energy and GHG 
emissions reduced to 1990 levels. Given this particular aim, RETI has 
considered a wider range of resources and transmission solutions than 
has WREZ. Furthermore, because the transmission projects identified by 
RETI will be planned, permitted, and built by a relatively small group 
of California entities, RETI has focused on prioritizing particular 
zones for immediate attention. To that end, RETI has developed 
innovative approaches to rating zones and transmission segments 
according to both their expected economics and their potential 
environmental impact. Because
    WREZ brings together a much more disparate group of load-serving 
entities, transmission owners, state and federal agencies, and other 
stakeholders, WREZ is not attempting to prioritize zones but rather to 
identify possible opportunities for major new transmission, and to rely 
on utilities and transmission developers to determine the order in 
which the lines are developed.

3.  Commissioner Levin, why does the CEC not have jurisdiction over 
        solar photovoltaic power plants, and does this lack of 
        jurisdiction cause any problems in terms of planning and 
        coordinating for the siting of photovoltaic plants?
    The Energy Commission has siting jurisdiction over thermal power 
plants 50 megawatts and greater. This includes natural gas, geothermal 
and solar thermal plants. Solar photovoltaic power plants are not 
``thermal'' because they convert solar power directly into electricity 
rather than into heat to power a turbine. In addition, most solar 
photovoltaic power plants were, until recently, extremely small. Thus, 
when the Energy Commission was created, solar photovoltaic power plants 
capable of utility scale generation were not anticipated and therefore 
not included within the Energy Commission's jurisdiction. There is no 
practical or technological reason to differentiate between the siting 
of solar photovoltaic power plants and solar thermal power plants as 
the environmental impacts of large scale solar facilities are similar. 
Unfortunately, this regulatory artifact from the mid-1970s has created 
additional fragmentation in regulatory authority for the permitting of 
power plants in California. Solar photovoltaic power plants are sited 
by county planning agencies, which often lack the staff resources and 
expertise necessary to evaluate large scale solar projects. 
Consequently, there can be inconsistent approaches between the 
licensing of these facilities, such that mitigation requirements may 
vary between projects and local siting decisions may not reflect 
statewide priorities.

4.  Commissioner Levin, please provide the committee with a status 
        update on the Renewable Energy Action Teams created by the 
        Governor's executive order last year. Have they been 
        established, have they been meeting, and what is the time frame 
        for them to issue a product?
    The Renewable Energy Action Team (REAT) has been established and 
has been meeting every other week since early this year. The REAT is 
comprised of representatives from the Energy Commission, CDFG, BLM, and 
the USFWS. The Department of Defense has expressed interest in joining 
the REAT and has participated in several REAT meetings, but they have 
yet to sign an MOU formalizing their participation.
    Two publicly-noticed REAT workshops were held in March in 
Sacramento (March 12) and Palm Springs (March 17) to provide an 
overview of the REAT's plans to implement Executive Order S-14-08 and 
to receive public comment. More than 100 people attended each workshop. 
A workshop focusing on development of the Desert Renewable Energy 
Conservation Plan (DRECP) and the public participation process is 
planned in Victorville on June 18.
    As required by Executive Order S-14-08, the REAT will produce by 
late December a Best Management Practices (BMP) manual to assist 
renewable developers, and a DRECP conservation strategy and mapping 
that identifies areas suitable for renewable development, as well as 
areas for conservation purposes. Additional workshops will be held in 
the summer and fall of 2009 to discuss the draft BMP manual and DRECP 
and receive comments from the public, developers, environmental groups, 
and other interested stakeholders.

5.  Commissioner Levin, how is California going to manage the water 
        demands of concentrating solar power? Will there be a maximum 
        allowable water use per unit of electricity generated for new 
        electricity facilities?
    The Energy Commission, in its 2003 Integrated Energy Policy Report, 
adopted a policy prohibiting the use of fresh water for power plant 
cooling unless it can be demonstrated that alternatives are 
economically infeasible or environmentally undesirable. To date, most 
of the solar power plant applications that have been filed do not 
propose the use of fresh water for cooling purposes. We anticipate that 
the trend away from the use of fresh water for power plant cooling will 
continue. However, we note that mirror washing can potentially be a 
significant use of water. The Energy Commission is interested in 
determining how to reduce total water use at solar power plants and to 
use reclaimed water, especially given the fact that the majority of 
solar power plants are likely to be located in areas where water is a 
scarce resource. We have not established nor proposed a maximum 
allowable water use standard per unit of electricity generated for the 
solar projects under review. To do so at this time could be premature 
without actual operating information and data that would allow the 
Energy Commission to compare various technologies and determine if 
water use projects for such facilities is correct. Going forward, the 
Energy Commission will continue to examine ways to reduce the 
consumption of water use given the environmental benefits of doing so 
and will include appropriate recommendations on the Best Practices 
Manual..

6.  Commissioner Levin, at the hearing you mentioned that the CEC had 
        identified some potential changes to federal law that would be 
        helpful for large-scale solar projects. Please provide those 
        suggested changes to the committee.
    The Energy Commission has identified several potential changes to 
federal law that would improve renewable energy development and habitat 
conservation in California. These recommendations are as follows:
    <bullet>  Accelerate BLM's permitting processes and require 
mandatory coordination of NEPA and CEQA for projects located within 
identified renewable resource areas. Renewable developers in California 
face duplicative and sequential rather than aligned state and federal 
permitting processes. Federal law should direct BLM to establish a 
permitting process similar to the Energy Commission's that includes a 
12-month deadline for permit review and approval and features joint 
NEPA/CEQA compliance through the Energy Commission's permitting 
process. This change would accelerate project permitting, reduce costs, 
improve state and federal permit coordination, and provide incentives 
for developers to develop projects within renewable resource areas.
    <bullet>  Renewable projects located within identified renewable 
resource areas should receive priority processing by BLM and non-viable 
projects should be rejected or eliminated. BLM currently processes 
renewable energy projects in the order in which they are received. 
Statutes and/or regulations requiring BLM to accept applications in 
order should be changed, and BLM should be granted the flexibility to 
reject non-viable projects at the time of filing and/or redirect them 
to appropriate areas.
    <bullet>  BLM should redirect a portion of Right of Way (ROW) fees 
to fund enhancement and management activities of conservation areas 
used to mitigate project development in renewable resource areas. BLM 
requires applicants to establish endowment funds to pay for the 
management of mitigation areas. Using a portion of ROW fees would 
create a steady funding source for state and federal agencies to manage 
these areas, improve permitting and mitigation, and represent a public 
contribution to conservation activities. BLM should also simplify and 
standardize mitigation requirements in renewable resource areas.
    <bullet>  Site remediation agreements should be restructured to 
include only facility removal for projects located within identified 
renewable resource areas. Renewable developers are required to pay up-
front remediation costs for future activities related to site closure, 
including removal of facilities, site re-contouring, and re-vegetation. 
By restructuring site remediation agreements to include only facility 
removal, state and federal policy regarding identified renewable 
resource areas would instead focus on redevelopment of project sites in 
perpetuity. This change would reduce impacts on pristine areas and 
undisturbed habitats, reduce future permitting times, and make use of 
existing transmission infrastructure. This change would also reduce 
developer costs and provide additional incentives for developers to 
locate within identified renewable resource areas.
    <bullet>  Projects located within identified renewable resource 
areas should receive priority in the California Independent System 
Operator's (CA ISO) queue. Generation projects in the CAISO queue are 
treated equally, affecting the order of transmission projects evaluated 
and approved by the CAISO. Assigning priority to renewable generation 
projects located in identified renewable within the CAISO queue will 
facilitate the development of transmission to these areas, thereby 
providing incentives to develop renewable generation in these 
locations. This proposal would require action by the Federal Energy 
Regulatory Commission (FERC) and possible changes to federal law.
    <bullet>  For projects located on state or private lands, create a 
federal nexus that will allow the USFWS to issue consistency 
determinations on state permits. Renewable developers proposing 
projects on state or private lands must acquire a Section 10 Incidental 
Take Permit that often takes years to complete. Although the state and 
federal agencies of the REAT are preparing the DRECP that will include 
a Section 10 Incidental Take Permit by 2012, it will be late to assist 
developers utilizing federal stimulus funds. With a federal nexus or 
linkage to a California Endangered Species Act (CESA) biological 
assessment, a developer could initiate an expedited Section 7 
Incidental Take Permit with USFWS and/or use the CESA process for 
permitting purposes.
    <bullet>  Direct the Department of Defense to conduct base by base 
assessment of renewable energy development potential and both potential 
and need for energy to serve new renewable energy and/or increase 
energy security for bases and other military installations. Further 
require all bases and other installations to implement all cost-
effective energy efficiency measures to increase energy security. 
Finally, and most importantly, clarify that energy security is an 
integral part of national security so that the Armed Services can move 
forward with renewable energy development where appropriate and not in 
conflict with training and other military purposes.
    While the Energy Commission has been working closely with the DoD 
in RETI and other planning processes for several years, few 
opportunities to develop renewable generation on DoD installations have 
arisen. In 2008, the Report of the Defense Science Board Task Force on 
Energy Strategy examined the DoD's energy strategy and found that 
because military installations are highly dependent on electricity 
supplied from ``outside the fence,'' critical national security and 
Homeland defense missions are at an unacceptably high risk of extended 
outage from failure of the grid. The Task Force recommended that the 
DoD invest in alternative energy supplies such as solar, wind and 
geothermal located on installations to reduce this risk. Because energy 
security is a critical component of our national security, the DoD 
should work closely with the Energy Commission and the other REAT 
agencies in the DRECP process to evaluate opportunities for the siting 
of renewable generation facilities on military installations to meet 
our common goals.
    Thank you very much for the opportunity to provide additional 
information to the Committee. Please do not hesitate to contact me or 
my Advisor, James Bartridge, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="670d05061513150e032702090215001e491413061302490406491214">[email&#160;protected]</a> at (916) 654-
4169 with additional questions or requests for information.
                                 ______
                                 
    Mr. Costa. Well, thank you for your good testimony. Thank 
you for staying within the time limit. There are a number of 
questions that I am going to follow up on based on your 
comments that I think talk about collaboration and what we are 
doing on the Federal level. We will get to that in a moment.
    Rachelle Chong--
    Ms. Chong. Thank you.
    Mr. Costa.--with the California Public Utilities 
Commission.

  STATEMENT OF COMMISSIONER RACHELLE CHONG, CALIFORNIA PUBLIC 
                      UTILITIES COMMISSION

    Ms. Chong. Great pleasure to be here. I thank you for 
having--
    Mr. Costa. Thank you for being here, and thank you for 
representing the Commission.
    Ms. Chong. Well, I grew up in Stockton, so 102 did not 
scare me off.
    Mr. Costa. It is like Fresno.
    Ms. Chong. That is right.
    Mr. Costa. It is 103, 104, we call that balmy.
    Ms. Chong. That is right. No problem.
    Well, we have been working hard at the Cali PUC since 2002, 
working on renewable energy goals. And what we do there is we 
oversee the renewable portfolio standard for the investor-owned 
utilities there. We also look at their contracts that they 
enter into for renewable energy, and we have the authority to 
permit new transmission lines for the IOUs.
    Commissioner Levin has covered the very ambitious 
greenhouse gas and renewable goals that we have in the State, 
so I won't review that. But I thought a few statistics might be 
in order. Since the time we started our renewable energy 
program in 2002, through 2008 we have approved 111 contracts 
for a total of 6,672 megawatts of all types of renewable 
energy. Solar is a sizable portion. Thirteen of those approved 
contracts are going to deliver about 2,500 megawatts of solar 
thermal and centralized photovoltaic generation.
    In terms of actual delivered energy, between '03 and '08, 
870 megawatts of new renewable generating capacity were 
installed, and are online. But what is interesting is none of 
the new renewable energy that is online came from solar. We 
haven't had a new commercial solar thermal plan built in 
California in 18 years, but the energy associated with solar 
contracts that we have approved is targeted to be online and 
delivered within the next three years. And, of course, solar is 
valuable, because when it is very hot, when we need the most 
electricity, the sun is shining.
    But based on the number of approved and pending contracts, 
we do expect solar generation to play a significant role in 
meeting our AB 32 33 percent target. So, for these reasons, the 
PUC views the success of the Renewable Energy Transmission 
Initiative as being critical. We have identified 90,000 
megawatts of near-term solar potential in this State, much of 
it on Federal lands.
    Mr. Costa. That number again?
    Ms. Chong. 90,000 megawatts near-term solar potential in 
this State, much of which is on Federal lands. Delays or varies 
in the permitting of these solar generation facilities will 
have real impacts on whether we make our greenhouse gas goals 
for this State.
    We are very aware of the need to upgrade new transmission 
lines to deliver clean energy. The PUC has recently approved 
the Sunrise Powerlink line, which is expected to access at 
least 1,000 megawatts of renewable energy capacity from 
California's Imperial Valley. We have also approved the first 
segments of the Tehachapi Renewable Transmission Project for 
'07--in '07, and we are now looking at the later segments of 
Tehachapi Project, which will deliver about 4,500 megawatts of 
energy from the wind-rich Tehachapi area.
    There has been a lack of human and financial resources, 
which we think may have contributed to the Federal permitting 
delays in the past. But we are encouraged by the new resources 
that have been announced by the Department of the Interior to 
prioritize the development of renewable energy, and we are glad 
to see Federal stimulus funds that are being put toward 
streamlined environmental review in California.
    So, I did want to voice my thanks to the Administration and 
to Congress for those additional resources. We hope that these 
increased resources will allow for BLM and the PUC staff to 
collaborate efficiently on environmental review of these very 
important transmission lines.
    A moment of caution. Although it is a valuable clean energy 
resource, utility scale solar has environmental impacts. They 
have large land use requirements, as the Chairman mentioned, 
and they may, some of them, have significant water use. While 
we are committed to developing renewable energy, we should 
ensure that our lands are used in the most efficient yet 
environmentally sensitive ways. So, we do suggest that BLM and 
the Federal agencies work with the PUC, the Energy Commission, 
and our utilities and the environmentalists to collaborate on 
the best use.
    We have been working very hard on RETI, as mentioned by 
Commissioner Levin. This is--the most important thing about it 
is it is consensus-based. We have invited everybody into the 
tent. We have been working very hard in a transparent manner to 
identify specific corridors where we could develop transmission 
for renewable resources. And, really, the success of the entire 
undertaking has been collaboration and the process.
    We have completed Phase 1 in December. We have actually 
identified California zones that provide cost competitive and 
environmentally preferable renewable resources. Phase 2A of 
RETI is now focusing on updating estimates of the generation 
potential in these renewable zones, and we are working on a 
conceptual statewide transmission plan. We expect the report to 
be out about July, and we hope that you will consider the work 
that RETI has done and perhaps it could be a good model for a 
Federal type of process.
    In closing, we look forward to partnering with the Federal 
agencies and answering some challenges.
    Thank you.
    [The prepared statement of Ms. Chong follows:]

              Statement of Rachelle Chong, Commissioner, 
                 California Public Utilities Commission

    I want to thank Chairman Costa and the members of the Subcommittee 
for the kind invitation to testify before you. At the California Public 
Utilities Commission (CPUC), we have been working hard since 2002 on 
implementing the state's renewable energy goals. Our role is to 
establish rules governing the renewables portfolio standard (RPS) 
program for our regulated-utilities and to review contracts that our 
regulated utilities enter into for obtaining renewable energy. We also 
have the authority to permit new transmission lines, which are 
necessary to deliver this energy from the remote areas where renewable 
resources are often located.
    California has set one of the most ambitious greenhouse gas and 
renewables goals in the country. The California investor-owned 
utilities are already mandated to provide 20% of their electricity from 
renewable energy sources by 2010. The Governor recently has adopted a 
further goal of 33% renewables by 2020. Our Air Resources Board has 
also identified 33% by 2020 as a key strategy for achieving 
California's landmark goal of reducing statewide greenhouse gas 
emissions to 1990 levels by the year 2020. This is part of the State's 
2006 Global Warming Solutions Act, commonly referred to as AB 32.
    Since our renewable program's inception in 2002, and through 2008, 
the CPUC has approved 111 contracts for a total of 6,672 megawatts (MW) 
of all types of renewable energy (including solar). Of that amount, 13 
of those approved contracts are for the delivery of at least 2,500 MW 
of solar thermal and centralized photovoltaic projects. In terms of 
actual delivered renewable energy, from 2003 through 2008, 870 MW of 
new renewable energy were installed and came online. Unfortunately, 
none of this new renewable energy that is being delivered comes from 
solar. We have not had a new commercial solar thermal plant built in 
California in 18 years, but the energy associated with the solar 
contracts that we have approved are targeted to be online and 
generating power within the next three years.
    Solar energy is particularly valuable as a contributor to our 
renewable energy and greenhouse gas reduction goals, given its peaking 
capacity and ability to provide clean power to California on our 
hottest, sunniest days. We expect solar generation technologies to be 
significant contributors to our 33% renewables goal. In addition to the 
approved solar contracts, another 2,000 MW-worth of solar contracts are 
currently pending CPUC approval.
    For these reasons, the CPUC views solar development, including on 
federal land, as critical to the achievement of California's ambitious 
renewable energy and greenhouse gas reduction goals. California's 
Renewable Energy Transmission Initiative (RETI) identified over 90,000 
MW of near-term solar potential in the state, much of it on federal 
lands. Delays or barriers in the permitting of solar generation 
facilities have real implications for California's ability to achieve 
its greenhouse gas goals. One analysis estimates that California's 
utilities might require 6,800 MW of in-state solar thermal power and 
3,200 MW of new photovoltaic power to achieve our target of 33% 
renewables in 2020. To put this in perspective, only 354 MW of solar 
thermal generation are operating today in California, with only an 
additional 114 MW operating anywhere else in the world. If our 
estimates are correct, California has only 10 years in which to permit, 
finance, build, and fully operate the equivalent of 19 times the 
state's current solar thermal generating capacity (and 15 times the 
current worldwide solar thermal generating capacity).
    The permitting, financing, and building of these solar projects is 
a complex process that requires substantial coordination among various 
agencies. As the agency responsible for permitting transmission 
infrastructure in California, we are acutely aware of the need for 
concurrent development of the transmission infrastructure needed to 
deliver that clean energy to customers. As you know, renewable 
resources are often located in areas that are far from the grid and 
load centers, and thus transmission lines are required to be built or 
upgraded.
    At the CPUC, we recently approved the Sunrise Powerlink, which is 
expected to access at least 1,000 MW of renewable energy capacity in 
California's Imperial Valley. We also approved the first segments of 
the Tehachapi Renewable Transmission Project in 2007, and are now 
reviewing the later segments of that project, which would deliver 
approximately 4,500 MW of capacity from the wind-rich Tehachapi 
resource area into the Los Angeles basin. We look forward to working 
closely with BLM and other federal agencies on the development of these 
and other facilities located on federal land.
    We understand that a lack of human and financial resources has 
contributed to federal permitting delays in recent years. We are 
encouraged, therefore, by recent announcements indicating a renewed 
fiscal commitment to renewable development, as expressed by the March 
11th Secretarial Order from the Department of Interior establishing the 
development of renewable energy as a top priority. We are also pleased 
to see that there will be federal stimulus funds available to support 
streamlined environmental review in California. I applaud the 
Administration and Congress for their responsiveness in addressing 
delays in the permitting process. We are hopeful, too, that the 
resources will allow for timely and efficient collaboration between BLM 
and CPUC staff on joint state/federal environmental review of the 
transmission lines critical for renewables.
    I would like now to sound a note of caution. Although a very 
valuable resource of clean energy, utility-scale solar power has 
environmental impacts, including large land requirements and 
potentially significant water usage. If we are to develop public lands 
with large-scale infrastructure--renewable or not--we should ensure 
that those lands are used in the most efficient and environmentally 
sensitive way possible.
    We suggest, therefore, that BLM and other federal agencies work 
with the CPUC, the California Energy Commission, and publicly-owned 
utilities to determine how best to develop such lands. We should 
carefully consider whether and how such development might be 
concentrated in relatively small areas that maximize use of existing 
and planned transmission, contain high proportions of disturbed lands, 
and minimize cumulative environmental impacts.
    This hearing is aptly sub-titled ``The Road to Consensus,'' and I 
want to stress the importance of involving local stakeholders in all of 
these decisions. I believe California's Renewable Energy Transmission 
Initiative (RETI) may be useful to others as a model.
    RETI was initiated primarily by the CPUC and the California Energy 
Commission, to address the need for more statewide planning in pursuit 
of our renewables goals. RETI is a consensus-based stakeholder process 
to identify the transmission needed to achieve California's renewable 
energy and greenhouse gas reduction goals. RETI has engaged a diverse 
group of stakeholders and benefited greatly from the involvement to 
date of the BLM, the U.S. Forest Service, and the U.S. Armed Forces. 
Phase 1 of RETI was completed in December 2008 and focused on 
identifying zones in California that are expected to provide cost-
competitive and environmentally preferable renewable resources. We are 
now in Phase 2A of RETI, which is focused on updated estimates of the 
generation potential in renewable zones throughout the state and a 
conceptual statewide transmission plan. A report on Phase 2A is 
expected to be complete early this summer. We hope that you will 
consider the work that RETI has done, as it may be useful for future 
designations of renewable energy zones. We look forward to the 
continued engagement of federal agencies in the RETI process.
    We look forward to partnering with federal agencies to address the 
challenges and tremendous opportunities presented by solar development 
on federal lands in California. Thank you again for inviting me here. I 
am happy to answer any questions from Members of the Committee.
                                 ______
                                 

           Response to questions submitted for the record by 
                      Commissioner Rachelle Chong

1.  Commissioner Chong, does an inventory of degraded or previously 
        used lands that would be suitable for siting renewable energy 
        projects exist? If not, how much time and money do you estimate 
        it would take to compile such an inventory, and what would be 
        the best agency to carry this out?
    Answer: This question is better answered by the California Energy 
Commission (CEC) and I understand that Commissioner Julia Levin has 
been asked the same question.

2.  Commissioner Chong, could you explain in more detail how the 
        Renewable Energy Transmission Initiative differs from the 
        Western Governors' Renewable Energy Zone process? Are there are 
        differences in the methodologies or expected results of the two 
        processes?
    Answer: The Renewable Energy Transmission Initiative and the 
Western Governor's Renewable Energy Zone (WREZ) initiative are both 
processes to identify, through objective analysis and broad stakeholder 
participation, major new transmission to access renewable resources. 
The differences between the processes lie in the scale of the efforts 
and the level of granularity associated with the analyses.
    WREZ is a West-wide effort to identify those concentrated areas 
throughout the West with potential for significant renewable energy 
available for export throughout the Western Interconnection. Given this 
aim, and given the size of the study area, WREZ has taken a relatively 
broad-brush approach to identification of renewable resources and land 
use constraints.
    RETI, on the other hand, is a California effort to identify zones, 
and the transmission needed to access them, sufficient to meet a 
specific statewide target by 2020: 33% renewable energy and GHG 
emissions reduced to 1990 levels. Given this particular aim, RETI has 
considered a wider range of resources and transmission solutions than 
has WREZ. Furthermore, because the transmission projects identified by 
RETI will be planned, permitted, and built by a relatively small group 
of California entities, RETI has focused on prioritizing particular 
zones for immediate attention. To that end, RETI has developed 
innovative approaches to rating zones and transmission segments 
according to both their expected economics and their potential 
environmental impact. Because WREZ brings together a much more 
disparate group of load-serving entities, Public Utilities Commissions, 
and transmission owners, among other parties, WREZ is not attempting to 
prioritize zones itself, but rather to identify possible opportunities 
for major new transmission, and to rely on utilities and transmission 
developers to determine the order in which the lines are developed.

3.  Commissioner Chong, please provide the committee with a status 
        update on the Renewable Energy Action Teams created by the 
        Governor's executive order last year. Have they been 
        established, have they been meeting, and what is the time frame 
        for them to issue a product?
    Answer: The CEC is working collaboratively on the Renewable Energy 
Action Team with other agencies, and therefore, I defer to the CEC on 
this question.
                                 ______
                                 
    Mr. Costa. Thank you, Commissioner Chong. Thank you for 
staying within the timeline.
    Our next witness is Mr. James Abbott, who is the Acting 
Director of the California State Office of the Bureau of Land 
Management. And we look forward to hearing you discuss some of 
this collaboration and the efforts with regards to not only the 
energy zones but the transmission corridors.
    Mr. Abbott.

 STATEMENT OF JAMES ABBOTT, ACTING STATE DIRECTOR, CALIFORNIA 
            STATE OFFICE, BUREAU OF LAND MANAGEMENT

    Mr. Abbott. Thank you. I appreciate the welcome. Let me 
also introduce this morning Darrin Thome, who is with me today 
from the U.S. Fish and Wildlife Service. He is the Chief of the 
Endangered Species Act Division and is here to assist in 
answering any questions, should there be some, of the Fish and 
Wildlife Service.
    I would like to welcome you to the California Desert 
Conservation Area. In 1976 when Congress passed the Federal 
Land Policy and Management Act, it was an area singled out for 
special management, because of its diverse resources, 
management complexity, and proximity to the large population 
base. Today, 2009, 33 years later, the competing land use 
demands in the California Desert Conservation Area has grown 
even more complex.
    The emergence of new challenges associated with solar 
energy and other renewable energy development will indeed 
require us--
    Mr. Costa. Mr. Abbott, we want everybody to be able to hear 
you. Could you move the mic a little closer? I am sorry. You 
really have to speak into it. Just bring it a little closer to 
you.
    Mr. Abbott. The emergence of new challenges associated with 
solar energy and other renewable energy development will indeed 
require us to find a way to reach consensus. As has already 
been pointed out, the Department of Energy's solar map does 
indeed indicate the abundance, rich abundance, that Southern 
California has for solar potential.
    I have also given you a map showing how the desert is also 
overlaying the same map that is on the easel here with areas 
that have already been set aside for wilderness, areas of 
critical environmental concern, desert wildlife areas, 
recreation areas, and you can see it becomes quite a complex 
mosaic. That makes your title for this hearing ``Solar Energy: 
The Road to Consensus'' very apropos, and we look forward to 
hearing everyone's view on how we can reach that goal.
    On March 11, 2009, Interior Secretary Salazar issued Order 
3285 identifying renewable energy as one of the top priorities 
of the Department of the Interior and Bureau of Land 
Management. That order also acknowledges the significant 
challenges we face as a nation and meeting our energy needs 
while protecting and enhancing water, wildlife, and other 
natural resources. That order orders us, directs us, to use 
collaborative approaches to balancing the energy and 
environmental needs of this nation.
    Here in California that collaboration process has already 
begun. The State's RETI initiative, the work being done with 
the Western Governors' Association, as well as the ideas that 
we are hearing from environmental groups and industry, are all 
part of the strategic planning that is underway for balancing 
these needs. The Federal programmatic solar environmental 
impact statement and recently announced solar energy zones are 
intended to continue the strategic planning and collaborative 
processes as we move forward.
    BLM is committed to working with the State of California 
and a wide spectrum of interest groups to address renewable 
energies in a coordinated and joint approach. It is our goal to 
ensure that environmental impacts, industries, technological 
needs, all are considered in an open and public, transparent, 
inclusive process.
    Let me summarize briefly for you where we currently are. 
The BLM nationally has received 158 applications for solar 
energy projects. These applications involve 1.8 million acres 
of public land.
    Mr. Costa. That is in California?
    Mr. Abbott. Nationally.
    Mr. Costa. OK.
    Mr. Abbott. And represent a combined generating capacity of 
97,000 megawatts. Here in California we have received 66 
applications for solar projects covering almost 575,000 acres.
    The impacts of each of these proposed solar energy projects 
will be thoroughly evaluated through the environmental analysis 
process. We recognize and are committed to addressing the broad 
concerns and challenges associated with siting solar energy 
projects, especially in the desert region.
    As previously mentioned, we do recognize the relatively 
large land footprint associated with solar energy projects and 
recognize that that will need special attention. We also 
recognize the scarce water resources in the desert regions and 
the importance of addressing technologies that address the 
concerns of water utilization. And we also continue to 
recognize that the desert already has a number of environmental 
resources that have been protected through previous efforts.
    My written testimony also describes three national studies 
that are currently underway or recently completed. The Westwide 
Energy Corridor Project, which identified 6,000 miles of energy 
transmission in 11 western states, will serve as a backbone for 
continuing to address where additional transmission needs are 
necessary for incorporating renewable energy.
    The solar energy programmatic environmental impact 
statement will be our strategic plan for identifying solar 
resources on public lands in six western states, and it will 
also serve to identify how we move forward with the site-
specific solar energy zone.
    In conclusion, the Department of the Interior and BLM 
clearly understand the critical work before us. Frankly, we do 
not have all the answers. However, we do recognize the need to 
include state, local governments, environmental interest 
groups, industry representatives, in the public as we move 
forward.
    Our stakeholders have many viewpoints on where and how 
solar energy should be developed, and we look forward to 
working with them in a manner that allows us to make wise 
choices today that will serve the energy's future.
    [The prepared statement of Mr. Abbott follows:]

      Statement of Jim Abbott, Acting California State Director, 
      Bureau of Land Management, U.S. Department of the Interior,

Introduction
    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear here today to discuss the Bureau of Land 
Management's (BLM) efforts to develop solar energy resources on public 
lands in an environmentally sensitive and responsible manner. I am 
accompanied here today by Darrin Thome, Chief of the Endangered Species 
Act Division of the Pacific Southwest Region of the U.S. Fish and 
Wildlife Service (FWS).
    My testimony today will describe the considerable potential of 
public lands to produce solar energy and contribute to a comprehensive 
national energy strategy that places high priority on renewable energy 
development. I will also discuss the BLM's ongoing efforts to process 
applications for solar energy projects, and I will outline key 
challenges that influence solar energy siting and transmission. 
Finally, I will highlight the BLM's effort to address these challenges 
through landscape-scale planning for six western states that have the 
potential for siting utility-scale solar energy facilities.
    The BLM is moving quickly on pending applications that are ready 
for review while we simultaneously move forward with medium- and long-
term implementation measures. We are aware of, and take very seriously, 
the President's emphasis on expeditious development of our domestic 
renewable energy resources while protecting and conserving important 
natural resources in the process.

Background
    President Obama, Secretary Salazar, and Congress have expressed the 
critical importance of renewable energy to the future of the United 
States. Developing solar and other renewable energy resources is 
central to the Nation's efforts to reduce greenhouse gas emissions, 
mitigate climate change, and protect the global environment. Renewable 
energy is also vital to our economic development and energy security. 
Developing renewable energy can create jobs and promote innovation in 
the United States while reducing the country's reliance on fossil 
fuels.
    The President has established ambitious goals to increase energy 
production from clean, renewable sources. Through investments enabled 
by the American Recovery and Reinvestment Act, the Administration has 
committed to doubling the Nation's renewable energy generating capacity 
over three years. To help achieve these goals, the Secretary issued a 
Secretarial Order in March 2009 that makes the development, production, 
and delivery of renewable energy a top priority of the Department of 
the Interior and BLM.

Renewable Energy Resources on Public Lands
    The BLM has been taking steps to more systematically address 
development of renewable energy resources since passage of the Energy 
Policy Act of 2005, which set a goal to approve 10,000 megawatts (MW) 
of non-hydropower renewable energy on the public lands by 2015. A 
number of policies and processes are now in place to guide renewable 
energy development, and programmatic (strategic) plans have been 
completed for wind and geothermal development, and for energy 
transmission corridors on public lands. The Administration's efforts 
will significantly expand these activities and allow BLM to establish a 
comprehensive program for renewable energy development on BLM lands. 
Through funding provided by the American Recovery and Reinvestment Act, 
BLM is investing $41 million to complete the necessary environmental 
studies and develop regional plans for the siting of future renewable 
energy projects and transmission facilities on BLM lands. In addition, 
the FY 2010 Budget includes $16 million for BLM's renewable energy 
programs, a portion of which will be used to establish dedicated 
renewable energy permitting offices that will help reduce BLM's backlog 
of pending applications for wind and solar projects and ensure more 
timely processing of future applications.
    The BLM's completed programmatic plans indicate the public lands 
hold great potential to provide renewable energy. For example, the 
geothermal programmatic plan estimates that approximately 50 percent of 
the geothermal resources in the United States are on Federal lands, and 
geothermal energy capacity has the potential to increase by as much as 
15-20 fold by 2025 (from 1,275 MW to 19,000 MW). Additionally, the wind 
energy programmatic plan estimated that, by 2025, wind energy capacity 
on the BLM-managed public lands could increase nearly ten-fold from 
current levels (from 327 MW to 3,240 MW). Current wind energy 
development proposals on the public lands could exceed these 
projections.
    Solar energy offers new and significant development potential on 
public lands. Preliminary data from the work BLM is undertaking in 
preparing the solar Programmatic Environmental Impact Statement (PEIS) 
suggest that as much as 29.5 million acres of the public lands in six 
western states may have utility-scale solar potential. Developing these 
solar projects on public lands could help achieve the President's goals 
for the Nation's economic and energy security, and the clean energy it 
would generate would benefit the environment. However, it could also 
require significant reallocations of land resources and have local and 
regional environmental impacts. Depending on the technology employed, 
solar projects could also require access to significant water supplies 
in arid regions where supplies are already in high demand.
    As noted earlier, the BLM is working diligently to plan for and 
develop solar energy resources on the public lands in an 
environmentally responsible manner. The BLM is conducting two 
concurrent and complementary efforts to accomplish these objectives. 
First, the BLM is accepting and processing rights-of-way (ROW) 
applications from industry for solar development projects. This 
provides opportunities for economic development, stimulates the 
advancement of solar technologies, and gives both industry and 
government the practical experience needed to refine the project 
implementation process. Second, the BLM, in cooperation with the 
Department of Energy (DOE) is preparing a Solar Energy Development 
Programmatic Environmental Impact Statement (PEIS). The Solar PEIS is a 
landscape-scale, strategic plan for siting solar energy projects on the 
public lands in the six western states (Arizona, California, Colorado, 
Nevada, New Mexico, and Utah) that have the best potential for utility-
scale solar development. The solar PEIS is designed to help speed the 
review of individual permit applications by providing the broad-scale 
cumulative effects analysis that is needed at the project level.

Solar Energy Development Applications--Process & Status
    The BLM authorizes solar and wind energy development projects as 
rights-of-way (ROW) under Title V of the Federal Land Policy and 
Management Act (FLPMA). Project proponents apply for a ROW grant and 
pay the BLM's costs to process the application. Applicants are required 
to submit detailed Plans of Development (PODs) to help the BLM and the 
public understand the scope of the project and potential resource 
conflicts before a National Environmental Policy Act (NEPA) review is 
initiated. In addition, applicants must provide documentation that 
demonstrates their technical and financial capability to construct the 
project. Approved projects are subject to bonding to ensure compliance 
with the terms and conditions of the ROW grant, including land 
reclamation. ROW holders pay an annual fair market value rent to the 
United States based on the land's appraised value for commercial 
purposes.
    As of April 1, 2009 the BLM is processing approximately 158 active 
applications for solar energy development. These applications involve 
approximately 1.8 million acres of public land and a combined 
generating capacity of approximately 97,000 MW. An additional 41 
applications have been submitted for land already under application; 
these are considered inactive applications until the initial 
application is approved, denied, or withdrawn.
    The two projects that have made the furthest progress in the 
approval process are both located in Southern California and are 
currently undergoing environmental review. The Ivanpah Solar Energy 
Generating System, proposed by Solar Partners, proposes to utilize 
3,900 acres in the Mojave Desert near the town of Primm along the 
California/Nevada border and have a generating capacity of 400 MW. The 
Solar Two Project, proposed by Stirling Energy Systems, proposes to 
utilize 6,500 acres in California's Imperial Valley near El Centro and 
have an initial generating capacity of 300 MW, with possible expansion 
to 750 MW. If approved and developed as proposed, the Ivanpah and Solar 
Two projects would potentially triple the amount of utility-scale solar 
energy produced in the United States.
    The Ivanpah and Solar Two projects illustrate the potential 
benefits--and resource management challenges--that can result from 
solar energy development on the public lands. These projects promise 
state-of-the-art solar technologies and creation of jobs. Their 
combined anticipated capacity could power more than 400,000 homes and 
offset more than 1.5 million tons of carbon dioxide emissions per year. 
However, the projects are also located in desert landscapes that 
support unique and fragile ecosystems, and these lands are used and 
appreciated by the public for their diverse resource values.

Siting Challenges for Solar Energy Development
    The specific impacts of proposed solar energy development on the 
landscapes and public lands of the Southwest will be evaluated 
thoroughly--and transparently--in the environmental analysis conducted 
for each proposed project. Broad concerns and issues, however, have 
become fairly clear, and they represent challenges for siting solar 
energy development, especially in desert regions.
    A key issue is that utility-scale solar energy projects generally 
require exclusive and intensive use of the land on which they are 
sited. A typical 250-400MW solar energy project is estimated to utilize 
about 3,000 acres. The land utilized by a solar project is typically 
graded and fenced, and is essentially allocated to a single use--
renewable energy production--for the long term. Because of its land 
disturbance footprint, the potential effects of proposed solar energy 
developments on wildlife habitats and sensitive species, such as the 
threatened desert tortoise, merit special attention and concern.
    The potential effects of solar energy development on the desert's 
scarce water resources and aquatic habitats are also important issues. 
Some solar energy technologies require relatively greater amounts of 
water to cool thermal power plant turbines used to convert solar-
produced heat into electricity. These ``wet-cooled'' systems can 
require 10-15 times the water of ``dry-cooled'' systems, which cool 
using forced-air. Other solar technologies, such as photovoltaic 
systems, do not require water for cooling because they directly convert 
solar energy into electricity, but do require some water for other 
purposes.
    Because of the region's chronic water scarcity and water allocation 
issues, some land managers, municipalities, and stakeholders have 
questioned the use of ``wet-cooled'' solar systems in the Southwest 
deserts. Recently, the National Park Service (NPS) and Fish and 
Wildlife Service (FWS) expressed concerns about the potential impacts 
to groundwater and aquatic species from applications for solar 
development in Nevada's Amargosa Valley, located northwest of Las 
Vegas. The Amargosa Valley is a closed hydrologic basin and its water 
use is considered over-allocated by the State of Nevada. The Amargosa 
Valley is also home to the Devil's Hole pupfish, a listed endangered 
species, and the Department is concerned that the use of water for 
solar development could reduce the water table in this basin, harming 
the pupfish.
    The Department of the Interior is committed to developing solar 
energy resources while protecting the environment. Secretary Salazar 
does not believe these goals are mutually exclusive. To help achieve 
this balance in the Amargosa Valley, the BLM is encouraging solar 
energy applicants to utilize low water or no-water technologies that 
appear best suited for this ecosystem. And again, the potential 
environmental effects of each solar energy application will be 
carefully evaluated, in a transparent public process and in close 
consultation with affected Federal agencies, to inform decision-making. 
BLM will also address the effects of public lands solar development on 
threatened and endangered species and designated critical habitat 
through section 7 of the Endangered Species Act and will evaluate the 
potential impacts to Federally-protected lands related to air, sound 
and light pollution.
    In addition to environmental concerns, the large amount of 
Federally protected land in the Southwest constrains the siting of 
proposed solar energy development and transmission. The BLM's 
California Desert District (CDD) offers a good example. The BLM manages 
11 million acres in the CDD. However, 3.8 million acres are protected 
as wilderness, national monuments, or other special designations, and 
are excluded from solar energy development. Another 2.9 million acres 
are BLM-designated Areas of Critical Environmental Concern and have 
restrictions on development. About 1.4 million acres were donated or 
acquired using Land and Water Conservation Funds and primarily managed 
for conservation purposes. Many of the remaining 2.9 million acres also 
encompass important wildlife and plant species, possess scenic values, 
and provide for recreation, mining, and a wide range of other multiple 
uses. Site-specific assessments of these other resource values will 
likely further constrain siting decisions in the CDD and other regions.

Planning for Renewable Energy Transmission
    Transmission access and capacity are also major factors that shape 
siting decisions for solar and other renewable energy development. Lack 
of adequate transmission capability is a clearly recognized constraint 
on the Nation's energy delivery system. To address this need, the BLM, 
in cooperation with the Forest Service and DOE, recently completed the 
Westwide Energy Corridor Programmatic Environmental Impact Statement 
process, pursuant to the Energy Policy Act of 2005. As a result of this 
effort, the BLM designated approximately 5,000 miles of energy 
transmission corridors on the public lands, out of the total 6,000 
miles designated on Federal lands in the 11 contiguous western states. 
In California, many of these corridors followed those already 
established by the BLM in its land use plans to minimize impacts. BLM's 
efforts complement those of FERC, DOE, and others to modernize the 
nation's transmission grid and expand capacity throughout the country 
overall.
    These energy corridors form the backbone for future transmission 
planning in the region. However, the process was completed before the 
transmission linkages needed to support renewable energy could be fully 
understood and identified. That process is underway now, and the BLM is 
contributing to renewable energy siting and transmission planning 
efforts occurring at the state and regional levels.
    The State of California, for example, is leading the way by 
conducting the Renewable Energy Transmission Initiative (RETI) to 
identify the most appropriate areas and corridors for siting renewable 
energy development and transmission. The Western Governors' Association 
(WGA) is also conducting planning to identify and integrate suitable 
renewable energy development zones and transmission corridors 
throughout the western states. The BLM will continue to work with the 
states, WGA, and our interagency colleagues to identify needed 
transmission linkages, and to review and amend the corridors as 
necessary to ensure they provide access to renewable energy while 
minimizing impacts to other important resources.

Solar Energy Development Programmatic EIS
    Because solar energy resources are of such profound importance--and 
potential scale--the BLM recognizes that a comprehensive plan is needed 
to address siting and transmission challenges, and to guide solar 
development in an environmentally sensitive and responsible manner. To 
accomplish this, the BLM and DOE are working jointly, with the FWS as a 
cooperating agency, in preparing a Solar Energy Development 
Programmatic Environmental Impact Statement (PEIS). Public scoping 
occurred in July 2008, and the Draft PEIS is expected to be available 
by the end of 2009.
    The Solar PEIS is a strategic plan for developing solar energy 
resources on public lands in six southwestern states that have the 
potential for utility-scale solar development. The PEIS will identify 
public lands that are available for and excluded from development. It 
will also assess the potential landscape-scale environmental impacts of 
solar energy development, identify best management practices for 
minimizing manageable impacts, and amend the BLM's land use plans to 
enable and facilitate solar energy development in specific areas.
    The BLM will use preliminary information from California's RETI and 
the WGA renewable energy planning effort to help identify public lands 
that would be available for or excluded from development. The BLM 
expects to analyze an array of alternatives that would describe land 
open to solar energy development application, and where sufficient 
information exists, lands where solar energy development would be a 
priority for the Bureau. Areas lacking sufficient information at this 
time could require further resource assessment and environmental 
analysis that would be conducted subsequent to the PEIS.
    By identifying appropriate and specific areas for solar 
development, the PEIS will help focus transmission needs and enable 
efficient renewable energy corridor planning. The environmental 
analysis conducted in the PEIS will also help facilitate site-level 
project assessment and implementation. Overall, the solar PEIS is 
essential to establishing a balanced solar energy program that can 
generate abundant clean energy, create jobs, and preserve America's 
valued natural resources and landscapes.

Conclusion
    Mr. Chairman, thank you for the opportunity to discuss the BLM's 
efforts to plan and provide for solar energy development on the public 
lands in a way that is sensitive to and sustains our environment. The 
BLM and the Department of the Interior are committed to working with 
Congress, the states, Tribes, industry and other stakeholders to 
thoughtfully address siting and transmission issues, and to design and 
establish a sound foundation for the Nation's emerging solar energy 
program. I would be happy to answer any questions.

[GRAPHIC] [TIFF OMITTED] T9683.001

[GRAPHIC] [TIFF OMITTED] T9683.002

                                 ______
                                 
    Mr. Costa. Appreciate that, Mr. Abbott. You went a little 
over there. You won't get a star today.
    [Laughter.]
    But we look forward to the questions.
    Last, but certainly not least, is Mr. Thomas--
    Mr. Kretzschmar. Kretzschmar.
    Mr. Costa.--Kretzschmar, who today is testifying on behalf 
of the United States Army Corps of Engineers. And we look 
forward to your testimony.
    Please, Mr. Kretzschmar.

 STATEMENT OF THOMAS M. KRETZSCHMAR, SENIOR PROJECTS MANAGER, 
                  U.S. ARMY CORPS OF ENGINEERS

    Mr. Kretzschmar. Thank you. Thank you, Mr. Chairman, and 
members of the Subcommittee. You may have thought you came all 
the way to the desert and got away from Powerpoint, but I have 
seen--
    Mr. Costa. Oh. So, I have to turn around to look at the 
Powerpoint, huh?
    Mr. Kretzschmar. I am afraid so, sir.
    Mr. Costa. All right. I have got those eyes behind my head, 
but--
    Mr. Kretzschmar. We will try to hit the ground hard and 
keep moving. The reason I am here is to talk mostly about the 
Fort Irwin, California solar energy Enhanced Use Lease project. 
I am the Program Director--I am sorry, Program Manager for 
enhance use leasing at the Army Corps of Engineers, Baltimore 
District. We manage enhanced use leases across the country. 
These are essentially long-term ground leases to private sector 
developers to build and operate a variety of commercial 
enterprises on non-excess Army lands.
    In October of '08, the Secretary of the Army announced a 
Senior Energy Council, and among those announcements were five 
pilot projects across the country, one of which is a 500-
megawatt solar energy project at Fort Irwin.
    Sir, you like maps. This is our map of the solar overlay. 
We have 24 installations within that solar target area, a 
number of which are in California.
    The location of Fort Irwin has many desirable attributes, 
including its 300 days of sunlight per year, and the market 
conditions that are created through the renewable energy 
portfolio standards. And in terms of the Army's mission, sir, 
with renewable energy we are looking to also increase our 
security through self-generated power.
    You mentioned visiting Twentynine Palms. There is an 
overlay. You can see we are about 100 miles north. We would 
invite you and your constituents to Fort Irwin, sir, at another 
time and mention that the Garrison provides tours to the public 
to go into the training areas that are the simulated villages. 
That is open to the public. Hopefully, soon you will be able to 
see some solar energy development in that same area.
    We actually advertised the enhanced use lease on December 
15 for these five sites within Fort Irwin. Fort Irwin is 
900,000 acres in size. There are roughly 14,000 acres between 
these five sites, about 2,000 acres on the Red Lake--or, I am 
sorry, Red Pass Lake site to your right, about 800 acres at the 
main gate, and the balance between the three Goldstone sites.
    This is a photograph at the Red Lake Pass site, and it was 
mentioned earlier that water is a critical concern. We do have 
a well at this location, and that makes solar thermal viable. 
It is also adjacent to the Los Angeles Department of Water and 
Power 500 and 287 kV transmission lines. Its topography and its 
scale make this an ideal site for potential development.
    Another look at the boundary where this site is located, 
and there are the existing power transmission lines.
    The main gate site, again, about 800 acres in the northeast 
corner there. You can see the Garrison itself. This site is 
adjacent to the Southern California Edison substation where 
electricity is brought from I-15 to Fort Irwin. So, we say it 
is about a 42-mile extension cord.
    So, our goal is to create redundancy, backup, alternative 
sources of energy. In the event of a grid failure, Fort Irwin 
can sustain itself.
    This is another ideal site, because if you look, sir, at 
the right--and ladies, I am sorry--to the right of Fort Irwin's 
containment area, that black circle is actually its wastewater 
lagoon. That provides us with another opportunity to create 
solar thermal generation by the use of treated wastewater.
    The Goldstone facility that we mentioned is the deep space 
listening facility which is within the Fort Irwin boundaries. 
NASA has partnered with us in support of this solar energy 
initiative. Essentially, these are buffer areas around the 
satellite dishes that we don't train in that are ideal for 
generation.
    And we are at the point now, sir, we have already 
advertised. We are doing proposal reviews. We hope to have a 
selection in June and begin our environmental permitting 
process development in 2014.
    We have been working with our stakeholders in both the 
state and Federal government and local utilities toward a 
positive goal, but we believe we have heard some of the 
challenges here in terms of the transmission, the timing for 
permitting. The Army has worked to create a renewable energy 
working group that will continue on through this process at 
Fort Irwin.
    And all of these slides are available on our website at 
eul.army.mil.
    [The prepared statement of Mr. Kretzschmar follows:]

        Statement of Thomas Kretzschmar, Real Estate Division, 
  Baltimore District, Army Corps of Engineers, U.S. Department of the 
                                  Army

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify today to discuss the Department of the Army's 
solar energy initiatives. My name is Thomas Kretzschmar and I am a real 
estate professional with the Baltimore District of the U.S. Army Corps 
of Engineers. I joined the Corps in 2003 and have 20 years' experience 
on federally funded real estate actions. I also hold a master's degree 
in real estate from the Johns Hopkins University. The Baltimore 
District is the Corps' national ``Center of Expertise'' for Enhanced 
Use Lease projects and I manage the Fort Irwin project.
    This morning I would like to describe for you some of the genesis 
of the Army's renewable energy programs, its recent senior level 
initiatives, and the resulting creation of a large scale solar energy 
generation project at Fort Irwin.
    Based on the February 2008 Report of the Defense Science Board Task 
Force On DoD Energy Strategy--``More Fight--Less Fuel'', the Army 
initiated a six month Energy Security Task Force Tiger Team which on 
October 7, 2008, resulted in the establishment of an Army Senior Energy 
Council to serve as a board of directors focusing on Army energy 
policy, programs and funding to leverage the Army's nationwide energy-
conservation efforts.
    Enhanced Use Leasing's (EUL) authority is Title 10, United States 
Code, Section 2667, which was amended to incentivize the Department of 
Defense's (DoD) use of private sector capital by leveraging leasing of 
non-excess real or personal property. This authority allows payment 
from leases to be paid as ``in-kind'' consideration or cash. The law 
further allows that at least 50 percent of proceeds deposited will be 
available for the installation where funds were derived. EUL requires 
execution of long term (such as terms of 50 years) leases to finance 
private construction and operation. We must receive at least fair 
market value for the lease interest.
    Among the Senior Energy Council initiatives were five major energy 
projects including a 500 megawatt solar energy generation development 
at Fort Irwin, California. The Army's EUL program had been focused on a 
private sector ground lease-based development for solar electricity 
generation at Fort Irwin since the summer of 2007. The Army sought 
quick execution and worked very hard to accomplish site assessments, 
stakeholder meetings and project approvals.
    Within 60 days, the Army EUL team had created a solar development 
solicitation and advertised its qualification based Notice of 
Opportunity to Lease (NOL). On March 4, 2009, Fort Irwin and Army EUL 
hosted an Industry Day at the Garrison for interested developers to 
hear about and see the development sites. More than 250 people attended 
the Industry Day. Proposals were received April 17, 2009 and a June 
2009 developer selection is scheduled.
    The Fort Irwin Solar EUL solicitation offers five sites totaling 
more than 12,000 acres for renewable electricity generation. These 
sites are ideally suited for solar generation based on four critical 
criteria: solar radiation, topography, proximity to transmission, and 
water availablity. The Mojave Desert ``insolation'' (solar radiation) 
is among the best available in the United States. The five sites 
identified for development have slopes of five percent or less. There 
are major transmission lines either adjacent to or in relative close 
proximity to the five sites and Fort Irwin can make available treated 
waste water in sufficient quanties to develop thermal solar 
technologies.
    In addition to its market and construction feasibilities, we also 
analyzed the intended use, to assure the military mission would not be 
impacted and that environmental standards would not be compromised. The 
five sites lie in areas not currently used for training. Three of the 
five sites are buffer areas for the National Aeronautical and Space 
Administration Goldstone Deep Space Listening facility located within 
Fort Irwin. NASA and the Army have agreed to work together to advance 
both agencies' goals and objectives for renewable energy development. 
The Army and its selected developer will conduct all required 
environmental analysis to assure compliance with the National 
Environmental Protection Act (NEPA) and the California Environment 
Quality Act (CEQA).
    The Fort Irwin Solar EUL creates a unique opportunity for the Army 
to meet its renewable energy goals and enhance its mission. The scale 
of solar development being contemplated however, dwarfs previous 
undertakings. And a project of such size does not succeed without 
challenges. We have sought to identify hurdles with the project 
conceptualization and advertisement and begin working with the 
appropriate parties toward resolution.
    The Department of Defense and the State of California have in place 
a Renewable Energy Working Group that addresses regulatory and business 
issues such as environmental review and permitting timelines along with 
the planning for additional transmission lines needed to meet the 
State's renewable energy standards. DoD and the Army will continue to 
participate in planning initiatives such as the Renewable Energy 
Transmission Initiative (RETI) and Western Renewable Energy Zone (WREZ) 
to provide both military mission compatability guidance and as 
potential renewable energy supply points.
    We look forward to working with the State of California, San 
Bernadino County, the Bureau of Land Management and Congress to ensure 
a collaboration on this very exciting project. Thank you again for the 
opportunity to testify today and I will be happy to answer any 
questions you may have.
                                 ______
                                 

  Response to questions submitted for the record by Thomas Kretzschmar

Questions from Chairman Jim Costa
 QUESTION 1. Mr. Kretzschmar, does an inventory of degraded or 
        previously used lands that would be suitable for siting 
        renewable energy projects exist? If not, how much time and 
        money do you estimate it would take to compile such an 
        inventory, and what would be the best agency to carry this out?
    ANSWER: An inventory of Federally owned real property does exist. 
Executive Order 13327 issued by President Bush on February 4, 2004 
established a Federal Real Property Council within the Office of 
Management and Budget and is comprised of all agency Senior Real 
Property Officers, the Controller of OMB and the Administrator of GSA. 
The Executive Order calls for GSA to maintain a single, comprehensive 
and descriptive database of the real property inventory. The database 
includes land and buildings and environmental information.
 QUESTION 2. Mr. Kretzschmar, what will be the amount of water consumed 
        per Megawatt-hour of electricity generated at the Ft. Irwin 
        solar projects, and what will be the quantity of water consumed 
        annually? If that cannot be answered at this time, what are the 
        ranges of water usage for the applications that you have 
        received?
    ANSWER: The Army's Notice of Opportunity to Lease (NOL - http://
eul.army.mil/ftirwin/Docs/FinalNOL20Mar09.pdf ) for the Fort Irwin 
Solar EUL development identified two potential water sources. 
Currently, there is no accurate forecast of the water to be used 
generating electricity. There were multiple private developer responses 
received on April 20, 2009 offering multiple technologies and sizes. A 
developer selection will be completed in June. Water may be necessary 
in widely varying amounts depending on the technology and scale of 
generation proposed by the selected developer. We anticipate a two-year 
Environmental Impact Statement and business case evaluation which will 
determine water usage.
    Despite a lack of actual project specifics, it is possible to 
estimate water usage given the technologies, land areas offered, and 
the known water sources. Two basic solar energy generating technology 
types exist; Solar photovoltaic (PV) and Concentrating solar thermal 
(CSP). Solar photovoltaic plants convert sunlight (also known as 
insolation) directly into electricity. Photovoltaic power systems are 
silent, unobtrusive, and require minimal water for washing. Solar 
thermal plants consist of two major subsystems: a collector system that 
collects solar energy and converts it to heat, and a power block that 
converts heat energy to electricity. Concentrating solar thermal power 
plants produce electric power by collecting the sun's energy to 
generate heat using various mirror or lens configurations. For solar 
thermal electric systems, the heat is transferred to a turbine or 
engine for power generation. Concentrating solar thermal projects are 
large installations that require significant amounts of land, anywhere 
from 5 to10 acres per MW. Plants can be wet or dry cooled. Wet cooled 
plants will use significant amounts of water, roughly 750 to 850 
gallons per MWh. Dry cooled plants will use much less water, roughly 20 
to 45 gallons per MWh, mostly for mirror (or heliostat) washing.
    The first Fort Irwin water source is an existing well located along 
the southeast perimeter at the site named Red Pass Lake. The Red Pass 
Lake well flow rate is approximately 4,500 gallons per day (gpd), or 
1.6 million gallons per year. This is believed to be sufficient to 
support a dry-cooled solar thermal generating facility of approximately 
150 MW. An in-depth hydrology analysis will be required to more 
accurately measure the resource and to determine any interconnection 
with the Fort Irwin aquifers, which could adversely affect mission.
    The second Fort Irwin water source available for CSP is treated 
waste water from the Garrison cantonment area. The waste water plant 
currently treats approximately one million gallons per day. If 350 MW 
of dry cooled CSP were generated from the remaining acres offered at 
the four Main Gate and NASA Goldstone sites, the daily water 
requirement would be approximately 10,500 gallons (3.8 million gallons 
annually) or 1% of the effluent outflow.
                                 ______
                                 
    Mr. Costa. Thank you very much. You went a little bit over, 
but I liked the slideshow. So, that will get you a good mark.
    Why don't we begin with the questions and comments. You are 
the last witness, and I will, as the Chair, begin. The second-
to-the-last slide that you showed, Mr. Kretzschmar, do you want 
to put that back up? Can you do that?
    Mr. Kretzschmar. Yes, sir.
    Mr. Costa. See how good our technology is here. How well is 
all of that working? We talk about a collaborative process, we 
talk about consensus. It is nice to put that up there, but the 
first thought that ran through my mind is, are we meeting the 
milestones? Is this taking place? I will let you start, and 
then I see some other people smiling here. We will go to 
Commissioner Levin.
    Mr. Kretzschmar. Yes, sir. We have been working on Fort 
Irwin for about a year and a half, and I believe that the 
working group has taken on additional energy, let us say, for 
lack of a better word, based on some of these larger scale 
projects that are being contemplated. I think up until this 
point we hadn't personally been involved, because the Navy has 
typically been the lead. They are the largest user in the State 
for electricity. Fort Irwin, the Army, is not quite to the 
scale that the--
    Mr. Costa. All right. But, I mean, I don't want you to--
because my time is limited, too. Is it working or not? I mean, 
are we meeting the timelines?
    Commissioner Levin, do you want to opine?
    Ms. Levin. Is this on?
    Mr. Costa. Yes, it is on.
    Ms. Levin. I think that the current processes are working, 
and by the end of this year we will have identified renewable 
energy zones where we can really accelerate permitting. We will 
also have a map that identifies important conservation areas. 
We will have--
    Mr. Costa. But are you talking about project-specific, or 
are you talking about the energy zones that Mr. Abbott 
addressed?
    Ms. Levin. Well, I think in order to accelerate the 
permitting of the specific projects we need to have a better 
framework that allows us to accelerate permitting. But that 
requires first taking a good science-based public look at where 
do we accelerate renewable energy products, and where do we 
conserve resources.
    Mr. Costa. I would like to go back to that later on. But 
because my time is limited, let us move on here. The discussion 
of large powerplants or transmission lines and the debate--and 
this is maybe something both Commissioner Levin and 
Commissioner Chong I would like to get your thoughts on, versus 
the distributive model.
    My sense is that you have to use all of the resources. What 
is your sense?
    Ms. Levin. That is definitely California State policy, that 
we need it all. Rooftop solar, and other distributed generation 
is a very important part of our clean renewable energy future. 
It has a lot of advantages, but it is more expensive. And 
utility scale generation from solar or wind or geothermal is 
much cheaper, although it does have larger land use impact.
    Mr. Costa. Is the Commission looking at realistically--I 
mean, we had some numbers tossed out there, about 90,000 
megawatts as a potential. It wasn't clear to me at what 
timeline that that was looking at, as to what the breakdown 
between the two.
    Ms. Levin. I think that the breakdown will be heavily 
focused on utility scale generation, because you can do so much 
more so much more quickly and more cheaply.
    Mr. Costa. Yes. Commissioner Chong?
    Ms. Chong. Yes, I would agree with that. I think that it is 
critically important that we have utility scale projects in 
addition to the residential solar initiative programs.
    Mr. Costa. Very quickly, you know, you looked at lands that 
are the absolute best, and we have that great map over there 
that kind of indicates that. But in Germany we know that they 
are one of the leaders in the world of--they don't get 300 days 
of sunshine in Germany. I know, I have been there.
    Are we leaving out a lot of degraded lands, brownfields and 
other lands, where there may be no land use conflicts, but they 
may be not among the best suited, but they would be good?
    Ms. Levin. One of the priorities in RETI, and one of the 
screens, is previously disturbed lands, and that will be, you 
know, one of the criteria that we will look for in establishing 
renewable energy zones. In terms of Germany, they have been 
very successful because they have a feed-in tariff, and 
California--
    Mr. Costa. They have a feed-in tariff.
    Ms. Levin. Yes. California is looking at a feed-in tariff 
for projects up to 20 megawatts.
    Mr. Costa. And I think, you know, notwithstanding my 
friends with the utility companies, and I understand their 
concerns, but I think nationwide we are going to have to have 
some level of providing some incentive for people to develop 
their own energy.
    Quickly, my time is running out, Mr. Abbott, the BLM is 
planning to use right-of-way for solar projects, which seems 
odd given the size and the duration of those proposed projects. 
Do you think competitive leasing is a better way to provide 
both corridor and availability? What are the factors, and what 
areas might be ripe for competitive leasing? Have you given 
that some thought?
    Mr. Abbott. That issue has been raised to the Department 
and to the BLM, and it will be one of the issues addressed in 
the solar programmatic environmental impact statement, and so 
it is a suggestion we have heard and have committed to looking 
at.
    Mr. Costa. All right. I have some other questions. Mr. 
Abbott, I want to come back to you and to the other witnesses, 
but my time has expired. So, I will defer to the Ranking 
Member, the Congresswoman from Wyoming, Congresswoman Lummis.
    Ms. Lummis. Thank you, Mr. Chairman.
    My first question is about these solar energy zones or 
renewable energy zones. Several of you have addressed that 
topic. And may I ask you to just expand a little more on how 
you identify them, what consensus is used to identify them, 
what agencies are involved, and then how, once they are 
identified, you get the transmission lines that are needed to 
serve those areas. Could use some elaboration on those topics. 
Thank you.
    Ms. Levin. I will start with RETI, which I think was the 
first process to try to identify renewable energy zones. It is 
a stakeholder process that involves all branches of government, 
environmental groups, renewable energy companies, utilities, 
the armed services, and it was a process of identifying 
existing projects or soon-to-be projects--where they are, where 
their concentrations of economically viable renewable energy 
projects are--and overlaying those with sensitive environmental 
areas, either areas already protected by law or areas that 
should be protected for a variety of reasons. And there were 
very specific science-based criteria for that. It also did look 
at degraded lands and where we could encourage development to 
occur.
    We have completed the first phase of that, which is an 
initial identification of renewable energy zones. We are in the 
second phase, which is to refine those based on additional 
wildlife and other science criteria. And then, we will 
establish them, along with our Federal partners, as areas where 
we will accelerate renewable energy development.
    The third phase of RETI is planning the transmission 
corridors needed to serve those areas. So, again, with the same 
factors of where is there already disturbed land or existing 
rights-of-way, what are the least environmental, lowest cost 
transmission lines to serve those renewable energy zones. And I 
will let Mr. Abbott speak to the solar energy zones.
    Mr. Abbott. For California BLM, we have taken the work--the 
informative work that RETI has produced and looked at those 
proposed or tentative renewable energy zones that are largely 
encompassed by public land. And we now are going to address in 
the programmatic solar environmental impact statement that we 
are working on whether or not those are appropriate to be 
designated as Federal solar zones.
    And through that EIS process we will be able to hopefully 
further engage the public in terms of talking about those 
Federal sites in terms of, will they be a counterpart to the 
work that RETI does for the private land zones that may be 
identified.
    Ms. Chong. Just the last thing I would add is that 
typically a transmission line takes about seven years to permit 
in California. That is average. So, we hope to finish the RETI 
process in a three-year timeframe, which is a very aggressive 
timeframe. And then, once we have these transmission zones 
established and the lines where we think are the most 
environmentally sensitive and the most sensible, then they can 
immediately apply for a specific project.
    And because all of the stakeholders have been involved in 
establishing the zones through the RETI process, we anticipate 
that it will accelerate the permitting for those, so that it 
will be finished on a faster timeframe than the normal seven 
years.
    Mr. Costa. On that point, would the gentlewoman yield?
    Ms. Lummis. Yes, Mr. Chairman.
    Mr. Costa. I will make sure you get the extra time.
    On the corridors, because I think they are essential to 
making this all work, have we identified and prioritized which 
corridors need to take place to enhance these solar--whether 
they be solar voltaic or solar thermal--to concur with the 
other process that is taking place, or----
    Ms. Chong. We are all--yes.
    Mr. Costa. Because, as you know, under the stimulus package 
we have given the Energy Department a whole host of months to 
upgrade the existing corridor grades and to make them better.
    Ms. Chong. Yes. The whole idea is that we are all working 
together. Things are moving swiftly, obviously, because of the 
new focus on clean energy and the upgrade to the energy system. 
But, yes, we are all seeking to work together, and that is the 
kumbaya of today, I would say.
    Mr. Costa. But you have prioritized in this----
    Ms. Chong. Yes.
    Mr. Costa.--particular corridor with----
    Ms. Chong. Renewable energy is highly prioritized, yes.
    Mr. Costa. So, in terms of which corridors, I could go to 
you and you could tell them, one, two, three, in terms of which 
of the corridors are prioritized.
    Ms. Chong. Correct. One of the focuses of RETI has been 
prioritizing what is near term, truly. And one of the things we 
have done is we have shown which of the zones are the most 
promising for renewable energy. So, for example, Mojave, 
Imperial Valley, Tehachapi, those are the highest rank in 
California. And we are prioritizing those transmission lines to 
go first.
    Mr. Costa. I yield back to the gentlewoman. She has two 
minutes.
    Ms. Lummis. Well, thank you, Mr. Chairman. A followup 
question for Commissioner Chong. How do you mitigate for the 
litigation that occurs in the permitting process for 
transmission lines that you can't control the extent to which 
that disrupts your desired three-year timeline?
    Ms. Chong. No. You can't control for that, but we have 
reached out in the RETI process to environmental groups, land 
use groups, tribes, to ensure that they are part of the 
process. And our hope is that by making them part of the 
process, we have considered their concerns, their needs, and 
try to work around those sensitive areas, such that when we get 
down to an actual application for a specific project we will be 
avoiding those most sensitive areas.
    Ms. Lummis. Thanks, Commissioner. That is a great approach.
    For our two gentlemen, a question about water utilization 
and solar. How are you addressing those issues in your various 
capacities?
    Mr. Abbott. Well, the BLM is asking applicants for projects 
to consider looking at low water use technologies and 
identifying that that will clearly be an issue that will be 
scrutinized through the environmental review process.
    Mr. Kretzschmar. I mean, at Fort Irwin and other projects 
that we are working around the country for the Army, water is a 
critical issue. At Fort Irwin, we happen to have a million 
gallons a day of treated effluent. Now, that is not guaranteed 
indefinitely.
    They are sitting on a finite resource. We understand that. 
But for us, because ours is a competitive process, it gives our 
developers a foothold. They may not be able to develop 14,000 
acres on day one, but from a competitive standpoint it allows 
them to create the utility scale project that can then over 
time perhaps enjoy better technologies, increased transmission, 
and make our projects larger and better overall.
    Ms. Lummis. Thank you. Mr. Chairman, just a comment also. I 
was so pleased with Mr. Ferguson's testimony about the 
incentives that are provided here locally for people who engage 
in efficiencies and conservation efforts. And I want to applaud 
this community, and I look forward to visiting with 
Representative Bono Mack on the Floor of the House tomorrow 
between votes about how those incentives might be used 
effectively elsewhere in the nation.
    Thank you.
    Mr. Costa. Good. Well, that is a nice segue. The colleague 
who has been so gracious in helping this hearing together, 
Congresswoman Mary Bono Mack, for five minutes.
    Mrs. Bono Mack. I thank the Chairman. And I just want to 
say that the difference between an official hearing such as 
this is crowd involvement and feedback. And this really is to 
get experts on the record, and I think you have all done a 
remarkable job. But it is to hear from them and get it on the 
record. And it is our job as representatives, though, to work 
directly with our constituents to address their concerns. And 
for those of you here I plan to continue to do that.
    And we hear a lot from the panelists today about 
transparency, but to me transparency, as long as that is not 
jamming stuff down on my constituents, and I hope what you mean 
is public involvement, and I have learned through the years 
that if you bring the public to the table and give them the 
problems, generally they come up with pretty great answers.
    So, I encourage all of you to make sure that not only is it 
transparent but it is open to other ideas and to people 
expressing their concerns to you, because often when you draw 
lines in the sand you can't get beyond them. So, I am here to 
offer to all of you that I can get conduit for you to my 
constituents to make sure that their voices are heard as well.
    But my first question is for Mr. Abbott. The Energy Policy 
Act of 2005 set a goal for the BLM to provide 10,000 megawatts 
of renewable energy on the public lands by 2015. Now, that time 
is flying by. So, given the state of the situation, do you 
think we will meet that goal? And how many megawatts have been 
approved thus far on newly approved non-solar projects?
    Mr. Abbott. I am confident that the Department and the 
Bureau is going to continue to do everything possible to meet 
that goal. In addition to the programmatic solar environmental 
impact statement, we have completed a programmatic wind 
environmental impact statement and a programmatic geothermal 
environmental impact statement.
    Those suite of three westwide studies will be of major 
assistance in terms of us identifying and prioritizing where 
those resources are most ripe for development, and also they 
will serve as the foundation to help us expedite application 
processes when they come forward.
    Unfortunately, I don't have an answer to your question in 
terms of how much has been permitted since the passage of the 
Energy Policy Act. But if you would like, I can get that 
information and forward it to you and the Committee.
    Mrs. Bono Mack. Thank you. That would be very helpful. So, 
you know, there are many concerns with how we provide 
transmission capability, as we have heard from all of the 
testimony. Will the Bureau be working more broadly with other 
agencies within the Department or with other cabinet agencies 
where existing transmission may need to be addressed near a 
military base, tribal lands, or other Federal lands?
    Mr. Abbott. I believe you will see the Department of the 
Interior continue to cooperate with the Department of Energy, 
the Federal Energy Regulatory Commission, and a number of other 
cabinet agencies that are addressing the Administration's 
priority in terms of ensuring that we have transmission 
infrastructure that serves not only renewable energy but energy 
security for the nation.
    Mrs. Bono Mack. All right. Thank you. And, you know, last, 
just sort of stream of conscious question up here, I wondered 
to Commissioner Levin, I guess because you have spoken most 
directly about the maps, have you all looked at the Salton Sea 
area specifically? You talk about disturbed land. We really 
have been trying to move forward, and I welcome the Army Corps 
to the discussion. I have been working with the L.A. office 
extensively to try to get you guys involved with the Army 
Corps.
    But as you look at solutions for the Salton Sea, there 
seems to be absolutely no question that it would be prime land, 
yet I don't see it highlighted with a big asterisk and star as 
a place you guys are looking. Can you tell me how much you have 
looked at that area--especially given that the water will 
recede, that there is water that is there, and that there will 
be playa areas and exposed shoreline as well?
    Ms. Levin. I have to tell you, before coming to the Energy 
Commission, I worked for National Audubon Society on 
restoration of the Salton Sea.
    Mrs. Bono Mack. Thank you for your work on that.
    Ms. Levin. Well, thank you especially. As Commissioner 
Chong said, one of the most important, one of the largest 
renewable energy zones that we have identified in the RETI 
process is in Imperial County, and the geothermal resource 
there is phenomenal as is the wind and solar resource in the 
larger area around the sea. I don't know that we have looked at 
the seabed itself as potential, but I think that as part of the 
restoration process, once it is determined where the sea will 
and won't be in the future, that will be an important question.
    Representing Audubon, I always pushed for full utilization 
of the geothermal potential there as a really critical resource 
for California.
    Mrs. Bono Mack. We are very proud of the geothermal on the 
south, which is actually not in this Congressional District, 
but through the Pass on to the windmills and this solar. This 
District really is willing to do its utmost to move renewables 
forward.
    But I would ask if you guys could look at--you know, maybe 
talk to the resources people and DWR and see, as their plan 
evolves, or if you can bring a different eye to it, because the 
plan that came forward never had any discussion about renewable 
potential other than geothermal. And it seems that maybe some 
bright minds looking at this again, there is a lot of talk 
about exposed playa, and then fears about dust and airborne 
pollutants, and perhaps you guys looking at that one more time 
could help us move forward.
    So, I know I have gone past my time. Thank you, Mr. 
Chairman. I yield back.
    Mr. Costa. Thank you very much, and we are in your home, so 
we are a little flexible.
    Mrs. Bono Mack. I am just trying to give you----
    Mr. Costa. I have had this conversation with you on the 
Salton Sea before. It goes back to our water days. It is a big 
challenge, and I appreciate your bringing that up.
    We have an opportunity here to do a second round, and I 
would like to do that. So, that means we each get another five 
minutes.
    Commissioner Chong and Commissioner Levin, we talked about 
this whole collaborative effort, the transparency and all of 
that. I am trying to get a better understanding of how this 
renewable energy effort, the RETI process, differs from the 
Governors--Western Governors' renewable energy zone process, 
and the Section 368 process that the Bureau of Land Management 
I guess is the lead in. I mean, how are all of these coming 
together? Do they compliment each other, or are they working in 
conflict with one another?
    Ms. Chong. Well, the RETI process involves just California, 
of course, and it is quite far along. As I mentioned, we are in 
Phase 2, and we are pushing along to finish next year. The 
Western Governors' Association process----
    Mr. Costa. Next year when?
    Ms. Chong. End of next year.
    Mr. Costa. OK.
    Ms. Chong. And that is--we are on track, working very hard. 
The Western Governors' Association is on a different schedule, 
but it, of course, involves numerous states, all on the western 
side.
    Mr. Costa. We noticed in the past that some of these 
transmission issues, as you know, in the PUC have not worked 
out so well between states, where we have had our differences 
between Arizona and California.
    Ms. Chong. Yes, we have.
    Mr. Costa. So, having the Western Governors work together 
on this I think is important.
    Ms. Chong. It is, because the leadership on transmission 
certainly flows from the top. So, to have the dialogue 
occurring at the Governors' level has been very helpful.
    So, for example, we would expect that they are going to be 
concluding with some renewable transmission zones at the end of 
their process, and we are collaborating with that process 
closely through our Governor's office here in California to 
ensure that their efforts and the maps that the RETI will 
produce hopefully will synch up. And I think overall to have 
that high level of leadership occurring at the Governor's level 
is very helpful.
    Mr. Costa. OK. On a segue to that, as it relates to the 
process that is California, is the BLM's efforts helpful as it 
relates to the 368 transmission corridors? Because, again, I am 
very concerned about these transmission corridors. Is it enough 
just to update existing corridors? Or does the process need to 
start over again? Should we have a bigger emphasis on 
renewables?
    I mean, the approval that I think you cited in your 
testimony, or regarding the San Diego corridor, I want to make 
sure that there is enough capacity in these corridors to take 
in this robust renewable portfolio that we are trying to 
develop that will include solar.
    Ms. Chong. When we are looking at the transmission lines 
that we are permitting at the PUC, we certainly are looking at 
all of the renewable energy that we think will flow through 
that line, regardless of whether it is just for that utility or 
not. So, we do consider everything that might flow through it, 
including from other states. We do see renewable energy coming 
in from other states besides California to serve Southern 
California.
    Mr. Costa. Is BLM's process helpful?
    Ms. Chong. Yes, I would think it is going to be helpful. We 
are, obviously, pushing hard to get those permits through 
faster for BLM on behalf of our utilities, so that we can get 
faster to the end.
    Mr. Costa. Commissioner Levin, do you think a Federal 
renewable portfolio standard would be beneficial to 
California's efforts to meet our own renewable energy goals?
    Ms. Levin. I don't know if it will be helpful to California 
to meet our own renewable energy goals. I hope that it doesn't 
actually impede our meeting our renewable energy goals, or 
preempt in any way California's very aggressive renewable 
electricity goal. But I do think it is very important for the 
country as a whole to have a renewable electricity goal.
    Mr. Costa. OK. Mr. Kretzschmar, at Fort Irwin, the Army's 
proposal there, I want to encourage you, want to be supportive, 
want to be helpful. I think it is what we need to do with all 
of our military facilities. What is the maximum electrical 
usage at Fort Irwin?
    Mr. Kretzschmar. Sir, right now Fort Irwin uses 
approximately 25 megawatts.
    Mr. Costa. OK.
    Mr. Kretzschmar. It is expected to grow over the next seven 
to----
    Mr. Costa. So, you would have the capacity to develop like 
they showed us yesterday at Twentynine Palms, more energy than 
you would consume.
    Mr. Kretzschmar. Yes, sir.
    Mr. Costa. And your intent is to sell that back to the 
grid?
    Mr. Kretzschmar. The private sector developer that is 
selected for this project will sell the majority of it back to 
the grid.
    Mr. Costa. Has the Army conducted throughout a department-
wide review of all of its facilities for solar potential? And 
if you haven't, will you be doing that in the future?
    Mr. Kretzschmar. Sir, we have identified those 
installations, not just for solar but for wind, biomass, 
geothermal, and they are being evaluated. Enhanced use leasing 
is only one of the tools that the Army is using in its Army 
Security Council.
    Mr. Costa. And you are probably looking at--and, you know, 
actually it dawns on me I asked about the distributive model 
versus the utility larger scale project. And what we saw 
yesterday at Twentynine Palms was both. On their shade areas on 
base for their equipment they had the solar panels on top of 
them, as we have at my alma mater at Fresno State. We have done 
10 acres of parking where we have solar that now provides over 
20 percent of the energy for the Fresno State campus.
    But they also have a solar farm. And you are doing both?
    Mr. Kretzschmar. Yes, sir, we are. In fact, there is a 
small wind project being competed right now at Fort Irwin, as 
well as a proposal for rooftop solar. And one of our proposals 
that came back through this solicitation includes electric-
powered vehicles. And not only are they sort of self-
sustaining, they also during downtimes generate electricity 
back to the installation. So, it is a moving rooftop, so to 
speak.
    Mr. Costa. My time has expired, and I don't want to get in 
a bad way here with my colleagues. So, I will defer to my 
colleague, the Congresswoman from Wyoming, for five minutes.
    Ms. Lummis. Thank you, Mr. Chairman.
    Again, for Commissioner Chong, in discussing transmission 
corridors, has there been an emphasis on trying to locate them 
on existing road rights-of-way? And how are those discussions 
going?
    Ms. Chong. It is not atypical for the utility to propose 
something in an existing right-of-way, because it is the 
easiest way to find a transmission line. However, many of these 
existing transmission lines need to be upgraded, and so that 
might mean, for example, a taller tower, more voltage going 
through them.
    And so the residents that live alongside them object just 
as strongly to these upgraded transmission lines as a new one. 
So, they do make the efforts to go into current right-of-ways 
first, but it is not without problems.
    Ms. Lummis. Commissioner Levin, you had mentioned in your 
testimony that you requested that agencies be given adequate 
resources to fulfill their needs. Can you elaborate on that a 
little bit? What do you see as constraining the ability of 
Federal agencies to assist with the goals of the State of 
California?
    Ms. Levin. Well, probably Mr. Abbott and the gentleman from 
Fish and Wildlife Service can speak more specifically. But in 
general terms----
    Mr. Costa. A little closer into the mic.
    Ms. Levin. I am sorry. I think that Mr. Abbott and the 
gentleman from Fish and Wildlife Service can probably provide 
more specifics. But in general, I would say it is a combination 
of increased staff. I mean, we are seeing tripling and 
quadrupling of permit applications, and we need to accelerate 
them faster.
    I think particularly for Fish and Wildlife Service, like 
the State Department of Fish and Game, they haven't had the 
staff to look proactively, to participate in these long-term, 
you know, very labor-intensive planning efforts, as well as 
permitting the applications quickly. I think I will hand it 
over to Mr. Abbott and the gentleman from Fish and Wildlife 
Service.
    Actually, the one other area I think that would be helpful 
is we have begun to identify some changes potentially in 
Federal law that would provide more flexibility and allow the 
agencies to streamline the process more. And I think over the 
coming months we hope to finalize those and perhaps come to 
Members of Congress. But I will let Mr. Abbott take over from 
there.
    Mr. Abbott. Secretary Salazar has issued in his order----
    Mr. Costa. Raise the mic up, a little closer into the mic 
there. There you go.
    Mr. Abbott. Secretary Salazar, in his renewable energy 
order, also reaffirmed the establishment of renewable energy 
coordination offices in five of the western states, and we are 
now being--received the funding necessary to staff those 
offices.
    We have also had an ongoing dialogue with the staff at the 
California Energy Commission, California Department of Fish and 
Game, U.S. Fish and Wildlife Service, to talk about how the 
various entities who are involved in the permitting process can 
share resources most effectively. And we have started to make 
some progress, and we intend to continue to talk about all of 
the efficiencies that we can find between the various state and 
energy offices that are involved in reviewing the permit 
applications to achieve streamlining and effectiveness.
    Ms. Lummis. And, Mr. Chairman, a general question. Wind or 
solar, if you had to choose one or the other?
    Ms. Levin. Both. We absolutely need to do both.
    [Laughter.]
    No. I mean, if we are looking at an 80 to 90 percent 
reduction in global warming emissions, or even a 33 percent 
renewable portfolio standard in California, it is going to 
require a lot of everything, whether it is distributed, utility 
scale, all resource. They each have impacts, and they each have 
advantages. And so I don't think we want to take anything off 
the table now.
    Ms. Chong. I would like to go on record to say ditto. And 
the reason is we have extremely aggressive targets here in 
California. And for us to get there, we need everything. So, we 
are trying to rank them. However, having said that, we have to 
do it all. And I would include the California solar initiative, 
which is solar roofs on residential even in that category, 
because every little bit helps.
    Mr. Costa. Yes. And something my colleague is not aware of, 
but Mary and I--both Southern California, the Los Angeles 
Basin, and the San Joaquin Valley where I live and I represent, 
are both containment areas. And we are under sanction under the 
Environmental Protection Agency, because we don't meet air 
quality standards. And so all of the management tools in our 
toolbox--and, of course, part of that bad air creeps here into 
the desert as well. So, all of this is critical to reach a 
separate goal, which is to clean up the air in California.
    Ms. Lummis. Mr. Abbott, I might ask--thank you for that by 
the way. This is such a magnificent State. And when I stand in 
places where I can see air pollution that is caused by cars, or 
whatever, I know that we are missing part of its magnificence. 
So, thank you all for your efforts to clean up California so we 
can all enjoy your magnificent scenery.
    Mr. Abbott, same question to you. With regard specifically 
to BLM lands, is one or the other less intrusive or difficult 
to deal with in regard to all of the multiple resources you are 
trying to manage, as between wind and solar?
    Mr. Abbott. Wind, solar, and geothermal all clearly have 
different footprints and occupy the land differently. But I 
would agree with both of the members on the panel here that we 
need to consider all, as Mr. Ferguson indicated, as well as how 
conservation will also play into the role. And I think by 
considering all we can I think allocate and make those informed 
tradeoffs that we need to make in terms of where we are going 
to place renewable resource development versus where we will 
focus on conservation objectives.
    Ms. Lummis. Thank you.
    Mr. Costa. Thank you. We are going to--because of time 
circumstances, even though I would like to go for a third round 
with the panel, go to the next panel. And Congresswoman Bono 
Mack has been gracious to save her five minutes for the next, 
because Congresswoman Lummis and one of our consultants have to 
catch a plane. So, we want to get into the next panel for the 
next hour before they have to depart.
    So, thank you. Mr. Abbott, I have 21 pages of questions 
that I will submit to you.
    [Laughter.]
    Mr. Abbott. I would be delighted.
    Mr. Costa. Seriously, I do have some additional questions 
that I will submit to all five of the panelists, even Mr. 
Ferguson, and we would like within a timely manner, within 10 
days, for you to respond back to those questions. And I suspect 
my colleagues probably have written questions that they may 
want to submit to you as well.
    So, without further ado, let us have our second panel. And 
we will go from there.
    Good job, Marcie. You are quick. You left one over here. 
Oh. Well, you only have four in this one. I forgot.
    Mr. Costa. In our first panel, ladies and gentlemen, we had 
the public agencies, both at the state and Federal level, as 
well as, in the case of Mr. Kretzschmar, the Army testify as to 
what the Department of Defense is doing to become much more 
energy aware and efficient.
    The second panel is a reflection of the perspective from 
the private sector, and as well as from organizations like the 
Sierra Club that give a different take as to the role of 
renewable energies. Of course, our focus here today is on 
solar.
    So, our first witness is Mr. Steven Malnight. Did I 
pronounce that right? And he is the Vice President of the 
Renewable Energy for Pacific Gas and Electric.
    Our next witness is Mr. Bill Corcoran, not Bob Corcoran--
you can call me Bill, you can call me Bob. I get called a lot 
of things.
    [Laughter.]
    But he is very ably testifying in replacement of Carl 
Zichella, on behalf of the Sierra Club, who has the flu, and we 
told him not to come here, please.
    [Laughter.]
    But we appreciate, Bill, your willing to pinch hit for him 
on behalf of Carl.
    Our third witness is Ms. Katherine Gensler, who represents 
Solar Energy Industries Association. It is an umbrella 
organization that represents solar energies, not only in 
California but around the country.
    And our last, but certainly not least, witness is Michael 
Niggli. Did I pronounce that correctly? Who is the Chief 
Operating Officer for Sempra Utilities.
    With that acknowledgement, let us--same rules for the 
second panel as the first panel. You have that little box 
there. It has three lights--green, yellow, and red. And you 
have kind of got a sense on how I do it.
    So, anyway, without further ado, Mr. Steven Malnight, would 
you please begin your testimony? You have five minutes.
    You need to speak a little--it is more of a direct mic. You 
need to----
    [Laughter.]
    There we go. That is much better. I know we have energy 
here.

   STATEMENT OF STEVEN MALNIGHT, VICE PRESIDENT OF RENEWABLE 
            ENERGY, PACIFIC GAS AND ELECTRIC COMPANY

    Mr. Malnight. Yes, I think so. I usually have a loud voice, 
too.
    As PG&E's Vice President of Renewable Energy, I oversee our 
renewable energy business initiatives, and thank the leadership 
of this Subcommittee for holding this field hearing to examine 
the current state of solar energy development.
    The Federal Government plays a vital role in expanding the 
development of solar energy, including policies related to 
Federal lands that can help or hinder renewable energy 
expansion. Important investments to support expanding renewable 
energy have been made, including financial and program support 
in the economic recovery package, but there is definitely an 
opportunity to do more.
    Before going further, let me give you a quick overview of 
PG&E's support and development of solar and other renewable 
resources. We probably deliver some of the nation's cleanest 
energy to our customers. On average, approximately half of the 
electricity we deliver comes from sources that are either 
renewable or emit no greenhouse gases. But there are challenges 
to fully realizing the potential of these clean renewable 
domestic energy resources.
    As a load serving entity subject to meeting California's 
RPS standard, which we have discussed, our perspective is 
primarily driven by our role as one of the nation's largest 
purchasers of renewable energy through power purchase 
agreements. Since 2002, PG&E has signed more than 40 contracts 
with existing and new facilities that use or plan to use wind, 
geothermal, biogas, biomass, and solar as their fuel source. 
Solar is an especially attractive renewable----
    Mr. Costa. For a total of how many megawatts?
    Mr. Malnight. You know, actually I don't have that offhand. 
I can----
    Mr. Costa. Get that to us.
    Mr. Malnight. I can get that to you.
    Solar is an especially attractive renewable power source, 
because it is available when the energy is needed most, in the 
middle of the day and peak times during the summer.
    As many of these projects that we have contracted with face 
challenges, particularly with tight credit markets, and in 
order to help assure that we will have the renewable energy 
projects needed to meet our California RPS obligations, we have 
also recently been exploring development and ownership of a 
potential 750 megawatt solar site near Cadiz in San Bernardino 
County.
    I want to highlight two significant challenges that we face 
in bringing renewable resources online quickly. The first is a 
lack of transmission lines, as we have discussed, where the 
renewable resources are located. Across the west, thousands of 
miles of transmission lines will be needed to significantly 
expand renewable energy production. And it would certainly be 
no exaggeration to say that without that increased transmission 
capability we will not get the full benefit of renewable 
resources.
    One way to facilitate that added transmission would be 
through better coordination among agencies. In addition to 
better coordination, streamlining the reviews required by state 
and Federal agencies to remove unnecessary overlap and 
duplicative requirements can greatly enhance the development of 
transmission lines needed to link renewables to the grid.
    Another set of challenges relates to the permitting of the 
renewable projects themselves. For the vast majority of current 
proposed projects, significant coordination is required between 
Federal and state agencies. We believe that it is possible to 
satisfy all requirements without duplicative efforts and 
without compromising environmental goals, if Federal and state 
agencies could rely on a jointly prepared environmental 
assessment.
    To facilitate this coordination, one agency can be 
appointed as the lead agency for each environmental topic area, 
to play a coordinating role. At PG&E, we are working with 
policymakers, regulators, and relevant stakeholders to help 
address these challenges. We strongly support Secretary 
Salazar's recent announcement to open four renewable energy 
coordination offices, with small urban renewable energy teams 
in other western states, to expedite the application 
processing, reviews, and permitting of renewable energy 
projects.
    In addition, California's utilities have been working 
closely with state and Federal agencies on the RETI initiative, 
which we have discussed earlier in the first panel.
    Other activities are centered on streamlining agency 
permitting activities. Governor Schwarzenegger's Executive 
Order, which we discussed earlier, is a key transition there to 
help advance California's transition to a clean energy economy.
    This coordinated approach is expected to significantly 
reduce the time and expense for delivering renewable energy on 
Federally owned land, including the priority Mojave and 
California Desert regions. We acknowledge the potential 
tensions between important environmental and conservation needs 
and state and national imperatives to decarbonize energy 
sources in light of climate change. But we remain confident 
that policymakers can reconcile these tensions and meet both of 
these very important objectives.
    The Federal Government is very well positioned to help 
bring greater clarity to this process with sound policies.
    We appreciate the Subcommittee's interest in these vital 
issues, and look forward to working with you and other 
policymakers and stakeholders on the journey to find this 
consensus.
    On behalf of PG&E, I would like to thank you for the 
opportunity to appear here today, and look forward to answering 
your questions.
    Thank you.
    [The prepared statement of Mr. Malnight follows:]

             Statement of Steven Malnight, Vice President, 
            Renewable Energy, Pacific Gas & Electric Company

    Chairman Costa, Ranking Member Lamborn, and Members of the 
Subcommittee, my name is Steve Malnight. I am very pleased to appear 
before you this morning on behalf of Pacific Gas and Electric Company 
to provide an overview of some of PG&E's activities relative to solar 
energy and to offer some thoughts on this important subject. As PG&E's 
Vice President of Renewable Energy, I oversee our renewable energy 
business initiatives and thank the leadership of this Subcommittee for 
holding this field hearing to examine the current state of solar energy 
development.
    Investments in renewable resources, including solar resources, 
create jobs, reduce air pollution and greenhouse gas emissions, and 
move us toward a low-carbon economy in California and across the 
nation. Vitally important is the support and role of the federal 
government in expanding the development of solar energy, including 
policies related to federal lands that can help or hinder renewable 
energy expansion.
    The American Recovery and Reinvestment Act of 2009 (ARRA or 
Economic Stimulus Package) has provided a foundation of support for the 
development of solar and other renewable energy resources in a time of 
economic uncertainty. The renewables industry has benefitted from the 
certainty provided by these longer-term, critical extensions and 
modifications of investment and production tax credits. The grants and 
loan guarantees are also expected to assist with financing of solar 
energy projects. Development of these projects can help invigorate our 
economy and support a new green energy paradigm.
    We are also encouraged by the Department of Interior's (DOI) 
investment of $41 million from the economic recovery package to 
facilitate large-scale production of renewables on Bureau of Land 
Management (BLM) land. But more progress needs to be made to ensure 
that federal land management policies are respectful of the environment 
yet supportive of state and, ultimately federal, RPS programs. 
Development of such policies could result in streamlined siting 
procedures that promote solar development and lead to the delivery of 
more renewable energy to PG&E's customers.

Overview of PG&E Projects
    Pacific Gas and Electric Company, headquartered in San Francisco, 
California, is one of the largest utility companies in the United 
States. The company provides natural gas and electric power to 
approximately 15 million people throughout a 70,000-square-mile service 
area in northern and central California. PG&E proudly delivers some of 
the nation's cleanest energy to our customers. On average, 
approximately half of the electricity we deliver to customers comes 
from sources that are either renewable and/or emit no greenhouse gases. 
In 2008, approximately 12% percent of our electric delivery mix was 
from California-eligible renewable resources. As defined in California 
Senate Bill 1078, which created California's renewable portfolio 
standard, an eligible renewable resource includes geothermal 
facilities, hydroelectric facilities with a capacity rating of 30 MW or 
less, biomass, biogas, biodiesel, fuel cells using renewable fuel, 
selected municipal solid waste facilities, solar facilities, wind 
facilities, as well as ocean wave, ocean thermal, and tidal current 
technologies.
    In 2009, PG&E has forecasted 15% of its energy deliveries to 
customers will come from eligible renewables, another 16% from large 
hydroelectric resources that are not eligible for the state's RPS, and 
20% from nuclear energy, which has zero carbon emissions.
    PG&E is actively pursuing renewable generation resources on behalf 
of our customers. Renewable energy is what our customers consistently 
tell us they want; it furthers our efforts to meet the California 
renewable portfolio standard, which requires that 20 percent of our 
electric power be derived from renewable energy sources by 2010, a 
policy goal that PG&E strongly supports, and it allows us to better 
manage our future cost risk, on behalf of customers and shareholders, 
by taking volatile fuel prices out of the cost equation for this 
portion of our generation.
    Since 2002, PG&E has signed more than 40 contracts with existing 
and new facilities that use or plan to use wind, geothermal, biogas, 
biomass, and solar as their fuel source. Solar energy is an especially 
attractive renewable power source for because it is available when 
power is needed most in California--during the peak mid-day summer 
period. PG&E's portfolio includes both solar photovoltaic and solar 
thermal technologies. Since early 2008, PG&E has entered into five 
solar contracts, three using solar PV technology and two using solar 
thermal (or concentrated solar power) technologies. One of the PV 
facilities, Sempra's El Dorado facility in Boulder City, Colorado, has 
achieved commercial operation, while the other solar facilities are 
still being developed.
    Technological innovation and incorporating ``learning curve'' 
benefits are expected to reduce the cost of solar technologies over the 
next few years, leading to higher levels of solar development. For 
example, a study prepared by the National Renewable Energy Laboratory 
(NREL) on the potential for concentrated solar power, or CSP, in 
California and the rest of the Southwest U.S. indicated that CSP in 
California could produce upwards of seven times the energy needed to 
serve the state. NREL also suggests that costs for CSP technologies 
could decline significantly, from approximately 16 cents per kilowatt-
hour on average today, to approximately 8 cents per kilowatt-hour in 
2015. The halving of the cost of this energy in seven years is premised 
on an assumption that at least 4,000 MW of CSP will be built by then--
not just contracted for--to achieve ``learning curve'' benefits. In 
summary, getting the facilities built is a crucial element of reducing 
costs in the long run.
    We are also impressed by the progress being made in reducing the 
cost of photovoltaic (PV) technology and look forward to a healthy 
competition between CSP and utility-scale photovoltaics to meet the 
peak electric needs of California customers. We expect the competition 
between the two solar technologies will help our customers over time by 
bringing the cost overall of solar energy down.
    There are challenges to fully realizing the potential of these 
clean, renewable, domestic energy resources. As a load-serving entity 
subject to meeting California's RPS requirements, our perspective is 
primarily driven by our role as one of the nation's largest purchasers 
of renewable power through power purchase agreements. In light of the 
financial crisis and resulting credit freeze--and in order to help 
assure that we will have the renewable energy projects needed to meet 
our California RPS obligations--we have also recently been exploring 
development of a potential 750 MW solar site near Cadiz, in San 
Bernardino County.
    We acknowledge the potential tension between important 
environmental and conservation needs and state and national imperatives 
to decarbonize energy sources in light of climate change, but we remain 
confident that, through hearings such as this, policy makers can 
reconcile those tensions and meet both important objectives.
    Given the amount of overlap with federal lands and agencies for 
projects in the West, it remains critical that efforts continue to 
address the following areas:

A. Transmission
    A significant challenge we face in bringing renewable energy 
resources online faster is the lack of transmission lines to the areas 
where the renewable resources are located. In California, for example, 
most large-scale concentrated solar power generating facilities are 
sited in remote desert locations, far away from the areas where the 
electricity is needed most. Across the West, thousands of miles of 
transmission lines will be needed to significantly expand renewable 
energy production, including paths on or around Federal lands. It would 
be no exaggeration to say that only with increased transmission 
capability can the benefits of renewable resources be fully realized.
    One way to facilitate added transmission would be through better 
coordination among agencies. In addition to better coordination, 
streamlining the reviews required by state and federal agencies to 
remove unnecessary overlap or duplicative requirements could greatly 
enhance the development of transmission lines needed to link renewable 
energy resources to the grid (and hence, consumers). Carefully-crafted 
streamlining would not have to come at the expense of protecting 
critical land, water, and wildlife resources.

B. Project Permitting
    Another set of challenges relate to permitting the renewable energy 
projects themselves. It is helpful that the Subcommittee has asked a 
representative of the Solar Energy Industries Association (SEIA) to 
testify regarding those challenges. From our perspective as a renewable 
energy purchaser, it is worth noting that many of the applications for 
permits for renewable development are located within the California 
Desert Region and involve the use of federally managed land. Those that 
do not involve development on federally-managed land often include a 
transmission intertie that must cross federally managed land. Adding 
complexity, in many cases, development in the desert may involve lands 
that are home to federally listed species and/or habitat. For these 
reasons, in the vast majority of currently proposed projects, 
coordination is required between among federal agencies and between 
federal and state agencies.
    We believe that it is possible to satisfy all requirements without 
duplicating efforts and without compromising environmental goals, if 
federal and state agencies could rely on a jointly prepared 
environmental assessment One of the relevant agencies could be 
appointed as the lead agency; for example, since BLM is most familiar 
with the land it manages, it would conduct the visual analysis. Other 
agencies with relevant expertise in other areas would be placed in a 
coordinating role.
    PG&E strongly supports Secretary Salazar's recent announcement to 
open four Renewable Energy Coordination Offices with smaller renewable 
energy teams in other western states. The stated intent to ``cut red 
tape by expediting applications, processing, reviews and permitting of 
renewable energy projects'' is a positive step forward for the 
challenges solar development faces and builds off the ongoing work by 
BLM to develop a comprehensive approach to solar projects in the Mojave 
Desert region and the West.

C. Moving Forward
    At PG&E, we are working with policymakers, regulators, and relevant 
stakeholders to help address these challenges. For example, 
California's utilities are working closely with state and federal 
agencies on the Renewable Energy Transmission Initiative, which is 
expected to identify a prioritized listing of Competitive Renewable 
Energy Zones (CREZ) and conceptual transmission plans to access these 
zones. Streamlining the permitting process for transmission lines to 
reach the CREZs is a critical path item to achieving California's 
expected 33% RPS goal.
    Other activities are centered on streamlining agency permitting 
activities. Governor Schwarzenegger issued an Executive Order in 
November 2008 to advance California's transition to a clean energy 
economy and has directed state agencies to create comprehensive plans 
to prioritize regional renewable projects based on an area's renewable 
resource potential and the level of protection for plant and animal 
habitat. To implement and track the progress of the EO, the California 
Energy Commission (CEC) and the Department of Fish and Game (DFG) 
signed a Memorandum of Understanding formalizing a Renewable Energy 
Action Team (REAT).
    To streamline the application process for renewable energy 
development, the CEC and DFG are to create a ``one-stop'' permitting 
process with the goal of reducing the application time for specific 
projects in half. This will be achieved through the creation of a 
special joint streamlining unit that will concurrently review permit 
applications filed at the state level.
    To jump start Natural Communities Conservation Plans (NCCPs) under 
the EO, the REAT will initiate the Desert Renewable Energy Conservation 
Plan in the priority Mojave and Colorado Desert regions and identify 
other preferred areas that will benefit from a streamlined permitting 
and environmental review process. This is expected to dramatically 
reduce the time and uncertainty normally associated with building new 
renewable projects.
    The CEC, DFG, U.S. Fish and Wildlife Service and the U.S. Bureau of 
Land Management signed a Memorandum of Understanding to establish a 
coordinated approach with our federal partners in the expedited 
permitting process. This coordinated approach is also expected to 
significantly reduce the time and expense for developing renewable 
energy on federally owned California land, including the priority 
Mojave and Colorado Desert regions.
    It will take some time for us to see the results of these--and 
other--activities to increase the levels of renewable energy in 
California. As we work to achieve California and the U.S. goals on 
climate change and to decarbonize energy supply resources, as well as 
protect land, water, and wildlife resources, the federal government is 
well positioned to help bring greater clarity through sound policies. 
We appreciate this Subcommittee's interest in these vital issues, and 
look forward to working with you, other policy makers, and stakeholders 
on this journey on the road to consensus. On behalf of PG&E, I want to 
thank you for the opportunity to appear before you today and I look 
forward to answering your questions.
    Thank you.
                                 ______
                                 

  Response to questions submitted for the record by Steven E. Malnight

1.  Mr. Malnight, please provide your opinions on how the various 
        interagency Memorandum of Understandings that have been signed 
        between the federal agencies and the state agencies have been 
        working. Has there been an improvement in planning and permit 
        processing, or does more need to be done to improve 
        coordination?
    While the Memoranda of Understandings (MOUs) are a step in the 
right direction, it has taken some time for the agencies to develop an 
efficient working relationship. To that end, the MOUs should be updated 
to reflect the ``lessons learned.'' One solution we have proposed in 
California is for the agencies to delegate responsibilities to each 
other based on expertise rather than ``joint'' writing of each aspect 
of the environmental document. This would relieve pressure on resources 
without jeopardizing protection of the environment in any way. For 
example, the wildlife agency can take the lead on performing the 
analysis concerning biological resources consistent with its expertise, 
instead of all agencies participating and attempting to jointly analyze 
and write that section of the Environmental Impact Statement (EIS).
    We have also noticed a desire by each agency to coordinate the 
review process and we applaud that commitment. However, this sentiment 
has not resulted in much streamlining, as each agency's staff continues 
to be bound by that agency's internal review times and internal 
processes. According to independent power producers who have contracts 
to deliver power to us, they have not yet experienced expedited 
internal reviews by field staff and the supervisorial chain. These 
internal procedures should be revisited and revised to reflect the 
intent with which the MOUs were drafted. Specifically, the MOUs could 
be revised to develop tighter internal review timelines to produce the 
requisite environmental documents.
    In addition, there has been some reluctance on the part of agencies 
to release a Draft Environmental Impact Statement (DEIS) if it has not 
addressed and resolved each and every issue. The DEIS is intended to be 
a draft document and while we do not support its release unless it is 
complete, it would be helpful if the agencies did not wait until every 
issue is completely resolved before releasing the DEIS. Addressing 
issues in stages could help speed the issuance of the final EIS.
    Another example of areas that cause delay is the Bureau of Land 
Management's (BLM) request for very detailed information prior to 
commencing the processing of Right of Way Grants for solar 
applications. BLM recently developed very stringent criteria for Plans 
of Development (PODs) that must be submitted before the BLM will begin 
the National Environmental Policy Act (NEPA) process. We understand 
that these detailed criteria were developed, in large part, to ``weed 
out'' those solar developers that were land speculators, from those 
that intend to actually develop solar facilities. The unintended 
consequence of that action, however, has been to delay commencement of 
the NEPA process because this level of detail is not usually developed 
until later in the design process. While we understand BLM's desire to 
focus its work on projects that are ``real'' versus those that are 
speculative, we suggest a revision to the MOU that would grant fast 
track, expedited status, to all those project developers that meet the 
stringent POD requirements. The NEPA process should be conducted within 
one year of a completed POD. To accomplish this expedited goal, the 
agencies will need to shorten internal review times.

2.  Mr. Malnight, do you believe it is a better strategy to pursue a 
        smaller number of very large solar plants, or a larger number 
        of smaller projects, in order to meet a certain renewable 
        energy goal?
    PG&E believes the best strategy is to develop a diverse portfolio 
of technologies and project sizes. This diverse strategy can foster a 
robust competitive market, mitigate the impacts to the environment, and 
deliver, in the most cost-effective manner, renewable energy to our 
customers. Relying solely on large solar projects, or smaller solar 
projects, to meet a renewable energy goal, could have the unfortunate 
consequence that, if those projects fail to materialize for any reason, 
achievement of the renewable energy goal is dramatically impaired.

3.  Mr. Malnight, please provide additional detail on what sort of 
        timelines your company would like to see imposed on the BLM 
        review process for solar rights-of-way.
    BLM has several opportunities to expedite the review process:
    <bullet>  BLM should review an initial POD and give notice of any 
deficiencies within 30 days of filing of the POD.
    <bullet>  BLM should review any supplemental information provided 
in response to a notice of deficiency within 30 days of receipt of that 
supplemental information.
    <bullet>  Once a POD is deemed complete, BLM should immediately 
begin the NEPA process.
    <bullet>  The Notice of Intent (NOI) should be published within 30 
days of the completion of the POD and BLM should select a third-party 
independent contractor within 30 days of issuance of the NOI.
    <bullet>  For projects within California, the BLM should follow the 
California Energy Commission (CEC) process and coordinate all public 
meetings, workshops and hearings with the CEC's standard schedule to 
reduce duplication.
    <bullet>  The NEPA process should be concluded within 12 months of 
deeming the POD complete.
                                 ______
                                 
    Mr. Costa. Thank you very much, Mr. Malnight, and I 
appreciate your focus. There are some thoughts that I have with 
regards to questions based on your testimony. We will get back 
to that.
    Mr. Bill Corcoran from the Sierra Club.

  STATEMENT OF BILL CORCORAN, SENIOR REGIONAL REPRESENTATIVE, 
                          SIERRA CLUB

    Mr. Corcoran. Mr. Chairman, I will ask your indulgence in 
advance, as your sole environmental representative, if I run a 
minute over.
    Mr. Costa. Oh.
    Mr. Corcoran. May I have that indulgence?
    Mr. Costa. OK.
    Mrs. Bono Mack. Mr. Chairman, I will give him a minute of 
my time if that helps.
    Mr. Costa. But not a minute more. No.
    [Laughter.]
    If it is interesting, I will be very considerate.
    Mr. Corcoran. I think that is a legitimate----
    Mr. Costa. If you see my eyes glazing over----
    Mr. Corcoran. I will edit appropriately.
    Mr. Costa. OK. Go ahead.
    Mr. Corcoran. Mr. Chairman, members of the Subcommittee, my 
name is Bill Corcoran. I work with Carl Zichella and Sierra 
Club representatives to facilitate environmentally responsible 
renewable energy and related transmission siting in the western 
United States. I am testifying today on behalf of the Sierra 
Club's 1.3 million members and supporters in the United States 
and Canada.
    To prevent the calamity of extreme global warming, all 
nations heavily dependent on fossil fuels will have to rapidly 
shift to renewable energy resources, including solar energy. We 
need to bring renewable energy up to scale, and we need to do 
so as rapidly as we can responsibly manage. That does not mean 
we need to bypass environmental protections.
    On the contrary, we need to take great care while 
developing what we need. To move quickly, we must have the 
public's trust that environmental values will be upheld. 
Failing this, our efforts will be controversial and our 
progress slow.
    There are several principles that can guide our efforts. 
One, land that has already been disturbed should be preferred 
for development. Whether in private or public ownership, land 
that has already been developed for industrial, agricultural, 
or other intensive human uses is generally superior to 
greenfield sites to minimize environmental harm.
    This is the second one: identify and establish incentives 
for parcelized private lands in good resource areas. Some areas 
of disturbed lands are already large enough to accommodate 
solar development, such as farms, mining sites, etcetera. But 
many of the very best areas for solar development are presently 
very difficult to develop. These are areas typically near 
desert communities which were subdivided and sold a vacation or 
second home developments decades ago. They have excellent solar 
values and are closer to consumer load than more remote and 
less degraded sites on public lands.
    Currently, the large number of owners, sometimes hundreds 
or more in an area, make aggregating these parcels difficult to 
impossible for developers. The Sierra Club believes that with 
proper incentives these sites can be unlocked. Four types of 
incentives for private lands are needed. These incentives 
should be applied to aggregating properties within recognized 
areas of high potential that could be within designated solar 
energy development or enterprise zones. These zones could be 
adopted by state action, and, once designated, be eligible for 
Federal incentives.
    Hear are the four. Incentives for landowners to sell. Many 
landowners in these areas are unable to develop their parcels. 
A combination of Federal and state tax breaks would help, as 
would a subsidy for closing costs.
    Incentives for aggregators. As developers find aggregating 
parcels daunting, it would be necessary to incentivize private 
parties to take this on. Tax breaks similar to those provided 
for landowners might suffice.
    Incentives for generators to locate. Generators who may 
have invested significant resources to initiate projects 
elsewhere might instead locate in these areas if they knew 
their projects could proceed more swiftly. By providing 
expedited state reviews and licenses, combining mitigation and 
habitat conservation planning in these areas, generators would 
be more able to break ground quickly, take advantage of tax 
incentives, and meet contractual obligations to utilities 
striving to meet the State's renewable portfolio standard 
goals.
    This idea closely parallels the Governor's Executive Order 
in California and will require close cooperation with Federal 
and state wildlife management agencies.
    Incentives for counties to zone for solar. Because solar 
developers enjoy a lower property tax rate in California, 
counties can hold land for other forms of development other 
than solar. Only one county in California has an energy element 
to its general plan, Imperial County. The State should require 
such elements and work with Congress to tie eligibility for 
Federal or state payment in lieu of taxes that apply to 
counties that zone for solar, and work to aggregate parcelized 
lands of high renewable energy resource value into usable 
sites.
    Third principle, and I will start editing here. Bureau of 
Land Management should not accept right-of-way applications on 
lands that cannot be developed for environmental reasons. 
Requiring plans of development for all wastes money and staff 
time.
    BLM is considering designating areas suitable for 
development on their most disturbed sites and then beginning to 
reject and discourage right-of-way applications in sensitive 
areas. If implemented, this would help enormously.
    We must, of course, do both our long-term and short-term 
planning. We need a more circumspect approach for future solar 
siting. We need to establish incentives for generators to 
locate on disturbed sites on public lands.
    Generators who may be displaced on less disturbed sites 
would be more likely to locate on disturbed lands if they knew 
they would have a clear path through the environmental review 
and licensing processes. Accomplishing this requires joint 
state and Federal habitat conservation planning and mitigation 
work, combined with programmatic environmental review that 
allows for environmental assessments as opposed to EISs.
    Six, be willing to innovate in transmission infrastructure. 
Many resource areas on public lands have stunning views that 
enhance fragile local economies. We have a number of 
communities here that are gateways to fantastic public land 
resources. It is in both our short- and long-term interest to 
be open to using technologies that are less intrusive, such as 
undergrounding of lines with superconducting materials and 
technologies, despite the fact that they may be somewhat more 
expensive. This is an investment in the future of these 
communities.
    Require and fund agency cooperation to shorten 
environmental reviews and increase review quality. And I want 
to emphasize the need for increased staffing in agencies that 
are saddled with a huge challenge.
    Trans-agency cooperation is essential to accomplishing a 
successful solar energy buildout. Without it, projects will 
struggle as sequential reviews lengthen consideration timelines 
and delay needed projects. We will need agencies such as the 
Department of Defense to be part of the plan in terms of both 
making areas available for development as they are beginning to 
do, and participating in remediation and mitigation efforts.
    Other agencies needed to play a central role include the 
Federal Energy Regulatory Commission and the land management 
and research agencies of the Departments of Energy, 
Agriculture, and Interior.
    In summary, by siting projects on the most disturbed lands, 
we can identify both public and private lands by providing 
strategically crafted incentives to open up lands suitable for 
development but constrained by parcelization, by encouraging 
innovation both in terms of technology and cost recovery. And 
by careful coordination with the states, and mandatory 
coordination between and among Federal agencies, we can realize 
the vast potential of the Southwest solar energy potential.
    Thank you for your consideration of this testimony, and 
your indulgence.
    [The prepared statement of Carl A. Zichella follows:]

        Statement of The Honorable Carl A. Zichella, Director, 
                Western Renewable Programs, Sierra Club

    Mr., Chairman, members of the committee, my name is Carl Zichella. 
I am the Sierra Club's director of western renewable programs. My 
responsibilities include working to facilitate environmentally 
responsible renewable energy and related transmission siting in the 
western United States. I am an environmental stakeholder in the State 
of California's Renewable Energy Transmission Initiative (RETI) and the 
Western Governor's Association's Western Renewable Energy Zone (WREZ) 
processes. I am also a steering committee member for the Energy Future 
Coalition's renewable energy transmission project. I have worked for 
the Sierra Club for nearly 22 years and have worked on energy issues 
throughout my 25 year career in environmental advocacy. I am testifying 
today on behalf of the Sierra Club's 1.3 million members and supporters 
in the United States and Canada.
    Global Warming threatens our people and natural environment in ways 
we have never before experienced. According to the Intergovernmental 
Panel on Climate Change (IPCC) the next century could see increases in 
temperature--four degrees Celsius--equivalent to the total increase 
experienced on Earth since the end of the last Ice Age 10,000 years 
ago. The effects on human life and the natural world will be enormous.
    To prevent this calamity all nations heavily dependent on fossil 
fuels will have to dramatically shift the way they fuel their economies 
to renewable energy sources, including solar energy. We need to bring 
renewable energy up to scale and we need to do so as rapidly as we can 
responsibly manage.
    That does not mean we need to do it by short-circuiting 
environmental protections. On the contrary, we need to take great care 
to undertake the development we need with circumspection because if we 
are to move quickly we need to gain the public's support and trust that 
environmental values will not be unnecessarily trampled. If we fail to 
do this our efforts will be controversial and our progress will be 
slow.
    It is to our great advantage that our solar energy resources are 
arguably the best in the world in terms of quality and location. Not 
only do we have some of the very highest quality solar resource on the 
planet in California and neighboring states, that resource is closer to 
load than any other comparable resource area in the world, 200 miles or 
less generally from the major load centers. This means that we can be 
selective about siting. We do not have to trample protected areas and 
threaten already-imperiled wildlife.
    Solar energy, like all energy sources regardless of fuel type, has 
impacts. We need to make sure that we are taking appropriate 
precautions to address and mitigate these as we move forward to develop 
large-scale projects. Most of the solar energy companies I am aware of 
are responsible developers who are making every honest effort to 
identify the environmental impacts of their proposed projects and are 
willing to do appropriate mitigation for their anticipated effects. 
There are some honest disagreements about this, as we would expect, but 
I believe we can, by working together with federal and state regulators 
and with the generators as partners, unlock the vast potential of this 
resource in a time frame to help meet President Obama's goals of 
reducing greenhouse gas emissions nationally by 80% by the middle of 
this century, and increasing the use of renewable sources of 
electricity nationally by 25% by 2025.
    What do we need to do to accomplish our solar energy goals and 
greenhouse gas reduction needs? There are a number of principles we can 
follow that can help guide our efforts in the most expeditious manner. 
Some of these are contemplated in federal legislation. Others are being 
implemented by federal agencies under the direction of the Executive 
branch. Still others could be implemented administratively under 
existing authorities should the agencies be so directed by the 
President.
    Some will take state action, and indeed a critical element of 
success will be coordination with state agencies and governments. For 
example, transmission line development, perhaps the largest obstacle 
for large-scale renewable energy development, will require close 
cooperation and perhaps new planning and siting relationships with the 
states to accomplish. Efforts to simply preempt states would likely 
face bitter and entrenched ``as well as unnecessary--opposition and 
would be in my judgment likely to fail. There is a balance here that 
threads this needle of respective authorities and we will need to find 
it. Suggestions made by Senators Reid and Bingaman to share authorities 
with the states provide two pathways to solving this problem.
Principles for a ``road to consensus'' for solar energy development
    1.  Land that has already been disturbed should be preferred for 
development. Whether in private or public ownership, land that has 
already been developed for industrial, agricultural, or other intensive 
human uses is generally superior to ``greenfield'' sites in terms of 
minimizing environmental degradation. Redevelopment of disturbed sites 
offers opportunities to improve lands that may not otherwise be 
reclaimed, but it is imperative to consider and address the effects of 
renewable energy development, both positive and negative, on minority 
and low income populations. In the California, Nevada and Arizona 
deserts we need to intensively focus on identifying these sites and 
making them available for renewable energy development.
    2.  Identify and establish incentives for parcelized private lands 
in good resource areas. Some areas of disturbed lands are already large 
enough to accommodate solar development. These include abandoned 
farmlands, unofficial OHV recreational areas, and abandoned mine sites 
to name a few. But many of the very best areas for solar development 
are presently very difficult to develop. These are areas typically near 
desert communities which were subdivided and sold as vacation or second 
home developments 50-60 years ago. They have excellent solar values and 
are closer to consumer load than more remote and less degraded sites on 
public lands. Some of these areas were badly damaged as developers 
bladed roads for subdivisions across them. The large number of owners 
(sometimes in the hundreds or more) makes aggregating these parcels 
difficult to impossible for developers who believe negotiating with 
more than 20 owners per each two square mile project area is not 
feasible. It is too difficult and takes too long. But abandoning these 
sites is an affront to desert conservationists who correctly insist 
that we need to make the best use of disturbed sites before using sites 
that are undisturbed, especially on the public lands. The Sierra Club 
believes that with the proper incentives, these sites can be unlocked.
    Four types of incentives are needed. Some are federal, some are 
state, and some are local. These incentives should be applied to 
aggregating properties within recognized areas of high potential that 
could be within designated solar energy development or ``enterprise'' 
zones to ensure that the resources have best and fastest effect. These 
zones could be adopted by state action and once designated be eligible 
for federal incentives.
    a.  Incentives for landowners to sell--Many landowners in these 
areas are unable to develop their parcels for residential development 
due to insufficient water resources. A combination of federal and state 
tax breaks--such as capital gains tax exemptions and tax credits--would 
help, as would a subsidy for closing costs.
    b.  Incentives for ``Aggregators''--As developers find aggregating 
parcels daunting, it would be necessary to incentivize private parties 
to take this on. Tax breaks similar to those provided for landowners 
might suffice.
    c.  Incentives for generators to locate--Generators who may have 
invested significant resources to investigate projects elsewhere would 
be persuaded to instead locate in these areas instead if they knew that 
their projects could proceed more expeditiously. By providing expedited 
state reviews and licenses ``combining mitigation and habitat 
conservation planning in these areas, not cutting corners on normal 
review but recognizing that these disturbed sites will have fewer 
conflicts--generators would be more able to quickly break ground, take 
advantage of tax incentives and meet contractual obligations to 
California utilities striving to meet the state's renewable portfolio 
standard goals. This idea closely parallels the Governor's executive 
order in California. This will require close cooperation with federal 
and state wildlife management agencies.
    d.  Incentives for Counties to zone for solar--Because solar 
developers enjoy a lower property tax rate in California there is more 
incentive for counties to hold land for other forms of development 
rather than zone land for solar. Only one county in California has an 
energy element to its general plan: Imperial County. The state should 
require such elements and work with the Congress to tie eligibility for 
federal or state payment in lieu of taxes that could apply to Counties 
that zone for solar and work to aggregate parcelized lands of high 
renewable energy resource value into usable sites. Decertification of 
expired subdivisions might be one qualifying activity Counties could 
use.
    3.  Bureau of Land Management should not accept Right of Way (ROW) 
Applications on lands that cannot be developed for environmental 
reasons--The BLM is considering changing the way ROW applications are 
handled away from accepting every ROW application and only rejecting 
proposed projects after plans of development are completed. This is a 
very positive step that should be encouraged. Some of the areas applied 
for are not developable due to wildlife and land conservation 
conflicts, and requiring plans of development for all is wasteful both 
financially and in terms of agency staffing. BLM is considering 
designating areas suitable for development (on their most disturbed 
sites) and then beginning to reject and discourage ROW applications in 
sensitive areas. If implemented this will help enormously. They could 
begin by rejecting ROW applications in sensitive lands immediately.
    4.  Do both long and short term renewable energy planning on public 
lands--We need to both get as much development started in the right 
places we can manage as expeditiously as possible and plan for the 
longer term. The approach mentioned above is fine for the short term. 
But we also need a more circumspect approach for future solar siting 
that can unfold over a longer time frame. The resource is rich enough 
that we have the ability to site solar projects more carefully once the 
first rank of disturbed lands has been identified and put into use.
    5.  Establish incentives for generators to locate on disturbed 
sites on public lands--As with the private lands case already 
presented, generators who may be displaced on other less-disturbed 
sites would be more likely to locate on disturbed lands if they knew 
they would have a clearer path through the environmental review and 
licensing processes. Accomplishing this would mean joint state and 
federal habitat conservation planning and mitigation work, combined 
with programmatic environmental review that would allow for 
Environmental Assessments as opposed to EIRs. BLM is currently 
exploring ways to do this with the States of California, Nevada and 
Arizona and perhaps others.
    6.  Be willing to innovate in transmission infrastructure--
Infrastructure installed to facilitate solar development will be with 
us for a half century or more. Many local objections to transmission 
needed for solar development stem from degraded viewsheds for local 
residents. Many resource areas on public lands have stunning views that 
enhance fragile local economies. It is in both our short term and long 
term interest to be open to using technologies that are less intrusive, 
such as undergrounding of lines with superconducting materials and 
technologies, despite the fact that they may be somewhat more 
expensive. This may require a new rule from FERC, and Executive Order 
from the President or congressional action to approve higher levels of 
cost recovery, perhaps applied across parts of the entire 
interconnection, to enable transmission line sponsors, whether 
independent or load serving entities, to consider employing them as a 
part of their projects in uninhabited areas.
    7.  Require and fund agency cooperation to shorten environmental 
reviews, increase review quality--Trans-agency cooperation is essential 
to accomplishing a successful solar energy build-out. Without it, 
projects will struggle as sequential reviews lengthen consideration 
timelines and delay needed projects. We will need agencies such as DOD 
to be part of the plan in terms of both making areas available for 
development as they are beginning to do, and participating in 
remediation and mitigation efforts. Other agencies needed to play a 
central role include the Federal Energy Regulatory Commission and the 
land management and research agencies of the Departments of Energy, 
Agriculture and Interior.
    In summary, by siting projects on the most disturbed lands we can 
identify on both public and private lands; by providing strategically 
crafted incentives to open up lands suitable for development but 
constrained by parcelization; by encouraging innovation both in terms 
of technology and cost recovery; and by careful coordination with the 
states and mandatory coordination between and among federal agencies we 
can expeditiously unlock the vast potential of the southwest's solar 
energy potential.
    Thank you for your consideration of this testimony.
                                 ______
                                 

    Response to questions submitted for the record by Carl Zichella

    Question 1: Effectiveness of Interagency Memoranda of 
Understanding: Memoranda of Understanding are important tools for 
interagency cooperation. But it has been our experience that they often 
fail to meet their intended level of effectiveness because there is no 
single ``driver'' to keep the respective signatories on track and to 
hold agencies and their staffs accountable. Existing MOUs on 
transmission for example have accomplished little. There needs to be a 
senior official from the federal and state governments in charge of 
their respective signatories to ensure that the goals of the agreement 
are accomplished and milestones met.
    Another shortcoming has related to capacity. Some federal and state 
agencies, such as USFWS are drastically understaffed and lack the 
ability to contribute to the goals of MOUs in a timely way. This 
desperately needs to be addresses. This is even truer at the state 
level. Some means of federal support for MOUs in terms of dedicated 
staffing at the agencies, dedicated resources to permit the completion 
of the goals of the MOU and support for equivalent state participation 
are needed to make these instruments live up to their expectations.
    Question 2: Small number of large v. large number of small 
projects: We believe that the magnitude of the carbon reductions we 
must make to gain control of global warming and to meet RPS standards 
requires that we do many things simultaneously. This includes improving 
our very slow progress with distributed generation and increasing our 
energy efficiency and conservation efforts as well as siting large-
scale solar energy projects. Large scale projects properly located 
afford us our best chance of meeting renewable energy goals in the 
short term. Because they produce larger amounts of energy from a 
smaller number of sites, they can reduce the environmental impact 
related to scattering smaller projects across the landscape. Siting 
these projects properly takes great care because of their very large 
land disturbance impacts. There is a welcome trend under way currently 
that seeks to site smaller but still significantly-sized projects (20-
100 MW nameplate capacity) on disturbed and less environmentally 
significant private lands closer to load. Because these may be 
relatively easier to site and may need only minimal transmission 
improvements to begin adding power to the grid, they can cumulatively 
help us make progress on RPS goals as we approve, develop and bring on 
line larger scale projects. They do not replace the need for large 
scale projects
                                 ______
                                 
    Mr. Costa. Not a problem. And tell Carl that we wished he 
could have been here. But you did an able job, and his 
testimony--I like the seven principles that you put together. I 
think they give a framework under which we can work. We may 
have differences on how we achieve those goals, but I think it 
is important for environmental organizations to provide 
principles that are workable. More to that later on.
    Mr. Corcoran. Thank you.
    Mr. Costa. Our next witness, Ms. Katherine Gensler, Solar 
Energy Industries Association. Katherine, you have five 
minutes.

   STATEMENT OF KATHERINE GENSLER, MANAGER OF REGULATORY AND 
    LEGISLATIVE AFFAIRS, SOLAR ENERGY INDUSTRIES ASSOCIATION

    Ms. Gensler. Thank you. Good morning, Mr. Chairman----
    Mr. Costa. Good morning.
    Ms. Gensler.--members of the Subcommittee, thank you for 
inviting me to offer testimony on the very timely issue of 
solar energy development on Federal lands.
    My name is Katherine Gensler, and I am the Manager of 
Regulatory and Legislative Affairs for the Solar Energy 
Industries Association. SEIA is the national trade association 
for the solar energy industry and represents nearly 900 members 
at all points of the value chain, from financiers to project 
developers, component manufacturers, to solar installers. With 
me today is also Peter Weiner of Paul Hastings to help answer 
any questions you may have.
    Mr. Costa. A little more directly into the mic. No, just 
change the--raise it up a little bit. There you go.
    Ms. Gensler. In the five minutes I will be speaking to you 
today, enough sunlight will shine upon the United States to 
satisfy America's energy demands for an entire month. The solar 
industry is working to harness this carbon-free energy and 
create domestic jobs to move our country to a new clean energy 
future.
    Solar energy will create more than 60,000 jobs, install a 
gigawatt of solar capacity, and avoid more than one million 
tons of carbon emissions in 2009 alone. These figures will more 
than double in 2010.
    There is a broad consensus that developing the enormous 
potential of solar power on BLM managed lands should be a 
priority for the Bureau. Currently, there are 199 solar 
projects waiting for permits from BLM with some applications 
pending since 2005. Together, those proposed projects could 
power 20 million homes and could create 37,000 jobs in the 
region, yet not a single permit for solar energy development 
has been issued by BLM. In comparison, there were approximately 
7,100 oil and gas permits issued in 2007 alone.
    One of the most important provisions in the American 
Recovery and Reinvestment Act enables a solar project developer 
to receive a grant directly from the Treasury Department rather 
than having to monetize the solar investment tax credit through 
a financial backer. This program requires applicants to begin 
construction of their project by December 31, 2010.
    A lot of what you have heard today focuses on the three- to 
five- to ten-year planning cycle. I want to call your attention 
to the immediate future. Despite the diligent efforts of solar 
project developers, the Department of the Interior, and states 
to meet this deadline, we run the risk of having no projects 
that will satisfy it. The following obstacles must be overcome.
    Mr. Costa. No projects by when?
    Ms. Gensler. By December 31, 2010--obstacles to overcome 
quickly. First and foremost, the BLM offices that process solar 
applications here in Southern California and across the west do 
not have adequate resources to efficiently process pending 
applications. Secretary Salazar's announcement last week that 
$41 million of Recovery Act funds would be dedicated to 
processing renewable energy applications.
    BLM must expeditiously use those funds to organize and 
staff the renewable energy coordination offices. To ensure the 
future funding of those offices, the rent paid by solar and 
wind developers should be recycled back into those BLM offices 
that process these permits.
    Second, BLM, the Fish and Wildlife Service, and state 
agencies must have a clear process for early and regular 
coordination, and commit to clear timeframes for making 
decisions. At this point, we are only 18 months away from that 
commenced construction deadline. Timely interagency 
coordination is crucial.
    Finally, BLM must adopt, and Congress should support, ways 
to expedite environmental review of projects that are capable 
of beginning construction by the end of next year. This does 
not mean cutting corners. It means finding ways to proceed 
faster down the same path.
    Mr. Chairman, by taking these actions, Congress can turn 
the broad consensus on the desire for solar energy into real 
on-the-ground projects. We can improve our energy independence. 
We can tackle global warming. We can help California meet its 
RPS goals. We can create jobs and grow the local economy. And 
we can make solar energy a significant and lasting contributor 
to our nation's energy supply.
    Thank you for your time. I look forward to your questions.
    [The prepared statement of Ms. Gensler follows:]

 Statement of Katherine A. Gensler, Solar Energy Industries Association

    Good morning, Mr. Chairman, members of the Subcommittee. Thank you 
for inviting me to offer testimony on the very timely issue of solar 
energy development on federal lands.
    My name is Katherine Gensler and I am the Manager of Regulatory and 
Legislative Affairs for the Solar Energy Industries Association (SEIA). 
SEIA is the national trade association for the solar energy industry 
and represents nearly 900 members at all points of the value chain--
from financiers to project developers, component manufacturers to solar 
installers. Established in 1974, SEIA works to make solar energy a 
mainstream and significant energy source in the United States by 
expanding markets, strengthening the industry, and educating the public 
on the benefits of solar energy.
    In the five minutes I'll be speaking to you today, enough sunlight 
will shine upon the United States to satisfy America's energy demands 
for an entire month. The solar industry is working to harness this 
carbon-free energy and create domestic jobs to move our country to a 
new, clean energy future. Solar energy will create more than 60,000 
jobs, install a gigawatt of solar capacity, and avoid more than 1 
million tons of carbon emissions in 2009 alone. These figures will more 
than double in 2010.
    In recent years, broad consensus has emerged around the need for 
clean renewable energy and the role that solar energy can and must play 
in meeting that need. For example, in the Energy Policy Act of 2005 
(EPAct), Congress directed the Secretary of the Interior to aid the 
development of 10,000 MW of renewable energy projects on public lands 
within a decade. More recently, President Obama has set out a goal of 
doubling the nation's renewable energy production in the next three 
years. And a majority of states have adopted ambitious Renewable 
Portfolio Standards.
    To further these clean energy goals, former Secretary Kempthorne 
authorized the Bureau of Land Management to establish renewable energy 
coordination offices that will expedite the permitting of wind, solar, 
biomass, and geothermal, and transmission projects on BLM-managed 
lands. Secretary Salazar has reinforced these policies with his 
formation of a task force on energy and climate change. We commend the 
Secretary for his recent announcement that $41 million of funding from 
the American Recovery and Reinvestment Act of 2009 (ARRA) will be used 
to expedite the processing of renewable energy permits.
    Despite this broad consensus, the enormous potential of solar power 
remains untapped. Currently there are 199 solar projects waiting for 
permits from BLM, with some applications pending since 2005. Yet not a 
single permit for solar energy development has been issued by BLM. 
Together, these proposed projects could power 20 million homes and 
could create 37,000 jobs in the region.
    This Congress, recognizing both the need for renewable energy and 
the financial challenges faced by project developers, established a 
grant program in lieu of the solar investment tax credit (ITC). This 
program enables a solar project developer to receive a grant directly 
from the Treasury Department, rather than having to monetize the ITC 
through a financial backer. The grant program requires applicants to 
begin project construction by December 31, 2010.
    Despite the diligent efforts of solar project developers, the 
Department of the Interior, and the States to meet this deadline, we 
run the risk of having no projects that can satisfy it. The following 
obstacles must be overcome, and quickly:
    <bullet>  First and foremost, the BLM offices that process solar 
applications here in Southern California and across the West do not 
have adequate resources to efficiently process pending applications, 
particularly for those projects that can meet the Recovery Act deadline 
of December 31, 2010. As noted earlier, ARRA provided additional 
resources; now BLM must expeditiously use those funds to organize and 
staff the renewable energy coordination offices.
    <bullet>  Additional resources also must be provided to the Fish & 
Wildlife Service, which is charged with assessing the impacts of solar 
projects on sensitive species and devising mitigation measures to 
offset these impacts.
    <bullet>  BLM, FWS, and state agencies must have a clear process 
for early and regular coordination, and commit to clear timeframes for 
making decisions. At this point we are only 18 months away from the 
deadline to commence construction; timely interagency coordination is 
crucial.
    <bullet>  BLM must adopt, and Congress should support, ways to 
expedite environmental review of projects that are capable of beginning 
construction by the end of 2010. This does not mean cutting corners; it 
means finding ways to proceed faster down the same path. Examples 
include processing projects according to readiness, not the date of 
filing of a permit application; ordering the immediate publication of 
Notices of Intent under the National Environmental Policy Act for 
projects that have an adequate Plan of Development and have completed 
or are conducting spring studies; using existing studies where 
possible; and relying on mitigation measures to address uncertainties.
    In addition to these immediate changes, there must be long-term 
fixes if solar energy is to become a significant and lasting 
contributor to our nation's energy supply. We have had the opportunity 
to meet with BLM and FWS on several occasions and both agencies have 
been very open and responsive. Nonetheless, some issues will require 
assistance from Congress.
    <bullet>  To ease BLM and FWS resource constraints, the solar and 
wind industries propose to recycle the rents paid by renewable energy 
developers back to the state offices or Renewable Energy Coordination 
Offices that process the ROW permits. The funding provided by ARRA 
jump-starts these offices; this proposal would provide the agencies 
with an on-going revenue stream and the certainty that they will have 
trained staff available for process future solar applications. (See 
Attachment 1 for background information.)
    <bullet>  In addition, the solar industry has proposed an 
application processing fee that would be collected through BLM's cost 
recovery authority. BLM requires legislation from Congress to make this 
fee nonrefundable.
    <bullet>  Solar permit applications should be accepted in a 
noncompetitive bidding process. While competitive bidding works for 
established industries like oil and gas or mining, it is not 
appropriate for new market entrants like solar. Instead, BLM should 
grant permits to companies with the financial and technical expertise 
to bring solar projects to fruition.
    <bullet>  Solar and other renewable energy projects require 
wholesale improvement and expansion of our nation's ailing transmission 
system on a timeframe that is meaningful. To the extent that the 
Department of the Interior is charged with performing the environmental 
review of transmission lines on public lands, we urge the department to 
act expediently and, to the extent practicable, rely on analysis that 
has already been conducted.
    <bullet>  For those projects that do not have ready access to 
transmission, stakeholders have focused on the identification of 
resource ``zones,'' or areas within which solar development could take 
place (i.e., enough sunlight and relatively flat terrain) while 
effectively addressing environmental issues such as species protection. 
BLM is considering these ``zones;'' the Western Governors' Association 
is conducting its Western Renewable Energy Zones (``WREZ'' process); 
and California has its Renewable Energy Transmission Initiative 
(``RETI'') process. All of these are multi-stakeholder processes which 
provide diverse parties a road to consensus. The multi-stakeholder and 
scientific approach followed in each of these initiatives is key to 
their success.
    <bullet>  The federal government can facilitate the deployment of 
solar by providing clear guidance on which federal lands will be open 
to solar energy development, so project developers do not waste time 
and money pursuing projects in areas that may ultimately be deemed 
inappropriate for development.
    <bullet>  If Congress sets aside land for strict preservation, 
solar developers should receive mitigation credit for those lands.
    <bullet>  Congress should support the use of suitable BLM lands for 
mitigation easements, an idea introduced by the Nature Conservancy and 
called ``non-acquisition mitigation.''
    <bullet>  The Department of Defense manages large swaths of land in 
the Southwest, many of which are suitable for solar energy development. 
Congress should assist the Defense Department in making these lands 
available for solar power plants.
    Solar energy development is among the many possible uses of federal 
lands in the Southwest. The industry recognizes and supports the need 
for a balanced approach to preservation, development, recreation, and 
other uses. By taking the actions outlined above, Congress can turn the 
broad consensus on the desire for solar energy into real, on-the-ground 
projects that tap clean, domestic energy resources while providing jobs 
to grow the local economy.
    Thank you for your time. I am happy to answer any questions you may 
have.
                                 ______
                                 
ATTACHMENT 1
                    AMERICAN WIND ENERGY ASSOCIATION
                  SOLAR ENERGY INDUSTRIES ASSOCIATION

 Ensuring adequate resources for BLM to process wind and solar energy 
                              applications

Background
    Congress has gone on record in support of expediting the processing 
of applications for renewable energy production on federal lands. 
<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Energy Policy Act of 2005 (Public Law 109-58)
---------------------------------------------------------------------------
    However, as of November 2008, there were more than 215 applications 
pending with the Bureau of Land Management (BLM) for wind energy 
permits, including both applications for site testing (to set up 
temporary poles to test wind speed) and to construct actual wind farms. 
This is up from 150 pending in January 2008. Due to limited staffing, 
site testing permits for wind energy are taking 18 months or longer. 
Given the time-limited incentives for renewable energy included in the 
American Recovery and Reinvestment Act (P.L. 111-5), delays of this 
magnitude can make or break the economic viability of a project. By 
contrast, application for development permits for oil and gas drilling 
generally take 6-7 months.
    To date, BLM has approved 192 right-of-way grant authorizations for 
wind energy projects, 28 for development and 164 for site testing only.
    Similarly, there are nearly 200 pending applications for solar 
energy projects on BLM lands, up from 135 in January 2008. None have 
yet been approved. Solar projects do not engage in a site testing phase 
like wind. Instead, they go directly to applying for a full scale 
development permit, which requires a site specific environmental impact 
statement (EIS), a process that typically takes two to three years to 
complete.
    In January 2009, the Department of the Interior announced the 
creation of Renewable Energy Coordination Offices in four western 
states--Arizona, California, Nevada and Wyoming--where the Department 
has received the most interest in development. While this approach 
holds promise, steady funding will be important to fully realize the 
potential benefits these offices may provide. The AWEA/SEIA proposal 
discussed below would provide such funding.
Treatment of other major activities on BLM lands
Oil and Gas
    Section 365 of the Energy Policy Act of 2005 provides that a 
portion--around $25 million per year--of the revenues the federal 
government receives from oil and gas rental payments from BLM lands be 
recycled back into the BLM for the purpose of expediting the processing 
of additional oil and gas permit applications by the BLM. This 
provision is funding seven oil and gas pilot offices and has led to the 
hiring of 150 BLM staff and is funding 30 staff from agencies like the 
Forest Service and the Fish and Wildlife Service in order to create 
``one-stop'' locations for oil and gas producers.
Geothermal
    Section 234 of the Energy Policy Act of 2005 provides that rentals, 
royalties and other payments, excluding those paid to state and county 
governments, made by geothermal developers be used to expedite the 
processing of additional geothermal permits. This provision is 
providing $10 to $15 million per year to process geothermal permit 
applications.
Commercial Filming
    Public Law 106-206 established a fee system for commercial filming 
activities on public lands. The law allows the Secretary to direct 
these fees to improve the processing of additional permit request. This 
law provides around $250,000 a year for this purpose.
Communications Towers
    The Department of the Interior Appropriations bill beginning in 
Fiscal Year 2006 and repeated in each subsequent year has dedicated $2 
million out of the rental fees paid by communications tower owners to 
administering the permit program for communications towers.
Request of wind and solar industries
    Currently, the wind industry pays nearly $1 million in rental fees 
to the BLM every year. There are currently no rental fees for solar 
projects, but fees will ramp up to $1 million or more quickly as 
projects get completed and go operational in the next few years.
    Similar to the authorities described above for other activities on 
BLM land, the wind and solar industries would like legislation approved 
that would recycle up to $5 million of the rental payments paid by wind 
and solar developers for projects on BLM lands back into the Department 
of the Interior for the purpose of expediting the processing of 
additional wind and solar permits. This revenue would partially fund 
approximately 70 positions related to processing renewable energy 
applications.
                                 ______
                                 

 Response to questions submitted for the record by Katherine A. Gensler

Questions from Chairman Jim Costa, from the State of California
1.  Ms. Gensler, please provide your opinions on how the various 
        interagency Memorandum of Understandings that have been signed 
        between the federal agencies and the state agencies have been 
        working. Has there been an improvement in planning and permit 
        processing, or does more need to be done to improve 
        coordination?
    Coordination between the various state and federal agencies 
involved in the permitting of solar power plants is crucial, and should 
be done with an eye toward streamlining the process and reducing permit 
processing time. The Memorandum of Understanding (MOU) between the 
Bureau of Land Management of and California Energy Commission (CEC) has 
been helpful, but the collaboration is still new and further 
coordination is needed.
    The experience of solar developers in California has varied. In 
some cases, the process has worked well. In other cases, the BLM and 
CEC processes have not aligned, despite the MOU. Remedies for this 
situation include (1) coordination at all levels, from upper management 
to field staff, (2) developing a schedule of milestones with the 
project applicant and then designating one staff member to be 
responsible for managing the application process, (3) identifying which 
agency has the regulatory responsibility for certain processes, and (4) 
greater resources to devote to application processing. Development of 
solar power will bring thousands of jobs to the region; delays in the 
permitting process impede job creation.

2.  Ms. Gensler, your organization proposes taking some of the rents 
        your industry would pay and using that money to help fund 
        rights-of-way processing. Would that still be necessary under 
        the new budget released by the President? Would you support 
        increases in rents, application fees, or royalties in order to 
        help fund additional processing?
    We are very pleased to see that the Administration's FY 2010 budget 
request included $16.1 million for BLM to permit and lease renewable 
energy resources and develop transmission facilities. We anticipate 
that the new renewable Energy Coordination offices will increase BLM's 
permitting processing capacity and accelerate the development renewable 
energy. The advantage to having some of the rents paid by renewable 
energy developers go back to the BLM offices that process such permits 
is that it ensures long-term funding for these offices and the staff 
who process permit applications. The nation is transitioning to a low-
carbon energy future, and the solar industry is poised to meet that 
demand. Having a dedicated revenue stream will help BLM maintain the 
staff and resources it needs to process applications for renewable 
energy development into the future.
    Any change in the fee structure for solar development must be 
carefully considered. We must avoid inadvertently increasing the cost 
of clean, domestically-produced renewable energy. An additional royalty 
charged on the output from a solar power plant could increase the cost 
of providing that power to consumers. However, the solar industry is 
open to a one-time, non-refundable application processing fee. This 
would be paid to BLM under its cost recovery authority and enable BLM 
to dedicate more staff resources to processing of solar energy permits. 
For the fee to be non-refundable, Congressional action would be 
required.

3.  Ms. Gensler, in your testimony, you mention the industry's 
        opposition to competitive leasing for solar. Does your 
        organization have a position on the use of non-competitive 
        leases as an alternative to issuing rights of way, and, if so, 
        what is that position? Also, considering your organization is 
        also concerned about speculators or unserious developers, 
        wouldn't competitive leasing help weed out people who are not 
        serious?
    We have not yet developed an industry position on non-competitive 
leases. As an industry, our goal is to harness the incredible solar 
resource available in the Southwest United States and bring that power 
to consumers. Land speculation does nothing to further that goal. The 
current system of ``first in line'' processing enables BLM to grant 
permits to companies with both the financial and technical expertise to 
bring solar projects into operation. Competitive leasing merely rewards 
those who submit the highest bid, without the promise of a viable solar 
project. Such a system will not speed the growth of the industry, nor 
will it necessarily deploy the solar generation needed to meet BLM's 
renewable energy goals.

4.  Ms. Gensler, please describe the difference between water cooling 
        and dry cooling at solar thermal power plants. How much more 
        expensive is one technology over the other, and is one 
        inherently more efficient than the other?
    Solar thermal power plants, like any other thermal power plant 
(coal, nuclear, etc.), use a steam turbine to generate electricity. The 
steam turbine uses a closed-loop process, changing water to steam and 
then back to water. The condenser brings down the temperature of the 
exhaust steam as it exits the turbine and is recirculated back to the 
boiler. A ``water cooling'' system condenses the steam through indirect 
contact with water that is withdrawn from its source and returned at an 
elevated temperature. A ``dry cooling'' (or ``air cooling'') system 
uses fans or ambient air to condense the steam. In general, water 
cooling offers lower capital costs, higher thermal efficiencies, and 
overall more consistent performance. Dry cooling can reduce water usage 
by up to 80%, but at a penalty of about a 10% increase in electricity 
prices.
    In addition to water and dry cooling systems, some projects are 
being developed with hybrid cooling systems. Such systems allow for 
significantly less water usage on a regular basis. The power plant then 
shifts to the water cooling mode when ambient air temperatures are 
high, thus preserving the overall efficiency and electrical output of 
the solar plant. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Reducing Water Consumption of Concentrating Solar Power 
Electricity Generation.'' 2009. U.S. Department of Energy. http://
www1.eere.energy.gov/solar/pdfs/csp_water_study.pdf
---------------------------------------------------------------------------
5.  Ms. Gensler, do you believe it is a better strategy to pursue a 
        smaller number of very large solar plants, or a larger number 
        of smaller projects, in order to meet a certain renewable 
        energy goal?
    There are many factors that go into determining the ``right'' size 
of a power plant, solar or otherwise. The electricity needs of the 
utility and its customers are key; access to transmission capacity and 
a suitable parcel of land are also very important. The optimal size of 
a solar plant is also driven by economies of scale, both in terms of 
the prices of component parts and also the physics behind the 
technology. Project developers, in concert with their customer, are 
best positioned to determine what size project is most suitable. Input 
from local, state, and federal officials, as well as other 
stakeholders, in the planning and permitting phases can--and should--
shape the ultimate development of a solar power plant. However, care 
should be taken to not impose more rigorous standards on one type of 
power plant vis-a-vis another. Solar energy is an important contributor 
to meeting the nation's economic, environmental, and energy security 
goals. Let us not miss the opportunity to tap into this clean, 
renewable energy resource.
                                 ______
                                 
    Mr. Costa. Thank you. And you have 18 seconds left on your 
time. You have obviously well prepared. Thank you.
    Our last witness in this panel is Mr. Michael Niggli, that 
will give a perspective on solar from Sempra Energy. Mr. 
Niggli.

 STATEMENT OF MICHAEL NIGGLI, CHIEF OPERATING OFFICER, SEMPRA 
                        ENERGY UTILITIES

    Mr. Niggli. Thank you, Mr. Chairman.
    Mr. Costa. Five minutes.
    Mr. Niggli. Thank you, Mr. Chairman, members of the 
Subcommittee. Welcome to Palm Desert. Glad to have you here. I 
am Mike Niggli. I am COO of the Sempra Energy Utilities. I am 
also Chairman of the Great Basin National Park Foundation, and 
I am a member of the Western Electric Industry Leaders Group, 
which is a group of executives in the electric industry that is 
trying to connect the dots, essentially trying to figure out, 
how can we bring renewable energy to those who are consuming it 
and want to consume it.
    We found that the best resources for solar and geothermal 
are right here in California, and we found that the best wind 
resource in the world possibly is in Wyoming. They have at 
least six times as much wind capability as we have here in 
California. The whole point of looking across the western 11 
states is to find the lowest cost resources that we can to 
deliver those to our customers so that renewable energy makes 
sense for all involved.
    Over the last few years, the world has really flipped over. 
It used to be that it would take time, more time, to actually 
permit the generating facility than it would the transmission 
line. That is no longer the case. With the distributed nature 
of the renewable resources and the fact that they have 
attributes of zonal attributes, it is actually faster and 
easier to get those permitted, we think, than it is the 
transmission lines. So generation is not necessarily the 
problem. I think it is the transmission area.
    We have been working for the last four to five years on 
permitting a renewable energy delivery system of about 1,000 
megawatts here in California. The PUC has acted on that in 
December of last year, and BLM acted in January, one month 
later. We are now awaiting the U.S. Forest Service to issue 
their record of decision, and hopefully that will come very 
soon.
    Our company actually--one of our affiliates has developed 
the world's largest thin film solar plant, and that thin film 
requires no water as well, and they are looking to expand it by 
five times. You can impact our processes in three separate 
areas. One is in the planning process, two is in the 
environmental review process, and three is in the post-decision 
process.
    Earlier today you heard about a number of great attributes 
and initiatives, the western renewable energy zone project and 
the RETI project here in California. All of these are the right 
things looking at, how do you connect the dots with the BLM's 
corridor planning. But what you need to do is to make this 
real.
    Actually, the coordinating and planning must mean 
something, and it must mean something in the decision process 
where you get the licenses to build transmission and to build 
generation. And so you have coordinated planning, but the 
coordinated planning doesn't mean anything unless we go ahead 
and work that down into the decision process.
    Second, we need you to look at renewable energy credits. We 
need to have renewable energy credits that are tradeable 
throughout the western United States, so that we can ensure 
that we have the opportunity to trade renewable energy and 
develop the best sites throughout the west to get the lowest 
cost renewables to our customers.
    We also need to look at supersizing transmission lines. We 
are not going to get that many transmission lines between the 
regions. There are just too many constraints. When you look at 
the maps that identify all of the constraints in the western 
United States, there will be few and far between the major bulk 
powerlines. So, we should always consider maximizing the 
voltage level, so we maximize the delivery capability and also, 
frankly, minimize the environmental impact that is associated 
with those kinds of lines.
    Second, you can also impact the environmental review 
process by ensuring that everyone is using the same data, has 
the same timelines, and is coming to a decision at about the 
same time. That helps everybody in terms of certainty in the 
process, and it certainly helps the renewable developers to 
know when a decision will be made on transmission that will 
allow them to commit significant funds to their projects.
    They are ready to commit. They are ready to go. But they 
need to know that the capability to deliver is there.
    And then, on the last part of this, when we finish the 
permitting, there are post-decision issues that come up, and 
they come up in terms of the opportunities for additional 
lawsuits and litigation against all of the projects. It is very 
interesting, but in our area of the business anybody who deals 
with the BLM or the Forest Service or some of the other Federal 
agencies on transmission has multiple bites at the apple.
    They can go to the IBLA, they can go to the District 
Courts, they can go to the Court of Appeals. But if you want to 
license a gas pipeline in front of FERC, you want to license a 
hydro project, or you want to license a nuclear plant, they 
generally have one opportunity and that is at the Court of 
Appeals. And I think by looking at doing the same thing here we 
can probably reduce the amount of uncertainty there is in 
developing renewable resources.
    I have a number of other comments, but in terms of the 
time, Mr. Chairman, I would like to hold those until later 
until any of your questions.
    Thank you.
    [The prepared statement of Mr. Niggli follows:]

Statement of Michael R. Niggli, Chief Operating Officer, Sempra Energy 
Utilities--San Diego Gas & Electric Company and Southern California Gas 
                                Company

Executive Summary
    SDG&E's recent experience with the siting process for a 500 kV 
transmission line (the ``Sunrise Powerlink'' or ``Sunrise'') that would 
connect the vast renewable generation potential of the Imperial Valley 
region to the rest of the grid suggests the following:
    A transmission grid is crucial to development of renewable 
generation: Many renewable resources are ``intermittent'' in nature. 
This fact requires a strong regional grid to facilitate bulk power 
transfers, to absorb energy supply deviations, and to enhance renewable 
development. It also establishes development of energy storage 
capabilities as a priority. We have observed robust and concrete 
developer interest appearing in the region to be served by Sunrise 
after SDG&E announced the project.
    Transmission siting is needlessly duplicative: Transmission siting 
in the West typically requires several separate state and federal 
administrative siting processes, each subject to separate judicial 
appeals. All agencies, state and federal, must work cooperatively to 
streamline the overall process, agree on project scoping, utilize 
consistent data, and make timely decisions. Judicial appeals of many 
federal agency decisions, such as those of BLM and the U.S. Forest 
Service, begin at the federal district court level, giving opponents 
rights to two layers of judicial appeals, and adding years of 
uncertainty to a multi-year administrative permitting process.
    Existing planning is balkanized: Today in the West, regional 
planning for transmission and renewables takes place in the context of 
Regional Transmission Organizations, regional reliability councils 
(such as the Western Electricity Coordinating Council, integrated 
resource planning processes supervised by state commissions, and 
certain ad hoc efforts to address siting issues associated with 
renewable development.
    Congress can simplify and coordinate transmission siting: The 
federal government can facilitate regional planning and siting by 
vesting principal responsibility in regional planning organizations, 
working to ensure that other state and federal agencies give deference 
to these regional organizations, identifying federal lands that should 
be open to renewables development and transmission corridors, 
developing common siting principles for these lands, providing a single 
administrative forum for federal transmission line siting, including 
the right of affected federal agencies to participate, with appeals to 
the circuit courts of appeal; and mandating adherence to strict 
permitting deadlines. Such actions would vastly simplify the siting 
process, and provide a focus for all stakeholders, without compromising 
environmental regulation.

I. Introduction
    Thank you for the opportunity to testify before the subcommittee. 
My name is Michael R. Niggli and I am the Chief Operating Officer for 
the utilities of Sempra Energy. The Sempra Energy companies develop 
energy infrastructure, operate utilities, and provide related products 
and services to more than 29 million consumers worldwide.
    Our utilities are San Diego Gas & Electric Company (``SDG&E'') and 
Southern California Gas Company. SDG&E is a regulated public utility 
that serves 3.4 million consumers through 1.4 million electric meters 
and more than 840,000 natural gas meters in San Diego and southern 
Orange counties in California. The utility's area spans 4,100 square 
miles. Southern California Gas Company is the nation's largest natural 
gas distribution utility, providing safe and reliable energy to 20.5 
million consumers through 5.7 million meters in more than 500 
communities. The company's service territory encompasses approximately 
20,000 square miles in diverse terrain throughout Central and Southern 
California, from Visalia to the Mexican border.
    The Sempra Energy utilities are strongly interested in the 
development of a diverse supply of resources. We have already 
voluntarily committed to achieving 33% of our energy supply from 
renewables sources by 2020, and have achieved commitments and contracts 
to reach over 20% renewables within the next 2-3 years. Accordingly, 
the topic today--solar development on federal lands--is of considerable 
importance to us in meeting our goals, goals we believe are in common 
with the interests of our state, and our nation.
    Achieving significant levels of renewables is a challenge because 
many of the best renewable energy resources depend heavily on 
location--wind energy must be sited where the wind blows; solar is best 
sited where solar insolation is at its greatest; geothermal can only be 
located where there are rich geothermal resources. Some of these 
technologies require significant amounts of land, and most of the 
optimal locations for renewables are in relatively remote areas, which 
require the availability of electric transmission to bring the energy 
to load centers.
    My testimony today will discuss the issues we confront in siting 
new renewables and needed transmission, how we have dealt with those 
issues so far in the West, and some suggested approaches to consider.

II. Resources in the West and How To Access Them
The Western U.S. has enormous renewable potential and much federal land
    There is considerable demand in the Western states for renewables. 
Almost every one of the Western States has codified renewable portfolio 
standards (RPS). Some states, such as California, are looking to expand 
their RPS. And, of course, Congress is now exploring a national RPS.
    Fortunately, the Western United States has significant levels of 
renewable opportunities. The attached table (Attachment 1) shows that 
the Western states have the potential for massive amounts of 
renewables, especially from wind and solar resources. As illustrated, 
the West holds the potential for over a million megawatts of 
renewables, with over half of that contained in just the states of 
Arizona, Nevada, and Wyoming. This table does not include the 
substantial renewable potential in Mexico, if it can be integrated into 
the grid.
The challenge of developing and integrating renewable resources
    The challenge we face in the West is how to identify the lowest 
cost opportunities, facilitate their development, and integrate those 
resources within the western grid. These are complex topics and they 
cannot be looked at in isolation.
    Ideally, from a commercial standpoint, to optimize the use of these 
resources necessitates a free flow of commercial transactions among the 
states. To some degree, this will need to be facilitated by physical 
infrastructure--most notably, added transmission. But, it also can be 
enhanced by the development of commercial/regulatory structures such as 
regionally traded renewable energy credits. Through these combined 
structures, buyers of renewable energy can enhance their ability to 
obtain the lowest cost supplies of renewables from the vast resource 
potential in the West. To date, such commercial structures remain 
embryonic.
    But, purchasers of renewable power cannot simply solicit bids from 
sellers and expect the power to be developed. Renewable resources must 
find land on which to develop. They require transmission facilities to 
connect to the regional grid, to bring the energy to load centers. And, 
where the resources generate intermittently, such as wind and solar, 
the largest potential sources of renewables, other resources must be 
available to firm the power and to allow the grid to continue to 
operate reliably.
    Energy leaders in the Western United States have recognized this 
challenging task and have begun to work together to identify solutions. 
For example, the Western Electric Industry Leaders (WEIL) Group is 
comprised of Chief Executive Officers and executive leaders from 
investor owned utilities, municipalities, government agencies, and 
regional transmission operators, among others. This group has 
undertaken numerous studies to advise policymakers, such as the Western 
Governors' Association, of the issues and challenges facing the 
development of renewable resources, particularly the technical issues 
associated with transmission planning and integration of renewable 
resources.
    One element of these analyses has been to identify potential areas 
where renewables are most likely to develop, and consider ``corridors'' 
for the development of electric transmission to connect those renewable 
sources to the grid. The programmatic EIR provisions of the 2005 Energy 
Policy Act are a positive step in this direction for federal lands but 
do not go far enough. Moreover, this attempt to streamline the process 
was based on then-current uses for federal lands and not on potential 
renewable resource areas. The establishment of transmission corridors 
would facilitate regional transmission planning, which is a vital 
element to the development of widespread renewable supplies. This same 
kind of activity has proceeded in several other joint planning 
processes. The Western Governors' Association and the United States 
Department of Energy launched the Western Renewable Energy Zones (WREZ) 
initiative in May, 2008. The WREZ seeks to identify those areas in the 
West with vast renewable resources to expedite the development and 
delivery of renewable energy to where it is needed. Renewable energy 
resources are being analyzed within 11 states, two Canadian provinces, 
and areas in Mexico that are part of the Western Interconnection. 
Likewise, in California, various public agencies are supervising the 
Renewable Energy Transmission Initiative (RETI) to assess competitive 
renewable energy zones in California, and possibly also in neighboring 
states, that can provide significant electricity to California 
consumers by the year 2020. RETI is also intended to prepare detailed 
transmission plans for those zones identified for development.
Problems with existing planning and development processes
    But these planning processes suffer from three significant 
problems: First, they are duplicative, and balkanized.
    Second, their objectives are somewhat vague. For example, they do 
not have, as part of their design, any mechanism for improving the 
process that has become an impediment to adding new transmission. The 
region does not necessarily need more planning processes; it needs a 
well-coordinated one with clear objectives that will advance efforts in 
the region of adding new renewables and transmission.
    Third, from a planning perspective, there is a ``chicken-and-egg'' 
issue--will transmission planning drive where renewables are developed, 
or will optimal renewable resources drive the location of transmission 
resources. SDG&E's Sunrise experience shows that a public commitment to 
build transmission to an area identified with the potential for 
substantial and diverse renewable generation will inspire a robust 
quantity of concrete development proposals. After the Sunrise CPCN 
application before the CPUC, projects representing over 8800 MW of 
renewable generation applied to the California Independent System 
Operator Corporation (``CAISO'') and Imperial Irrigation District 
interconnection queues for projects to be located in the Imperial 
Valley and vicinity. And, to date, SDG&E and other utilities have 
executed purchased power agreements, including options, for over 1000 
MW of renewable projects in the same region. Finally, renewable 
generation developers have told us that purchase power contracts and an 
assured transmission path for a project's output are requirements for a 
project to obtain financing.
    Ideally, we want renewables located where the total cost of the 
renewable plus any needed additional facilities is lowest. The only way 
we can move close to this ideal is by ensuring that lands for 
transmission and renewables are readily available. These planning 
processes do not address this problem. While these issues prevent the 
many planning processes from achieving all that they ought to, there 
are additional roadblocks to renewables development, which I discuss 
below.

III. Roadblocks to Renewables Development:
The planning and siting process is duplicative and balkanized:
    The interest in developing renewable supplies is a regional 
interest in support of national objectives. However, one of the main 
roadblocks to the development of renewable energy in the West is 
achieving local or state siting approvals for renewable generation and 
needed transmission. Parochial local interests sometimes use current 
processes to delay, and, in some cases, prevent altogether the 
development of generation or transmission. California has seen this 
arise repeatedly. When a California utility sought to site a 
transmission line through Arizona, the State of Arizona rejected the 
request because the proposed facility did not meet the needs of Arizona 
and Arizona ratepayers. Recently, in California, we engaged in a 
lengthy process to site new transmission in Southern California to 
facilitate access to new renewables. Again, local interests opposed 
this effort mainly because they did not want transmission sited near 
them.
    In addition to parochialism, conflicting jurisdictions and the 
resultant overlapping planning processes lead to the identification of 
duplicative or competing projects. Potential transmission developers 
include investor-owned utilities, government-owned utilities, and 
independent transmission providers. But responsibility for planning 
varies depending on the location of the project (i.e., what state(s), 
and whether it is on federal land), and whether the developer is a 
private or a government-owned entity. And, for a given project, there 
is nothing to require one entity (e.g., a state commission) to honor or 
defer to the planning determination of another entity (e.g., a regional 
transmission organization).
    In addition to planning duplication and overlap, siting approval 
for transmission in the west is typically subject to the approval of 
each state touched by the project, in addition to one or more federal 
agencies if the project touches federal land.
    We illustrate these process problems in the next section in the 
context of SDG&E's Sunrise Powerlink transmission project.
SDG&E's Sunrise project illustrates the planning and siting problems
    SDG&E's Sunrise project is a 123 mile 500 kV transmission line to 
connect the San Diego load center with the Imperial Valley substation. 
Originally proposed for operation in 2010, SDG&E now anticipates that 
the line will be completed in June, 2012.
    We expect that much transmission siting in the West will face a 
process similar to that applied to Sunrise. The Sunrise project 
requires separate state and federal administrative siting processes, 
each subject to separate judicial appeals. For Sunrise, state approval 
is required from the CPUC, which approval is subject to administrative 
rehearing and appeals before the state courts of appeal and the 
California Supreme Court. SDG&E first applied to the CPUC for Sunrise 
approval in December, 2005. The CPUC granted the Sunrise CPCN in 
December 2008, and a CPUC decision on rehearing is expected this month. 
The state judicial appeals could take until mid-2010 to resolve.
    On the federal side, required discretionary approvals include the 
U.S. Department of Interior, Bureau of Land Management (``BLM'') and 
the U.S. Forest Service (USFS) under the U.S. Department of 
Agriculture. The Sunrise application for BLM approval was filed August 
4, 2006. We acknowledge and appreciate the efforts of both agencies to 
process the Sunrise application. BLM, for example, completed a thorough 
and detailed environmental review in close coordination with the state 
that has helped advance the project. But the fact remains that the law 
provides parties with separate administrative appeal rights for each 
agency. All signs are that project opponents will avail themselves of 
all appeal rights. And, after the administrative appeals process, any 
judicial appeals of BLM and the USFS decisions begin at the federal 
district court level, giving opponents rights to two layers of judicial 
appeals (the second layer is to the circuit courts of appeal), adding 
years of uncertainty to a multi-year administrative permitting process. 
We expect any appeals of the two federal agency decisions to be 
resolved no earlier than March, 2013. In contrast, FERC decisions 
licensing natural gas transmission are subject to only one level of 
judicial appeal rights--to the circuit courts of appeal.
    Other projects in the West will endure planning conflicts similar 
to that faced by Sunrise. The CPUC had identified a need for a project 
like Sunrise in a December 16, 2004 decision on resource planning. 
After an extensive study with substantial stakeholder input, the CAISO, 
California's FERC-regulated regional transmission organization, 
formally found a need for Sunrise in August, 2006. But no weight or 
deference was given to these prior determinations in either the state 
or federal environmental reviews of Sunrise that followed, even though 
both earlier need findings included robust consideration of 
alternatives. This forced SDG&E and regulators to commit substantial 
time and resources to re-visit (and indeed, re-litigate) need several 
times.
    In the end, renewables development will not occur to any 
significant degree if strictly parochial interests are allowed to 
govern siting decisions.
    The siting process has become cumbersome and balkanized, leaving 
open the potential for considering the same issues multiple times. 
Deadlines for prompt resolution either do not exist, or are generally 
ignored. In the Sunrise process, in spite of what may be recited in 
regulations, we found no enforceable deadlines that appeared to 
constrain the timing of agency disposition of the several Sunrise 
applications. Congress could help here by mandating adherence to strict 
permitting guidelines, with common deadlines for final project 
decisions.
    Environmental impact reports can be immense, and could benefit from 
deference and/or incorporation by reference of determinations of other 
agencies. As it is, duplicative siting and relitigation of previously 
decided issues further drag out the time and cost to complete a siting 
process. For instance, the official Sunrise record (Environmental 
Impact Report/Environmental Impact Statement, evidence, hearing 
transcripts, etc., stretched to over 25,000 pages). Indeed, it is well 
known that some use the siting process not to engage in a fair 
consideration of the issues, but to drag things out long enough to 
force project proponents to abandon their projects or to pursue 
inferior alternatives. The prospect of such impediments and the risk of 
losing millions of dollars on an abandoned a project, manifestly chills 
the development of renewables.

Finding Development Sites is difficult
    We do understand the concerns about siting facilities in sensitive 
environmental areas, and we, of course, recognize the interest of 
minimizing the environmental impact of renewables and transmission. 
But, it is important to understand the difficulty of finding any land 
at all to develop renewables and transmission. The attached map 
(Attachment 2) illustrates the types of potential constraints to 
developing renewables and transmission in Southern California, 
including the area traversed by Sunrise. This map shows a broad range 
of environmentally sensitive areas. On top of these, potential 
transmission or renewables developers must also consider state parks 
and forests, military lands, and tribal lands, which could include 
sensitive archaeological sites) as further potential areas where 
development may be limited or proscribed. With all of the areas that 
are off limits, we must understand in assessing the potential that many 
of the options for renewable production are in fact already off the 
table. So, it is even more important that we plan in a manner to 
facilitate the development of the sites that remain. This map also 
demonstrates the extent of the jurisdictional balkanization that adds 
extra administrative hurdles in developing linear facilities like 
transmission lines.

IV. How Congress Can Help
    These are not simple issues and the solutions to them are not going 
to be without controversy. The suggestions I offer today are likely not 
to be the universe of good actions, but they offer some additional 
perspective on the areas we believe need to be addressed.
    We suggest that Congress look to the following actions to improve 
the development of renewables and supporting transmission:
    1.  Encourage and incentivize States to coordinate on regional 
transmission plans that access areas of potential renewables 
development, but avoid duplicative processes. Planning processes that 
are too narrow encourage parochialism.
    2.  Identify federal lands that may be open to renewables 
development and encourage use of specific and clearly identified 
federal lands for transmission corridors, congruent with or adjacent to 
areas where renewables may develop.
    3.  Encourage the trading of verified renewable energy credits.
    4.  Entrust regional transmission organizations with the primary 
responsibility for regional planning, and provide that such 
determinations must be given deference by other state and federal 
agencies.
    5.  Develop common siting principles that must be honored, such as 
those that follow existing corridors and other linear features such as 
roads, and that otherwise focus on previously disturbed areas. Where 
existing corridors are too small, it is likely that expansion of those 
corridors will be the least impacting option, and should be considered 
among these common siting principles.
    6..  A single federal administrative forum for federal transmission 
line siting applications, including the right of affected federal 
agencies to participate, would vastly simplify the siting process, and 
provide a focus for all stakeholders, without compromising 
environmental regulations. Provide for judicial review of this forum's 
decisions at the circuit courts of appeal.
    7.  Streamline and facilitate siting of transmission by mandating 
adherence to strict permitting guidelines, with common deadlines for 
final project decisions.
    8.  Encourage the ``supersizing'' of new transmission facilities to 
maximize efficient energy delivery, minimize environmental impacts, 
optimize corridor utilization, and to strengthen the grid to permit 
regional bulk power transfers of renewable energy.
    The Sempra Energy utilities appreciate the opportunity to 
participate in this proceeding and we stand ready to assist in the 
deliberation of these issues and the development of effective 
solutions.

[GRAPHIC] [TIFF OMITTED] T9683.003

[GRAPHIC] [TIFF OMITTED] T9683.004

                                 ______
                                 

  Response to questions submitted for the record by Michael R. Niggli

  Question No. 1: Mr. Niggli, please provide your opinions on how the 
        various interagency Memorandum of Understandings that have been 
        signed between the federal agencies and the state agencies have 
        been working. Has there been an improvement in planning and 
        permit processing, or does more need to be done to improve 
        coordination?
  Response: State and federal efforts to identify renewable energy 
        sites and transmission corridors have made progress at 
        developing long range frameworks. Groups like the Renewable 
        Energy Action Team (REAT), Renewable Energy Transmission 
        Initiative (RETI), and the Western Renewable Energy Zone (WREZ) 
        work conducted by the Western Governors' Association have all 
        collected significant data about energy zones and ways to 
        inter-connect them. Their recommendations will be valuable. The 
        challenge will be to transition from the planning stage of 
        siting transmission lines, to obtaining permits, and, then to 
        begin construction in a reasonable amount of time.
    In anticipation of meeting this challenge, I offer four key 
thoughts:
    Reduce Jurisdictional Overlap--Generally, several state/ federal 
agencies are involved in regulating renewable energy projects. Due to 
individual agency mandates, renewable project developers face 
significant time hurdles and uncertainty. A key improvement would be to 
reduce the number of agencies involved by consolidating 
responsibilities to fewer agencies. This might be carried out by 
transferring permitting responsibility to a new agency solely 
responsible for renewable projects. Or, place more responsibility in 
the hands of an authoritative state agency and the Department of Energy 
(DOE). In turn, these agencies would jointly dictate goals, 
administrative processes, and schedules, to staff dedicated to 
renewables.
    One Stop Shop--Renewable projects would benefit by having key 
representatives of state and federal agencies working collectively 
toward joint goals, possibly located all under one roof. This would 
improve communication and efficiency.
    Dedicated Staff for Renewables--State and federal staff frequently 
carry multiple project workloads. Having dedicated staff to renewables 
will allow focus and time dedication to renewable projects.
    Shift from traditional Regulator arrangement to Project Manager--
The permit process is typically constrained by multiple processes 
controlled by many people. An improvement would be to grant overall 
authority and responsibility to one project manager assigned by a state 
or federal agency for each renewable project. Ideally, the project 
manager could set goals and expectations for all supporting staff. This 
arrangement would reduce time delays and increase overall efficiency.
  Background Information
  Examples of groups or regulations attempting to streamline renewable 
        efforts--Well intended efforts are being made, but these 
        visionary goals slow down due to regulatory details.
    <bullet>  Governor Executive order S-14-08--State agencies to work 
with federal agencies to streamline.
    <bullet>  Renewable Energy Action Team (REAT)--Blend of state and 
federal agencies to streamline core areas for large scale renewable 
generation.
    <bullet>  Renewable Energy Transmission Initiative (RETI)--Blend of 
state and federal agencies with mission to streamline approval of 
transmission corridors.
    <bullet>  Federal Energy Policy 2005, Section 368--Federal energy 
policy to identify western transmission corridors and then promote 
amendments to land use plans of various federal agencies. Private & 
Indian lands not included, federal lands only.
    <bullet>  Federal National Energy Policy 2005, Section 1221--
Federal mandate for the Department of Energy to designate National 
Interest Electrical Transmission Corridors. An application can be made 
to the FERC to license projects in such corridors if all else fails. 
Indian lands not included.
    <bullet>  State AB 1059--State mandate to CEC to designate 
transmission corridors
  Sample list of agencies/authorities that must be addressed with 
        existing regulations.
    <bullet>  Federal Land Management Policy Act (FLMPA)
    <bullet>  Federal Section 106 (protection of cultural resources)
    <bullet>  Clean Water Act and connection to ACOE 404 program, 
Regional Water Quality Board certification, etc.
    <bullet>  Endangered Species Act (ESA)
    <bullet>  California Endangered Species Act (CESA)
    <bullet>  National Environmental Policy Act (NEPA)
    <bullet>  California Environmental Quality Act (CEQA)
    <bullet>  National Historical Preservation Act (NHPA)
  Below is a list of multiple agencies. Fewer agencies with more 
        authority may be the right answer for streamlining approvals.
    <bullet>  Bureau of Land Management
    <bullet>  United States Fish & Wildlife
    <bullet>  Various national Forests
    <bullet>  Individual military bases
    <bullet>  Individual Indian tribes
    <bullet>  California Energy Commission
    <bullet>  California Public Utilities Commission
    <bullet>  California Department of Fish & Game
    <bullet>  State Regional Water Quality Boards
  Question No. 2: Mr. Niggli, one of the concerns raised about the 
        Sunrise Powerlink project is that it could be used to transmit 
        non-renewable energy from Mexico into San Diego. Are there any 
        guarantees that it will be used only for renewable energy?
  Response: The Sunrise Powerlink will become part of the integrated 
        electrical grid in California that will be operated by the 
        California Independent System Operator Corp. (``CAISO''). The 
        CAISO is obligated by its FERC tariff and by FERC rules to 
        provide open and non-discriminatory access to all transmission 
        customers and sellers. With the decision ultimately resting 
        with the CAISO, SDG&E cannot guarantee what types of power will 
        flow over Sunrise. However, SDG&E has made the following 
        substantial commitments to ensure that Sunrise Powerlink will 
        be used to transmit renewable energy:
    1.  SDG&E committed to not contract with coal generators for the 
delivery of energy across the Sunrise Powerlink.
    2.  SDG&E committed that in the event that a current contract for a 
renewable resource deliverable by Sunrise fails, we will seek to 
replace energy with another renewable resource from that same region.
    3.  SDG&E voluntarily committed to raise the Renewable Portfolio 
Standard (RPS) target to 33 percent by year 2020.
    SDG&E made these commitments on the record in the final oral 
argument before the CPUC in hearings for the Sunrise Powerlink on 
November 7, 2008, and SDG&E submitted the commitments to the CPUC in 
writing in comments on an alternate proposed Sunrise CPCN decision 
(COMMENTS OF SAN DIEGO GAS & ELECTRIC COMPANY ON ALTERNATE PROPOSED 
DECISION OF COMMISSIONER GRUENEICH, Nov. 20, 2008, pages 15-17). The 
CPUC Decision approving Sunrise (at pages 173 and 265) states that 
SDG&E will be held to these commitments.
    Further, these commitments are made in a context reinforcing that 
Sunrise will be used to transmit substantial amounts of renewable 
energy. With respect to SDG&E's commitment to replace any failed 
renewable contracts, the CPUC decision noted that SDG&E already had 
contracts with several such renewable energy resources totaling 2,253 
gigawatt-hours per year. Id. at 265, fn. 680. And, under the CAISO's 
non-discriminatory operation, renewable generation is likely to get 
dispatched first because of its very low operating costs.
  Question No. 3: Mr. Niggli, do you believe it is a better strategy to 
        pursue a smaller number of very large solar plants, or a larger 
        number of smaller projects, in order to meet a certain 
        renewable energy goal?
  Response: SDG&E has established no preference of a smaller number of 
        large solar plants or a larger number of smaller projects. 
        Ultimately, all market segments must be appropriately utilized. 
        As one example, SDG&E's proposed Solar Energy Project 
        specifically targets smaller scale solar projects tied to its 
        distribution system in a complementary fashion to other 
        existing distributed renewable generation programs in the State 
        of California. However, under the Renewable Portfolio Standard 
        (RPS) SDG&E also annually solicits large scale renewables, 
        which will be delivered via electric transmission lines. 
        Economies of scale would seem to suggest that larger 
        installations will be needed for SDG&E to achieve its renewable 
        goals.
                                 ______
                                 
    Mr. Costa. Well, thank you. You as well have 13 seconds 
left, and so we will use that time wisely.
    I will begin with my questions. Mr. Malnight and Mr. 
Niggli, do both of your companies support a national renewable 
energy standard?
    Mr. Malnight. Yes, I will go first. You know, I think PG&E 
is generally supportive of that. I think as with all energy 
standards, as we have seen in California, the devil is in the 
details of how those get designed and built. And we, you know, 
are anxious to work with stakeholders to help in thinking 
about----
    Mr. Costa. And you are participating, what, in California.
    Mr. Niggli. Yes. We have no problem with the national 
standard. California is by far the most aggressive in renewable 
portfolios. And I think the question is, really, are you going 
to have an RPS or are you going to have a greenhouse gas 
standard? At the end of the day, for a national RPS to work you 
do need renewable energy credits.
    We think that is a part of this process that has to happen. 
And the State should have some leeway in determining whether 
they exceed the minimum standards, certainly as California 
probably would do.
    Mr. Costa. Now, you both spoke about the need in terms of 
the collaborative process and the good things that are coming 
as a result of RETI, the renewable energy transmission effort. 
And also, the other efforts with the energy zones that BLM is 
dealing with, and the 368 process.
    But it seems to me that both of you may raise some 
important points. Unless you understand clearly that there are 
corridors that are going to be able to have the capacity to 
carry this energy and that there are some timelines under which 
they are going to be approved, that one can't be held up in 
litigation forever for those who--I mean, mitigation is one 
thing.
    Litigation, because I simply don't want it ever to happen, 
is--I respect some people's view, but sometimes I differ with 
people. There has to be--if you really want to have a renewable 
portfolio standard, you have to be able to make this work, 
right?
    Mr. Niggli. Steve, I will start on this one.
    Mr. Malnight. Please.
    Mr. Niggli. And the answer is absolutely yes. You have to 
think about the electricity system as a superhighway system of 
some kind. Forty years ago, the Pacific Northwest-Southwest 
Intertie was built. That brought tremendous amounts of 
hydroelectric energy from the Northwest to the Southwest, and 
it really was the first renewable line, if you think about it, 
in terms of great exchange of energy.
    We need to have those kinds of exchanges put in place 
around the western United States for renewable to work well. It 
is an intermittent resource. It will not always be there, and 
you need to move the power from different areas, and you need a 
strong transmission system to do that.
    At the end of the day, all of the work that is being done 
in the corridors, we have to have consensus amongst the 
environmentalists, amongst the energy companies, and the 
developers, that there are some reasonable no-regrets corridors 
that can be developed to work toward a solution for society on 
this.
    Mr. Costa. Some timelines.
    Mr. Malnight?
    Mr. Malnight. Yes.
    Mr. Costa. Do you want to add to that?
    Mr. Malnight. I don't have much to add, except to 
reemphasize the point that I think certainty for the developers 
of these facilities is really critical. These are very capital-
intensive plans, and the ability to have certainty on your 
development is very critical for success.
    Mr. Costa. Mr. Corcoran, you talked about the focus on 
lands that have already been disturbed and appropriate for 
development. I had asked that question with one of the other 
panelists. What sort of Federal action should be taken to 
improve that inventory?
    Mr. Corcoran. To improve the inventory of those private 
lands, I think what we need is to have resources, both at the 
state and Federal level, to inventory those areas, to be able 
to work through the natural resources present on those areas, 
and to be able to, you know, thereby prioritize them. It is 
just a lot coming through a pipeline, and we need to----
    Mr. Costa. Provide more information.
    Mr. Corcoran. Yes.
    Mr. Costa. Also, it sounds like on behalf of the Sierra 
Club, if I heard you correctly, you favor a two-track approach 
where some plants get sited more quickly, because their due 
diligence has been done and the transparency is there, and 
others need a more careful process. Do you think it is 
feasible?
    Mr. Corcoran. Do I think it is feasible? I think it is what 
we must do, so let me just answer it that way. I understand 
that there must be steel on the ground or at least going 
forward at the end of 2010 with the stimulus package, so we are 
learning as we go in this process. Right? And so there will be 
those early projects that we are going to need to do the best 
we can to put those on areas that are already degraded.
    Long term, we have to think about how we will use public 
lands for this use, because it displaces all other uses on that 
area. But in the short term, there are necessary challenges to 
meet----
    Mr. Costa. What is the better strategy, smaller footprints, 
smaller projects, or a few larger projects that have larger 
footprints? Or have you opined on that?
    Mr. Corcoran. I am not thinking of it in that way, so I am 
not sure how to answer the question.
    Mr. Costa. All right. Have you raised a response on Senator 
Feinstein's proposal on the expansion of the Mojave National 
Monument effort?
    Mr. Corcoran. We believe it is----
    Mr. Costa. On the Catellas lands?
    Mr. Corcoran. We believe it is important that public lands 
that were bought and otherwise provided Federal ownership for 
the purposes of conservation should be given that conservation 
protection.
    Mr. Costa. Do think within the--you know how we work on 
legislation.
    Mr. Corcoran. Yes.
    Mr. Costa. I mean, you put it out, it becomes work in 
progress, everybody opines of different views. And then, 
usually most legislators try to develop a consensus. Senator 
Feinstein has done that over the years on her legislation. I 
tried to do that with mine, and you make modifications/changes 
there.
    I mean, I think that when you look at that map, and when 
you look at California and that map, it is critical that you 
don't take away the resource at the same time you are trying to 
protect some valuable lands.
    Mr. Corcoran. Absolutely, that is correct. And I believe 
that by protecting the Catellas lands it is still more than 
possible to provide the energy we need from remote renewables, 
as part of an overall outcome of energy efficiency distributed 
generation and remote generation, to meet our RPS standards.
    Mr. Costa. And so you think with developing that robust 
renewable portfolio that it is possible, even in that proposal, 
to make the accommodations for the transmission corridors and 
for the sites that are maybe held on private lands and maybe 
have multi-use to in effect make it a win-win situation. Those 
are my words.
    Mr. Corcoran. I believe that that is the direction we need 
to move in, and it underscores why, from my perspective, having 
the resources to more rapidly identify areas that are degraded, 
and to look for ways to create a Federal nexus with private 
lands, such as the zoning that I mentioned, we can look for 
ways to build financial packages that provide developers the 
certainty they need to go forward. And doing this in a way that 
we won't pass regrets on to future generations, that we 
unnecessarily sacrificed pristine desert lands in our moves 
now, in our essential moves now, on meeting our renewable 
portfolio.
    Mr. Costa. I am going beyond my time. But you understand 
that the certainty from the private sector and the public 
utilities is critical.
    Mr. Corcoran. I agree. And it is a certainty that must be 
balanced with a certainty for American citizens that their 
public lands will be used appropriately and in a process that--
--
    Mr. Costa. This is a Federal trust we all share. We 
understand that. But also, the alternative is clean energy and 
renewable energy. And so, you know, I mean, do you think the 
other environmental organizations share that view?
    Mr. Corcoran. Which view is that, Chairman?
    Mr. Costa. My view.
    [Laughter.]
    Mr. Corcoran. I am not able to speak for them. I will 
defer.
    Mr. Costa. No. I like to have a little humor. I hope you 
have all noticed here this morning in the audience. No, I mean 
the view that there has to be a balance, and that if you don't 
make these renewable projects work for all of the right 
reasons, or if you are just--your only response is no, that you 
can't have it both ways.
    Mr. Corcoran. And that is exactly right. This is a 
challenge to our movement, insofar as you can't just say no. It 
is not responsible. Therefore, we need to look for ways, but 
also bringing to the table the decades of experience. There is 
a robust desert conservation community in California with 
unmatched knowledge of the land. And so it is very important to 
find ways to bring that to the table, so that we can expedite--
--
    Mr. Costa. Because I really think there is a challenge to 
environmental organizations throughout the country. There was 
that story that Carl was quoted and in The Wall Street Journal, 
and it appeared in other news organs, but about the need that--
that there needs to be now an affirmative response to for 
environmental organizations to work on supporting these type of 
good, renewable projects.
    Mr. Corcoran. I believe there are responsibilities all 
around the table to find----
    Mr. Costa. Yes.
    Mr. Corcoran.--the solution that works.
    Mr. Costa. Good. I have gone way beyond my time. I probably 
won't get invited back, but my----
    [Laughter.]
    --colleague from Wyoming, Ms. Lummis.
    Ms. Lummis. Well, thank you, Mr. Chairman. I think you will 
get invited back. I just have a feeling about that.
    My first question is for Ms.--is it Gensler? You mentioned 
that no permits are being issued. Some have been pending since 
2005. Was that a California number or a U.S. number?
    Ms. Gensler. That is westwide, well, U.S., but primarily 
focused in the west.
    Ms. Lummis. And is that because the BLM land use plans for 
the most part did not address solar energy development, and 
this more comprehensive EIS will amend land use plans to 
accommodate the potential for solar uses?
    Ms. Gensler. I think that is part of it. Some of it is also 
staffing resources. This is a technology that is new to many of 
the BLM staff, and so just getting up to speed and having the 
knowledge base internally has been a challenge. But you are 
correct in noting that many of the land use plans do not 
account for solar development in the current managed lands, and 
so it becomes a one-off decision for each of these projects. 
The PEIS is intended to update all of those plans to 
accommodate solar development.
    Ms. Lummis. Thank you. And both Mr. Malnight and Mr. Niggli 
mentioned permitting, and both post-decision and pre-decision 
permitting. And what struck me is: should all of this be 
transferred to FERC? I mean, there you have a superagency that 
does deal with natural gas pipelines and it sort of transcends 
other agencies.
    So, when you mentioned--one of you mentioned--that one 
agency should be named the lead agency for various aspects of 
permitting. I believe that was you, Mr. Malnight. And, Mr. 
Niggli, you mentioned that post-decision issues, such as 
appeals, you know, IBLA, District Court, Court of Appeals, 
versus the FERC process, which goes straight to the Court of 
Appeals, do your statements argue for FERC superseding these 
other agencies?
    Mr. Malnight. Well, let me comment real quickly on that 
first. I think that we actually have an architecture of 
collaboration now that is moving in the right direction and is 
encouraging. I wasn't necessarily meaning to advocate for a 
complete change in that structure.
    I think when I was commenting on one agency as a lead for 
each topic certain agencies have more knowledge and more 
expertise in different topic areas. And having each of those 
agencies play a lead role and coordinate with other agencies on 
those topics I think would help speed that process through.
    Mr. Niggli. I think at this time it is not necessary that 
we have FERC as the lead agency here. I would like to address 
the pre-permitting area. When you look at all of the activities 
that are going on right now, one of the things that happens is 
there are so many transmission proposals that come out from 
independent folks, from investor owned, from municipalities, 
and some of them overlap, some of them are duplicative. And in 
some way we need a regional transmission organization that can 
sift through those and analyze them and then say, ``Here is the 
ones that should go forward.''
    Now, the decision on those going forward are within the 
states, and the states' rights, and they can make those 
decisions based on the data, the environmental impact, and the 
economic arrangements. But I think you do need somebody on the 
front end that can help sift through those, and their decisions 
on need essentially are deferred to or deferential in terms of 
the region.
    On the back end of the process, on the litigation process, 
I think it would be very helpful if we did have some kind of a 
process that allowed fewer steps and fewer opportunities to 
drag out the decisions or drag out the litigation.
    Ms. Lummis. And have you submitted any proposals for how 
the process can be streamlined, literally, as amendments to 
current law?
    Mr. Niggli. We have not. We have been working through with 
the Western Governors' Association to try to ensure that the 
wider regional work that is going on right now can be effective 
in this area. And I think there is a lot of good work being 
done, but there is more to do.
    Ms. Lummis. And the great thing about the Western 
Governors' Association, I really want to tout it, because I 
used to be on the staff council for WGA, is that they do take 
from various agencies sort of interns to have long-term 
relationships with WGA, so they can serve as coordinators. And 
it is a great avenue for collaboration. So, I commend your 
mentioning it, and I want to pass along my kudos to them.
    That is all the questions I have, Mr. Chairman.
    Mr. Costa. All right. You have 22 seconds. You get several 
stars.
    Next witness. Next witness? Next----
    [Laughter.]
    I am sorry. I misspoke. Our Congresswoman Mary Bono Mack, 
for five minutes.
    Mrs. Bono Mack. Thank you, Mr. Chairman. To Congresswoman 
Lummis' point, you know, the FERC having overall jurisdiction 
and oversight of everything, I know that uniformity is exciting 
to the utilities, but I love FERC having total responsibility 
as long as they are very responsive to Congress. And my 
Committee has jurisdiction over FERC, and sometimes they don't 
necessarily see things the way we would like for them to see 
them. But in any event, I understand the uniformity question, 
and your question I think is a very good one. I am happy to 
work with you further on that on the Floor.
    But I want to just--Councilman Ferguson earlier talked 
about feed-in tariffs, and I would love to know from the two 
utilities how you feel about feed-in tariffs. It just seems to 
me to make perfect sense that if I am going to invest in solar 
panels on my house and generate electricity, that I ought to be 
able to reap the benefit. So, I would love to get your thoughts 
on the feed-in tariff, please.
    Mr. Niggli. Do you want me to start on that, Steve?
    Mr. Malnight. Sure, go ahead.
    Mr. Niggli. OK. There are a couple of things to feed-in 
tariffs that we look at. We are not a carte blanche supporter 
of feed-in tariffs, primarily because we want the marketplace 
to work, and we want to get the lowest cost energy, generally 
through bids that we get.
    Now, on solar rooftops, most people have the incentive that 
in the higher tiers, the blocks of energy that are priced 
higher, they can offset those with solar energy. So, if that 
makes sense for their consumption, they should go ahead and 
utilize the solar--the million roofs program and other programs 
to save them money.
    The thing that we worry about is some of the things that 
have happened in Europe. For instance, if you built a large-
scale solar plant here, you might be able to build it for $150 
to $200 per megawatt hour. In Spain, and in Germany, they have 
had feed-in tariffs that are $400 to $600 per megawatt hour. 
That certainly helps the developers. The developers can put 
those up all day long, but it doesn't necessarily help the 
consumers to get the best priced energy.
    Mr. Malnight. From PG&E's perspective, I think I share a 
lot of the sentiments that Mr. Niggli just commented. I would 
say we are the largest investor-owned utility in California 
that has deployed California solar initiative homes, and we are 
a strong supporter of that program.
    On the feed-in tariff, the other things that I would 
highlight, we do need to ensure that, as the sites get larger 
and larger under a feed-in tariff, they would need to have 
performance guarantees and performance requirements from an 
operations perspective, so that we can maintain operability of 
the system. Obviously, as these sites get very large, they can 
have a tremendous impact on the electric system when they come 
on and off.
    Mrs. Bono Mack. All right. Also, why are we still using 
decades-old transmission technology? And I know we are all 
waiting for this smart grid technology to come online. But in 
the meantime, can we do a lot to improve the efficiencies of 
transmission? Aren't there new technologies out there in 
powerlines themselves? And are you doing that? And, if not, why 
not?
    Mr. Niggli. That is a great question. We have all got smart 
grid initiatives going on right now. It won't change the basic 
concept of how electricity gets delivered, generally speaking. 
But I will give you an example of some things that have 
happened over time where the grid gets stronger and stronger as 
you add elements to it.
    When we built the Southwest Powerlink, which connects 
Arizona to San Diego, in 1984, the capacity that we received on 
that line was about 580 megawatts or so. Over time, that system 
got stronger with the addition of other elements around it, and 
today we get 1,700 megawatts of capability out of that line. 
So, the utilities are doing everything they can to squeeze 
every electron out of that system, because every one you can do 
with existing resources is almost free. It is much better than 
having to put up a new transmission line.
    Mr. Malnight. I don't really have anything to add to that.
    Mrs. Bono Mack. Well, it just seems to me that you can 
squeeze it out for free, but you are not investing in future 
technology. So, you are justifying using old technologies for 
the bottom line, when in fact there are much better 
technologies out there. So, maybe, carbon fiber transmission 
lines, new technology, so the heat in the line doesn't cause 
the sway. Aren't there, really, technologies that are shelf-
ready out there right now that you could be using that you are 
not?
    Mr. Niggli. There is not really--like, carbon fiber will 
not get us the amounts of power, the bulk power capability that 
we have to deliver.
    Mrs. Bono Mack. Will it improve it?
    Mr. Niggli. It probably won't. I don't think you will see 
carbon fiber necessarily doing that. There is a lot of 
materials technology work that has to be done to allow that to 
carry the same amount of power that, say, a 500,000-volt 
transmission line would right now. So, there are some things 
you can do in terms of how you control and operate the system 
that the smart grid will help us continue to best use our 
assets.
    Then, breakthrough, if you ever got to essentially low-cost 
or lower-cost underground capability, I think you would have 
the ability to deliver from one side to another without the 
environmental impacts that you see today.
    Mrs. Bono Mack. You said--and I know my time is up. You 
said ``probably not.'' Are you standing by ``probably'' or are 
you standing by ``certainly not''? Because I would like that 
actually answered in writing if I could get it from you, that 
you could be doing a lot more to increase your transmission 
capabilities and efficiencies. You said ``probably not.'' So, I 
don't know if you knew the answer or if you are taking a stab 
at the answer, but I would really like the answer, if you could 
provide that in writing. Later is fine.
    Mr. Malnight. Certainly, we can, Congresswoman. I think--I 
want to make sure I had your question. Your question I think 
was around whether new capacities, new technologies like carbon 
fiber, could possibly be used in the not-too-distant future. We 
would be glad to answer that.
    Mrs. Bono Mack. Thank you.
    And I thank the Chairman very much.
    Mr. Costa. Not a problem.
    Mrs. Bono Mack. You are welcome back in my District any 
time.
    [Laughter.]
    Especially if you spend a lot of money.
    Mr. Costa. OK.
    Mrs. Bono Mack. We appreciate it very, very much.
    Mr. Costa. Visited a casino, only for observation purposes, 
last night.
    [Laughter.]
    Mrs. Bono Mack. Take a tour of the casinos, if you would 
like.
    Mr. Costa. Yes, yes.
    We have room for I think another round here, so let us go 
quickly, and hopefully the Congresswoman from Wyoming will get 
a chance. I will go quickly.
    Ms. Gensler, all of the solar private industries that are 
testifying, the discussion out there between solar thermal and 
solar voltaic on the utility scale of projects. Any preference 
with the technology and the water issues as you know? And PG&E 
has a solar thermal project in my area, a pilot project, and 
they are looking to expand that if it works out well to 150 
megawatts. Quickly.
    Mr. Malnight. We actually need both, I think, and we look 
forward to both of those competing against each other to 
continue to reduce the costs. As far as water, you know, PG&E 
is evaluating both dry and wet options. We have invested our 
gateway thermal facility in dry cooling and believe that that 
is a very viable option, and we will look at both of those.
    Mr. Costa. Very water efficient.
    Mr. Malnight. Yes.
    Mr. Costa. Mr. Corcoran, do you care to make any comment?
    Mr. Corcoran. Dry cooling is the direction we would love to 
see them go in. It will increase opportunities to use degraded 
areas as well.
    Mr. Costa. All right. Ms. Gensler?
    Ms. Gensler. We have members who develop all sorts of 
technologies. We are just happy to see anything be deployed in 
the State of California at this point. But certainly everything 
has a different consideration.
    Mr. Costa. All right. Mr. Niggli?
    Mr. Niggli. Nothing to add, sir.
    Mr. Costa. Nothing to add.
    On your Powerlink, Sunrise Powerlink, that you referenced, 
are you going to have excess capacity for renewable energy?
    Mr. Niggli. We are going to have 1,000 megawatts of 
capability. We have signed up almost all of that capacity 
either between us, Southern California Edison, or Pacific Gas 
and Electric, to utilize the capability of the transmission.
    Mr. Costa. OK. You talked about we need more than just a 
well-coordinated planning process, or just another planning 
process. What did you have in mind?
    Mr. Niggli. Well, primarily that as we go forward and we 
agree upon corridors that need to be put in place in the 
western United States, that those planning processes that are 
underway to determine that actually have----
    Mr. Costa. Well, it has to be a permit at the end of the 
day, right?
    Mr. Niggli. It has an impact on licensing.
    Mr. Costa. Bingo.
    Mr. Niggli. Absolutely.
    Mr. Costa. We are thinking along the same lines.
    Ms. Gensler, you said that Congress should support the use 
of BLM land for mitigation easements. Could you elaborate on 
that idea very quickly?
    Ms. Gensler. I did. And I would defer to the Nature 
Conservancy also, who is coming up with some interesting 
easement ideas and mitigation strategies called non-acquisition 
mitigation. But to the extent that BLM land is deemed 
inappropriate for solar development and possibly for other 
types of development, we would like some kind of crediting 
mechanism, so that that land can be used for mitigation to 
better enable a solar project to be developed.
    Mr. Costa. What do you think on the update on the Section 
368 corridors that BLM is leading?
    Ms. Gensler. I think it would be fantastic if BLM actually 
considered renewable energy development. It was a bit of an 
afterthought the last time.
    Mr. Costa. So you think it is an add-on, and it should be 
part of the process. You don't think they should start over 
again, do you?
    Ms. Gensler. I think we can take everything we have already 
done and work with it.
    Mr. Costa. That wouldn't be good, no. OK.
    Mr. Malnight, what sort of timelines would PG&E like to see 
imposed on the BLM review process for solar right-of-away?
    Mr. Malnight. Well, certainly faster is always better. I 
think that, you know, I am not sure exactly what day or what 
month I would propose to you right now. I am happy to give you 
a written answer for that. But, clearly, we need to provide a 
lot of coordination between the agencies to improve the 
timeline of that.
    Mr. Costa. What has been your experience on the seven-year 
timeline that I was just somewhat----
    Mr. Malnight. From transmission.
    Mr. Costa. Yes, to site a transmission line.
    Mr. Malnight. I think that that is in the ballpark.
    Mr. Costa. Yes. And any way you think we can improve on 
that?
    Mr. Malnight. Well, as I mentioned before, I think 
enhancing the coordination and really, you know, working 
together is the right answer.
    Mr. Costa. All right. The effort that we are embarking 
upon, it just seems to me that we have been talking about 
collaboration and coordination, but the Federal Government 
truly--and I was talking back and forth to some of my 
colleagues here in between questioning--needs to get our own 
act together.
    We have provided a tremendous amount of money in the 
stimulus package to the Department of Energy, but the Secretary 
of Energy laments to us that, you know, historically, they have 
not done a very good job in getting grants out, getting 
projects out. As a matter of fact, he has a monthly meeting 
with the EPA and the Secretary of Agriculture and others. I 
mean, he even told me personally that he thinks USDA does a 
better job of getting grants out. I know USDA doesn't do that 
good of a job. So, if he is looking at that--
    We have increased their budget significantly, but I think 
some of my colleagues' comments to whether or not we choose 
FERC as the lead agency, or whether we choose some other--we 
have too many cooks in the kitchen, for lack of a better term.
    Mr. Corcoran, would you care to opine on that? I have got--
very quickly, because I want to----
    Mr. Corcoran. I think the cooks are getting together to 
figure out what they are doing here in California. I----
    Mr. Costa. How about in Washington?
    Mr. Corcoran. It is starting to come together, and----
    Mr. Costa. It needs a lot of work.
    Mr. Corcoran. It needs a lot of work, you bet, but I would 
be very cautious about embedding power in one particular place, 
because these are decisions that affect local communities, they 
affect a lot of folks, and we are also trying to see where we 
can get with energy efficiency and distributed generation. You 
don't want a process that is run to emphasize one part of the 
clean energy solution for the United States.
    Mr. Costa. Because you agree with me we ought to use all of 
the energy tools in the energy toolbox, right?
    Mr. Corcoran. We do. And we need to use them responsibly 
and to protect the conservation outcomes we have achieved over 
the last few decades.
    Mr. Costa. OK. My time has expired.
    The gentlewoman from Wyoming. Five minutes.
    Ms. Lummis. Thank you, Mr. Chairman. And following up on 
your comments, could the Western Governors' Association and its 
counterparts in other regions be the lead agency? Anybody?
    Mr. Niggli. I will start on that. I think they can be a 
lead agency and very influential in the mega-planning that goes 
on with the corridors that need to connect the western 
renewable energy zones. I think that is probably a natural 
place. I am not sure that they are necessarily the lead agency 
when it comes to, say, siting the transmission lines 
themselves.
    The only reason I say that is that every single generation 
project we have ever looked at ultimately involves both state 
and Federal, because of the transmission element. And you need 
to have that active state participation.
    Ms. Lummis. Maybe we could create something--now I am just 
thinking out loud--that would involve the Warious Governors' 
Association's regional entities and Federal agencies that is 
somehow sanctioned by Congress. But, again, I am just thinking 
out loud.
    I wanted to let you know about your comment about non-
acquisition mitigation, something that we are doing in Wyoming 
that I think has promise. The companies that are developing the 
Jonah Infill and the Pinedale Anticline for natural gas 
production are having massive cumulative impacts on the 
environment, the air environment, the wildlife corridors, and 
so forth.
    And so what they are doing is putting some funds together 
that may be used both within Wyoming's Wildlife Trust Fund and 
as their individual company mitigation projects to do 
acquisition not of easements, because easement at least implies 
perpetuity, but conservation leases on certain properties that 
can serve as non-acquisition mitigation for impacts on Federal 
and private lands with regard to these cumulative impacts. So, 
just a thought there.
    And, let us see, third thought. Mr. Chairman, I am going to 
yield back. Thanks.
    Mr. Costa. Wow, you are really buttering me up. You have 
two minutes and 40 seconds left. I guess that accounts for the 
time that I exceeded.
    Our last questioning is from our able member, Congresswoman 
Bono Mack.
    Mrs. Bono Mack. Thank you again, Mr. Chairman.
    Mr. Corcoran, first, I would like to welcome you for the 
Sierra Club. I would point out that one of the best advocates 
is here in the audience. That is Joan Taylor. I am surprised 
she is not testifying. She would have done a great job. She is 
a very capable voice for the Sierra Club here and is in my 
office frequently, and does a fantastic job I think of bringing 
all sides together. I hope you follow her model in leadership 
in these areas.
    But my question, really, is for you. And I don't know how 
familiar you are with our multi-species habitat and 
conservation plan, the systems that we have out here where we 
plan for the mitigation. Are you familiar with them at all?
    Mr. Corcoran. With the model of them, yes.
    Mrs. Bono Mack. Yes.
    Mr. Corcoran. OK. In specific, I would say Joan should be 
at the table.
    [Laughter.]
    Mrs. Bono Mack. Well, thank you. Would that be, then, the 
model that you would like to put forward to see that we put 
forth for mitigating for these projects?
    Mr. Corcoran. I think that habitat planning outcomes, like 
in HCP/NCCP, are part of the long-term solution to how we get 
to a place where we can find the places to say yes to, and 
guarantee that we are still making progress on the recovery of 
species. So, yes, long term that is an important outcome.
    Mrs. Bono Mack. And do you believe--in your testimony and 
your points, how good is the Sierra Club's math in meeting this 
standard? We talked about needing to inventory these non-
disturbed lands and all. How far along in that process are you? 
Do you have a number, or do you have--do you really think we 
can meet that 33 percent by 2020, given what you know currently 
about the lands?
    Mr. Corcoran. I think we have a huge challenge on the 
interim goal. I am hopeful that we will meet the long-term goal 
of 2020. What I want to emphasize is that this is an 
inventorying of resources in which, for example, through the 
RETI process and others, the Nature Conservancy, the Center for 
Biological Diversity, the Sierra Club and others have brought a 
lot of important natural resource information to the table. So, 
now the challenge is to the State and the Federal Government 
to, with their own resources, coordinate these together, so 
that we are ensuring that we are finding the right places to 
say yes to.
    Mrs. Bono Mack. All right. Terrific. Well, I know that I am 
down to my last three minutes, and the Chairman will love me 
dearly if I wrap it up sooner rather than later. So, again, I--
--
    Mr. Costa. You have three minutes.
    Mrs. Bono Mack. Well, thank you. I will take three minutes 
to thank you, then, for being here.
    [Laughter.]
    And to encourage you to come back. And, again, the players 
at the table, the greatest thing that I have done is I have 
hiked--done hikes with the Sierra Club to see concerns of 
theirs, and actually almost killed myself hiking some trails 
that were pretty hard, complicated. Actually, we had to leave 
the Sierra Club guy at the bottom of the hill. But, really, we 
will be out there in any capacity to bring you guys together 
and to work on these issues on a consensus way.
    This District, if you look at the map, it is a mosaic of 
different land uses and ownership. But I can tell you that 
everybody, whether it is my tribal land, national monument 
land, state park land, it is that way because people live out 
here because they love where they live, and they care deeply, 
and they deserve a seat at the table.
    So, Mr. Chairman, I applaud you so highly for doing this in 
my District rather than just in Washington, D.C. And, again, I 
encourage you all to come back.
    And to my new colleague from Wyoming, thank you for your 
insight and your wisdom and your guidance.
    And if anything, for my constituents here today, it is 
important as Members of Congress and the House of 
Representatives, our districts are all so diverse and so 
different, and our concerns--it is hard sometimes to recognize 
and to understand where we come from. A lot of Members of 
Congress travel the world over, on CODELS they are called, and 
I wish Members of Congress would instead get out to see each 
other's districts and to understand the challenges that we 
face, and then come together to build a consensus and 
bipartisanship.
    So, again, in that model, in that vein, thank you very, 
very much, both of you, for being here, and to the 
distinguished panelists also for your time today.
    Thank you.
    Mr. Costa. Well, thank you, Congresswoman Bono Mack, for 
your good words, and for your good staff. And we have an 
incredible country, and with all of the diversity that you 
commented on, clearly, this hearing today reflects a large part 
of that diversity that we are all very proud of. And I know of 
your District, because I like to get away sometimes and visit.
    I also on occasion speak at conferences down here, but it 
is a wonderful part of California, as is the 20th Congressional 
District, Bakersfield and Fresno. We have Yosemite and Sequoia 
in our backyard, and we grow the richest bounty of agricultural 
diversity of crops anywhere in the world, notwithstanding that 
Coachella also does a good job. But we have some terrible 
drought conditions right now that we are dealing with.
    But to the Congresswoman from Wyoming, you forsook Mother's 
Day, and that was awful nice. I guess I owe you one for--
certainly your family, but we appreciate the good work you are 
doing on the Subcommittee and on the full Committee. I speak on 
behalf of my colleagues. You have hit the ground running, and 
your contributions today have demonstrated that.
    To both panels, the first panel and the second panel, you 
have done an excellent, excellent job. Bill, you are not a bad 
pinch hitter. And all of you I think added to the kind of 
information that we need. The testimony is critical, as we 
develop--as we try to develop the comprehensive energy policy 
that has been elusive over the last three decades.
    And hopefully we will learn the mistakes of why we have not 
been successful in the last three decades, and this time bring 
together the bipartisan effort that is necessary, that our 
nation deserves, that our nation needs, and that our 
constituents want to see us make happen.
    I have some magic words I need to say here, and that is 
that the Subcommittee may have additional questions. As I told 
you, I do have additional questions. They will be submitted to 
you. Under the Committee Rule 4H, any material submitted for 
inclusion in this hearing record must be submitted no later 
than 10 business days following today's hearing. And so we want 
to make sure that the witnesses and those who have participated 
in the hearing understand that, as do my colleagues and their 
staff.
    And, therefore, if there is no further business before the 
Subcommittee--no further business? The Chairman again thanks 
all of you, and our hostess, and the wonderful people here in 
Palm Desert and the Palm Springs greater area for making us 
feel at home.
    Thank you very much. This Subcommittee now stands 
adjourned.
    [Whereupon, at 12:05 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A statement submitted for the record by Ileene Anderson, 
Desert Program Director, Center for Biological Diversity, 
follows:]

  Statement submitted for the record by Ileene Anderson, M.S., Desert 
Program Director, Center for Biological Diversity, on Implementation of 
         Renewable Energy Projects in the Western United States

    Mr., Chairman, members of the committee, my name is Ileene 
Anderson. I am the Center for Biological Diversity's Desert Program 
Director. I have worked for the Center for Biological Diversity for 
over 5 years of my 20 years in environmental work. I was appointed to 
the Bureau of Land Management's California Desert Advisory Council in 
1998 and served six years including one year as chairperson. I submit 
this statement on behalf of the Center for Biological Diversity and our 
220,000 members, e-activists and staff.
    My responsibilities include working to protect rare and endangered 
species and their habitats on public and private lands. In that 
context, I and our desert and public lands energy staff are working to 
facilitate environmentally responsible renewable energy throughout the 
desert regions of the western United States. I have also been involved 
in the environmental working group for the State of California's 
Renewable Energy Transmission Initiative (RETI), and working with 
stakeholders and conservationists to chart a clear path forward that 
allows for appropriately sited renewable energy development and 
resources conservation.
    Global climate change poses great challenges to all of the 
inhabitants of the planet. Scientific literature on the impact of 
greenhouse gas emissions on the United States (and the world) is well 
developed. Changes include decreased snowpack, increased water 
temperatures, sea level rise, increase in storm intensity and the 
proportion of precipitation of rain versus snow, increase in the number 
of heat wave days in major urban centers, and increased wildfire 
frequency and intensity among a multitude of other related issues. 
Profound impacts to ecosystems and species, including changes in the 
timing of life events, shifts in range, and community abundance shifts 
are likely and depending on the timing and interaction of these 
impacts, they may be catastrophic. For the western deserts 
specifically, modeling efforts predict a warmer and drier climate. 
Desert species already cling tenuously to life in extreme climate 
conditions, and will require opportunities to migrate and change ranges 
as global climate changes occur.
    Quick action must be taken to minimize the catastrophe and prevent 
run-away climate change from occurring. An immediate shift to a 
different energy pathway that includes renewable energy is imperative. 
Yet large scale renewable energy development can also have large scale 
environmental impacts. This is why thoughtful siting of renewable 
energy to maximize renewable energy production while preserving our 
ecological heritage on public lands--which must provide refuge to 
species struggling to adapt to a rapidly changing climate and 
functioning ecosystems on which species and human communities depend--
is not only possible, but essential, and indeed an obligation on our 
part to future generations. Ensuring that large-scale renewable 
projects comply with our existing environmental safeguards is essential 
to ensure that environmental impacts are minimized at the same time 
that use and development of renewable energy is maximized.
    The impacts to the environment vary with the type of renewable 
energy development. Solar energy production on a large scale often 
times requires large tracts of relatively flat land that is devoid of 
vegetation. Little habitat values remain on these sites once they are 
dedicated to solar energy production. Because of the significant impact 
that these projects will have, applying the following fundamental 
principles, which were developed through the Center's experience in the 
California Desert, can provide a useful framework for siting renewable 
energy on Enterprise and Redevelopment Zones that can be applied 
throughout the western United States, in order to achieve the goal of 
increasing our nation's reliance on renewable energy, especially solar 
energy include:
    <bullet>  Site solar projects on previously disturbed sites. 
Mechanically disturbed sites such as abandoned agricultural lands have 
already been ``type converted'' from native vegetation and habitat to 
agriculture. In the west, agricultural lands have been fallowed from 
lack of water or soil salt build up.
    <bullet>  Establish incentives for development on these private 
lands. Because many of mechanically disturbed sites are actually on 
private property, incentivizing siting of solar facilities on these 
lands will benefit to the local economies and effectively will steer 
development away from undisturbed public lands that are in many cases 
the last, best refuge and habitat for imperiled species. These private 
land sites are typically at the peripheries of developed areas, close 
to load-bearing centers and delivery infrastructure.
    Examples of the kind of incentives that may need to be applied to 
these solar Enterprise and Redevelopment Zones include:
    <bullet>  Incentives for land owners to sell/lease property to 
solar development. Incentives such as tax credits or tax exemptions 
would encourage landowners to purpose their lands to renewable energy 
projects. Local economies, many of which are economically underserved, 
will benefit, while repurposing these lands as the key to our energy 
independence.
    <bullet>  Incentives for solar to be developed on these lands. 
Similar incentives as mentioned above--including tax credits and/or 
exemptions--would encourage solar developers to locate within these 
zones, taking pressure off of undisturbed public lands.
    <bullet>  Centralizing solar development into Enterprise and 
Redevelopment Zones. Enabling centralized production by directing 
development into Enterprise and Redevelopment Zones is far more 
efficient that creating hop-scotch development which will require 
additional expensive infrastructure in order to deliver the energy to 
market. Concentrating projects into Enterprise and Redevelopment Zones 
adjacent to existing development also lowers to the carbon footprint of 
getting workers from home to jobs and back.
    The potential pitfalls that can result from not applying this 
framework have been exemplified in the California Desert. For example, 
during the initial rush of applications to site solar energy on public 
lands in the California Desert Conservation Area, the Bureau of Land 
Management (BLM) accepted applications for projects in areas 
previously-identified as unsuitable for development--for example, areas 
that had already been established for endangered species conservation. 
Because there was no programmatic plan in place or any mechanism for 
steering applications to appropriate areas and away from inappropriate 
ones, BLM then had to initiate additional processes to evaluate and 
determine that these areas were inappropriate for solar development, 
leading to frustration on the part of the solar developers, and wasting 
significant BLM resources processing applications for projects that it 
was clear from the outset were inappropriately sited. BLM should reject 
all applications in previously identified areas for environmental 
conservation at the outset and use its staff time and resources to move 
forward projects that are appropriately sited.
    We are pleased that the Department of Interior has now initiated a 
Programmatic Environmental Impact Statement that will identify areas 
that are appropriate for solar development. This process will need to 
1) clarify locations that are suitable for development, 2) cluster 
development into specific areas (versus the status quo where 
applications are filed in a haphazard fashion) and 3) steer public 
lands solar development onto disturbed lands and adjacent to existing 
transmission lines, substations, population centers and disturbed 
private lands. Establishing solar energy zones in this way will 
minimize the need for new transmission, and concentrate the 
industrialization into these most appropriate areas.
    Incentives must also be found to allow solar developers to transfer 
their applications from inappropriate sites to such solar zones. In 
many instances, developers lack incentives to transfer an application 
from the inappropriate site to a more appropriate site is due to delays 
that can jeopardize contractual obligations because the application 
loses its place in the transmission hook-up ``queue'', and because the 
developers risk losing capital already invested in studies and project 
engineering. However, creative incentives can be applied to all of 
these challenges. Project location transfer needs to be allowed without 
the applicant having to go back to the end of the ``queue''. 
Environmental surveys of public lands done on inappropriately located 
application sites may in some cases provide information to the public 
and the public land managers that is valuable and could be compensated. 
Indeed, when the solar projects are transferred to appropriate solar 
zones that have been selected to minimize environmental conflicts, the 
environmental review process will be significantly shortened, allowing 
for faster project implementation than on the inappropriate sites.
    Permitting agencies need more resources in order to process these 
applications quickly and efficiently. High priority needs to be given 
to adding additional staff capacity in the Department of Interior 
agencies, including BLM, and U.S. Fish and Wildlife Service, who may 
need to be consulted regarding impacts to threatened and endangered 
species.
    Lastly, the federal government must cooperate with state and local 
governments to achieve the goals of expediting solar (and other 
renewable) energy production.
    In summary, many opportunities exist to expedite renewable energy 
development and in particular solar development specifically in the 
western United States. We urge the Natural Resources Committee to take 
the bold, necessary steps that will aid our transition to a different 
energy pathway that includes appropriately-sited renewable energy, 
while conserving our irreplaceable natural heritage.
    Thank you for considering these solutions and please feel free to 
contact me with any questions.
                                 ______
                                 
    [A letter submitted for the record by Basin and Range Watch 
follows:]

May 15, 2009

To: Committee on Natural Resources
1324 Longworth House Office Building
Washington, D.C. 20515

From: Basin and Range Watch

Greetings,

    These comments are in response to the Congressional Subcommittee 
Field Hearing to Examine the Future of Solar Power on Federal Lands in 
Palm Desert, California on Monday, May 11th, 2009. We have several 
comments.
    We support the strong use of distributed generation and 
conservation, including residential solar funding plans such as 
California's AB811 loan program and building-integrated solar on new 
housing and commercial properties. When House Subcommittee on Energy 
and Mineral Resources Chairman Jim Costa (D-CA) says this is too 
expensive, following the California Energy Commission's claim, we have 
to disagree, as this claim does not incorporate the full cost of new 
and upgraded transmission which will add billions of dollars to 
construction costs of remote solar and wind energy projects to move the 
energy to cities, and raise ratepayers' rates as well. Solar companies 
will be receiving 30% federal grants to cover the costs of construction 
of plants, and we feel similar grants could be put toward local 
distributed generation plans. Locally generated energy and conservation 
should be the top priority in the national energy plan instead of 
remote industrial generation on pristine desert and mountain lands.
    We agree with the part of the testimony given by Bill Corcoran of 
the Sierra Club that outlines a plan for supporting companies in 
acquiring disturbed lands by incentives to aggregate subdivided private 
lands and create Enterprise Zones. We emphatically do not support the 
use of largescale renewables on undeveloped pristine federal lands. The 
scraping of vegetation and soils that will be needed to build solar 
thermal power plants over thousands of acres is hypocritical to the 
cause of slowing global warming, as carbon is sequestered by desert 
flora and soil microbiota.
    The destruction of critical habitat for Desert tortoises and other 
wildlife and rare plants cannot be mitigated properly in our opinion. 
The Federally Endangered Peninsular bighorn sheep has been found on 
areas that are proposed solar energy project sites, and much more study 
is needed to ensure the little remaining habitat for these populations 
is not destroyed. Increasingly rare Sage grouse habitats are also 
threatened by proposed wind energy projects in the Great Basin Desert 
on federal lands. These cannot simply be replaced. Native American 
cultural heritage sites, sacred sites, archaeological sites, and 
historic areas need to also be included in inventories of federal lands 
before they are slated for renewable siting. We do not support the 
Sierra Club's or other groups' mitigation plans for habitat lands that 
are being considered for siting of utility-scale solar plants. We urge 
Congress to seriously consider disturbed lands, whether private or 
public, as this will speed the environmental review process greatly and 
lessen protests by users of public lands.
    The subcommittee promotes a rush of many new transmission lines in 
the name of combating climate change yet ignores the data from the 
Environmental Protection Agency (EPA) that sulfur hexaflouride (SF6) is 
the most potent greenhouse gas studied to date, with a global warming 
impact of 23,900 times CO<INF>2</INF>, and a much longer lifespan 
(estimated at 3,200 years, compared to CO<INF>2</INF>'s 50-200 years). 
Almost all of it is used and emitted in electrical transmission and 
distribution, with big spikes in emissions during construction of 
lines. SF6 is used as an insulator in high-voltage (35 kV and above) 
circuit breakers, switchgear, and other electrical equipment.
    Sempra Energy is using the Natural Resources Defense Council-
Audubon Society Google-Earth Map in their testimony to show Congress 
which lands are suitable for development. We believe this map should 
not be used for this purpose yet until it is revised to include the 
many environmentally sensitive areas and issues that were not included. 
We do not support the use of this map database by Congress to speed up 
permit applications for big renewable projects on Federal lands until 
more consensus is reached among the environmental community and other 
groups concerned with the desert.
    One of the most obvious environmental consequences of plans to 
cover the deserts with solar thermal plants is water. We do not feel 
that Congress really understands that there will never be enough water 
to accomplish such a feat. ``Mining'' of groundwater from desert 
valleys can cause distant springs to dry up and also contributes to 
soil compaction as the aquifer settles. Pore spaces in the aquifer 
collapse when groundwater is withdrawn, diminishing the use of the 
valley as an aquifer in future centuries. Much water in thermal 
reflector plants is wasted in washing solar panels every day to keep 
off dust. Water used in these plants is not recycled but is allowed to 
run off onto the ground. Diesel trucks and other fossil-fuel powered 
equipment are used to transport and direct the water, causing a waste 
of energy and a release of greenhouse gasses that nullifies any savings 
and offsets that are expected from using the power of the sun. The 
solar plant ends up providing no net gain from its construction and can 
even be a loser, due to the low efficiency of solar collectors to begin 
with. Thus even dry-cooled solar thermal energy plants use too much 
water in arid ecosystems, and wet-cooled plants should not be 
considered in deserts.
    We are concerned with the discussion of streamlining and 
accelerating the environmental review process for siting solar projects 
on public lands. We hope that our country's national heritage of 
federal lands in the desert with their rich fauna and flora, history, 
and recreation use, will be given due protection, following the voters' 
past will in enacting such initiatives as the California Desert 
Protection Act. We do not want to see decades of environmental 
protection and review processes discarded in a confused rush to meet 
renewable energy goals, helping to defeat these goals in the process.
    We felt that the hearing failed to recognize the very many concerns 
that local people in the desert communities have about the impacts 
large scale renewable projects will have on their environment, property 
values, quality of life and energy bills. It appeared as though the 
meeting was formatted to make approval of these projects very easy for 
energy developers. We do not feel the United States Congress should be 
pandering only to the interests of developers. Please hold more desert 
field hearings to gather input from local desert residents and from 
desert ecologists and scientists who have done research on the 
importance of desert ecosystems to local economies and as part of our 
natural heritage.
    In conclusion, we ask that Congress not recommend that generators 
site utility-scale projects on our undisturbed public lands and 
habitats.
    Thank you,

Kevin Emmerich
Laura Cunningham
Basin and Range Watch
P.O. Box 70
Beatty, NV 89003
775-553-2806
www.basinandrangewatch.org

Nick Ervin
President of the Board of Directors
Desert Protective Council
P.O. Box 3635
San Diego, CA. 92163
(619) 342-5524
www.dpcinc.org

Steve Tabor, President
Desert Survivors
PO Box 20991
Oakland, CA 94620-0991
www.desert-survivors.org

Daniel Patterson,
Public Employees for Environmental Responsibility
Tucson AZ USA
(520) 906-2159
dpatterson.blogspot.com
www.peer.org

Denis Trafecanty
The Protect Our Communities Foundation
PO Box 305
Santa Ysabel, CA 92070

Donna Charpied, Executive Director
Citizens for the Chuckwalla Valley
PO Box 397
Desert Center CA 92239
(760) 987-1363
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f685829986829e9392839b86b68f979e9999d895999b">[email&#160;protected]</a>

Ceal Smith
P.O. Box 316
Crestone, CO 81131
(719) 256-5780
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="305355515c7044585542594655421e535f5d">[email&#160;protected]</a>

Austin Puglisi, M.D.
Anne Westenhaver
9131 Rawson Rd,
Morongo Valley CA 92256
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c8a9bdbbbca1a6a9a6a6ad88ada9babca0a4a1a6a3e6a6adbc">[email&#160;protected]</a>

April Sall, Chair
California Desert Coalition
P.O. Box 1508
Yucca Valley, CA 92286
www.cadesertco.org
                                 ______
                                 
    [A form letter on ``Solar Development in the San Luis 
Valley, Colorado,'' delivered by CitizenSpeak!, with personal 
comments submitted for the record by the individuals listed 
below follows:] Andy Zaugg; Catherine Broadbent, San Luis 
Valley Water Protection Coalition; Cecelia Smith, Director, San 
Luis Valley Water Protection Coalition; Charles Tidd, San Luis 
Water Protection Coalition; Claire Barker; David and Renee 
Hill; Dr. Bonnie M. Orkow; Francis Bonny; Glyder, Biosphere 
Coalition; Jay Bremyer; Kathryn Van Note, San Luis Valley Water 
Protection Coalition; Liza Marron, LiveWell Alamosa, ScSEED, 
Mountain Valley School Board; Matthew Crowley, Shumei 
International Institute; Pavita Decorah, Sri Aurobindo Learning 
Center; Randi Young; Ron Sitts; Sandia Belgrade; Stephen 
Smilack; Tamar Ellentuck
To: Representatives on the House Subcommittee on Energy and Mineral 
        Resources.
    I am writing in response to the field hearing on Solar Energy 
Development On Federal Lands: The Road to Consensus held in Palm 
Desert, California, May 11, 2009. My personal statement appears at the 
end of this letter.
    Thank you for extending the comment period on above mentioned 
hearing. The San Luis Valley has become the major focal point for 
industrial solar development in Colorado. More than 50% of the Valley 
is publicly owned, thus the future of our high-elevation rural Valley 
hangs in the balance of Federal energy policy decisions currently being 
debated by the Department of Interior, Congress and this committee. 
Being far from DC, Denver and the urban demand centers, the concerns of 
our 40,000 constituents have not been heard. I hope this marks and end 
to our invisibility.
    The San Luis Valley is home to one of our nations most productive 
agricultural areas and spectacular natural and cultural landscapes, 
recently recognized when Congress passed the Sangre de Cristo National 
Heritage Act of 2009.
    Solar energy development on the massive industrial scale currently 
being proposed is entirely untested. Impacts on our rural agricultural 
communities, aquifers and watersheds, air quality, ecosystems and 
biodiversity remain largely unexamined. In the absence of an informed 
energy policy, unregulated market-driven solar energy development could 
very well accelerate the disappearance of the extraordinary ecological 
and cultural heritage of our Nations rural areas including the San Luis 
Valley.
    Large-scale solar facilities are already being sited on private 
lands within the Valley. I do not believe we should sacrifice our 
public lands too. Until existing degraded lands and the built 
environment, especially near urban point-of-use centers are fully 
utilized, it simply makes no sense to destroy intact (and carbon 
sequestering) ecosystems on our valuable public lands.
    I would like to see the farmers, ranchers, businesses, communities 
and citizens who make the San Luis Valley their home profit directly 
from our solar resources rather than giving carte blanche to distant 
corporations in exchange for a few short-term jobs. By providing 
incentives for distributed generation, solar energy development can be 
integrated into the existing fabric of our rural agricultural economy 
rather than uprooting it through large-scale industrialization. As you 
consider solar energy development on public lands I urge you to 
prioritize the following:
    1.  Energy efficiency and conservation;
    2.  Smart-grid upgrades to existing infrastructure before 
constructing new transmission;
    3.  Federal and state incentive programs to promote point-of-use 
distributed generation through Feed-In Tariffs, progressive net 
metering and long-term, low-interest loan programs targeting 
agriculture, business, municipalities, rural communities and 
households;
    4.  Use of degraded lands and the build environment near urban 
centers first;
    5.  Use of low-water dry cooling solar technologies in arid and 
semi-arid environments;
    6.  Avoidance of National Parks and Monuments, National Wildlife 
Refuges, Wilderness, Roadless Areas, State, Federal, County or citizen 
recognized special conservation areas, intact public lands, prime 
agricultural lands, wetlands, wildlife corridors, cultural sites and 
Federal or State endangered species habitat;
    7.  Pilot studies geared at developing effective mitigation and 
``best management practices'' for large-scale solar energy facilities;
    8.  Development of a comprehensive study by our nations top 
independent energy and policy experts leading to adoption of a National 
Energy Policy.
    Lastly, I would like to encourage the Subcommittee to continue 
holding hearings on renewable energy development, particularly in our 
part of the Southwest. As we stand at the crossroads of the new energy 
transition, a fundamentally new paradigm is emerging that those of us 
at ``ground-zero'' would like to share.
    I respectfully submit my comments for the Record of the Hearing and 
request that I be notified of further hearings on solar energy 
development on public lands.
                                 ______
                                 
    [A form letter on ``Solar Done Right'' delivered by 
CitizenSpeak!, with personal comments submitted for the record 
by the individuals listed below follows:] Andy Liberman; 
Annette Rojas; Arvind Says; Brendan Hughes; Cecelia Smith, San 
Luis Valley Water Protection Coalition; Chris Clarke; Connie 
Crusha; David Crawford, Desert Protective Council; David 
McMullen; Diane Conklin, Mussey Grade Road Alliance; Donna 
Thomas; Florian Boyd; George Wuerthner; Gidon Taylor Singer; 
Helena Quintana; James Dyer; Janeen Armstrong; Jill Giegerich; 
Karen Schambach, Public Employees for Environmental 
Responsibility; Katherine McTaggart; Kim F. Floyd; Kurt 
Leuschner, Desert Cities Bird Club; Laraine Turk, California 
Desert Coalition; Larry Hogue, Desert Protective Council; Linda 
Harter; Luana Lynch; Mesonika Piecuch, ORV Watch Kern County; 
Michael Howard; Michael Pinto; Nick Comer; Nick Ervin; Olivia 
de Haulleville; Philip Leitner, California State University; 
Phillip Schuyler Carskaddan; Rachel Shaw, Sungazer Photography 
and Images; Richard Ryan, Desert Protective Council; Ruth 
Rieman; Spencer Berman; Stacey Landfield; Steve Hartman; Terry 
Frewin; Vanessa Rusczyk, The Protect Our Communities 
Foundation; William Modesitt; Willie Walker
Dear Representatives on the House Natural Resources Committee:
    I am writing with comments on the Congressional Subcommittee Field 
Hearing to Examine the Future of Solar Power on Federal Lands held in 
Palm Desert, California on Monday, May 11th, 2009. My personal 
statement appears at the end of this letter.
    First, I hope you will schedule more hearings throughout the 
Southwest. These hearings should include testimony from scientists with 
expertise in desert ecosystems, as well as energy engineers and 
developers experienced with a variety of renewable energy alternatives, 
including distributed generation. In addition, the hearings should 
provide opportunities for citizen input.
    I believe that we can move to a low-carbon society without 
sacrificing our beautiful and biologically rich desert landscapes. As 
you consider where and how solar energy should be developed in this 
country, please adhere to these simple principles:
    1.  Place the highest priority on energy efficiency and 
conservation.
    2.  In developing solar, place the highest priority on 
``distributed generation'' technologies, such as photovoltaic solar 
panels
    3.  Use proven incentives such as Feed-In Tariffs and long-term, 
low-interest loan programs to promote more distributed solar.
    4.  Put large-scale, centralized solar projects only on lands that 
have already been heavily abused, such as abandoned farm land.
    5.  Don't build large-scale projects on good habitat, especially if 
it is home to endangered species.
    If we follow the first four points above, we can combat global 
warming without paving the desert with ``solar parks.''
    More detail on each of these principles is available at: http://
tinyurl.com/solardoneright
    Please submit these comments For the Record for the hearing. I 
would like to receive notice of further hearings on solar energy 
development on public lands.
                                 ______
                                 
    [A statement submitted for the record by Veronica 
Gutierrez, Director, Public Affairs, Edison International, 
follows:]

       Statement submitted for the record by Veronica Gutierrez, 
             Director, Public Affairs, Edison International

    Good morning, Mr. Chairman, members of the Subcommittee. Thank you 
for this opportunity to offer testimony on issues related to solar 
development on federal and private lands.
    My name is Veronica Gutierrez. I am the Director of Public Affairs 
for Edison International, the parent company of Southern California 
Edison and Edison Mission Energy. I am responsible for assisting Edison 
Mission Energy with its plans for renewable energy development in the 
West. I am also responsible for assisting Southern California Edison 
with low carbon energy development and out-of-state transmission 
development.
    Southern California Edison is the nation's leading purchaser of 
renewable energy with more than 16% of our electricity coming from 
renewable resources, enough to power 1.8 million homes for an entire 
year. Southern California Edison also purchases 80% of all the solar 
energy currently generated in the United States. In order to reach our 
goal of 20% renewables by 2010, and to prepare for the 33% renewable 
portfolio standard currently working its way through the state 
legislature, Southern California Edison is investing more than $20 
billion over the next five years to expand and strengthen our 
transmission and distribution infrastructure.
    Edison Mission Energy is one of the country's 10 largest wind 
energy developers with projects in operation or in development in 17 
states. Edison Mission Energy's business plan also calls for 
development of utility-scale solar generation in a unique niche--on 
privately owned, ``disturbed'' land or land with low quality habitat.
    From an Edison International perspective, we have a very keen 
interest in removing barriers to both solar generation development and 
the development and upgrade of transmission necessary to bring it 
online. I would like to reiterate the recommendation of California 
Public Utilities Commissioner Rachelle Chong that you consider 
California's Renewable Energy Transmission Initiative, also known as 
RETI, which has involved many stakeholders and has painstakingly 
assessed the location of optimal renewables zones, and especially the 
transmission corridors necessary to bring this generation online. 
Federal agencies are already participating in RETI and we welcome their 
continued involvement.
    Our experience has been that the state process for transmission 
siting works fairly well, and we are very pleased to hear of new 
efforts to allocate the resources necessary for federal agencies to 
streamline and accelerate environmental reviews. We have made similar 
recommendations to several federal agencies and elected officials in 
the hope that the federal agencies such as the Bureau of Land 
Management and the U.S. Fish and Wildlife Service will soon receive the 
staffing resources to more quickly complete the necessary work for 
siting proposals.
    Also from an Edison International perspective, I would like to 
reiterate the recommendation of Carl Zichella of the Sierra Club 
regarding incentives for renewable developers focusing on private, 
disturbed, land. Regarding this matter, there is a very specific issue 
that we have found particularly troublesome. The review time associated 
with Endangered Species Act (ESA) compliance is currently a 
disincentive for development on private land because the ESA has a more 
expedited time table for review when there is a federal nexus: 135 
days. This makes development on federal land more attractive to 
developers because the normal time table for review on private land is 
three to five years for disturbed land and six to nine years for 
projects with more significant impacts. We believe that this 
discrepancy can be resolved through two actions: 1) Allocation of staff 
to the U.S. Fish and Wildlife Service for more expedited review and for 
an administrative rulemaking. 2) An administrative rulemaking under 
section 4(d) of the ESA that could reduce the review time to a matter 
of weeks if staffing levels were appropriate to handle the workload.
    The U.S. Fish and Wildlife Service has informally reviewed our 
ideas for expedited review, especially when it involves already 
disturbed land or low quality habitat. I have a white paper on this 
matter that I would like to share with your staff and provide for the 
record. What we need now are the funds for implementation. Your 
assistance in this regard will be greatly appreciated.
    Thank you for your consideration.
                                 ______
                                 

                              White Paper

             Use of Section 4(d) of Endangered Species Act

           To Encourage Low Impact Renewable Energy Projects

I. STATEMENT OF THE ISSUE.
    This paper describes the potential use of the authority in section 
4(d) of the Endangered Species Act (``ESA'') to streamline the ESA 
permit process for renewable energy projects that will have low impacts 
on endangered and threatened species.
    To address the global climate change issue, the State of California 
has adopted significant new legislation and policies to reduce 
greenhouse gas emissions and to expand dramatically the energy 
generated in the state from solar and other renewable energy sources. 
In response, many private entities are seeking the approval for solar 
energy projects in the California desert.
    The State of California and the federal government have initiated 
the preparation of regional plans to address the potential impacts of 
solar energy projects on natural resources. These plans, however, are 
not anticipated to be completed for several years. Until these plans 
are completed, there is a need to encourage the siting of solar energy 
projects in areas that will avoid and minimize impacts on endangered 
and threatened species and that will not preclude the implementation of 
the regional natural resource conservation plans.
    Previously disturbed lands are most often privately-owned and 
impacts on listed species are consequently reviewed under Section 10 of 
the ESA. The U.S. Fish and Wildlife Service (``Service'') acknowledges 
that permitting timelines under Section 10 can take many years--even 
for projects that have minimal impacts on endangered and threatened 
species. The Service recently estimated that the permitting process for 
solar projects on private lands ranges from 3-5 years for a project 
with low impacts, to 6-9 years for a project with more significant 
impacts. In contrast, the ESA establishes a 135-day process for issuing 
incidental take authority in circumstances where there is a federal 
nexus. 16 U.S.C. Sec. 1536(b). But in most instances, no federal nexus 
is available for renewable projects on private lands.
    The above ESA permitting process paradoxically results in a 
significant disincentive to siting renewable energy projects in areas 
where they will have least impact. It also encourages the siting of 
renewable energy projects on more sensitive federal land.

II.  USE OF SECTION 4(D) TO ENCOURAGE SITING OF RENEWABLE PROJECTS IN 
        AREAS OF LOW IMPACT.
    Section 4(d) of the ESA provides a mechanism for the Service and 
the Department of Fish and Game to promote siting of renewable energy 
projects in areas with the least impact on threatened and endangered 
species.
    Section 4(d) authorizes the Service to issue regulations that are 
``necessary and advisable'' to provide for the conservation of 
threatened species 16 U.S.C. Sec. 1533(d). The Service has interpreted 
section 4(d) to authorize regulations that limit the section 9 take 
prohibition for threatened species. These so-called ``4(d) Special 
Rules'' have the effect of allowing take of certain threatened species 
under conditions prescribed by regulation, if any, without an 
incidental take permit under section 10. Generally, 4(d) Special Rules 
restrict the section 9 take prohibition for defined categories of 
actions, allowing take resulting from, for example, routine ranching 
activities on private land without a section 10 permit. See, e.g., 50 
CFR Sec. 17.43(c)(3). Thus, 4(d) Special Rules allow persons to take 
the subject species in the course of conducting the enumerated 
activities, in compliance with the ESA, without individual 
authorization from the Service.

III.  USE OF SECTION 4(D) TO STREAMLINE THE CESA PERMITTING PROCESS FOR 
        THREATENED SPECIES.
    The use of section 4(d) for qualifying renewable energy projects 
would also streamline the permit process for compliance with the 
California Endangered Species Act (``CESA''). California Fish and Game 
Code section 2080.1 provides a streamlined CESA permitting process with 
regard to projects impacting species jointly listed under ESA and CESA 
where the project has obtained ESA incidental take authority. Fish and 
Game Code, Sec. 2080.1. Section 2080.1 provides a mechanism for the 
Department of Fish and Game to concur in a federal incidental take 
approval within 30 days after receiving notice of the federal approval. 
Once this concurrence is issued, no other CESA approval is required for 
the project.
    When the Service issues the section 4(d) rule, it will also issue a 
biological opinion and an incidental take statement authorizing 
incidental take of threatened species subject to the requirements of 
the 4(d) rule. The California Department of Fish and Game may then 
determine that the incidental take statement is consistent with CESA 
requirements. Using the authority of section 2080.1, the Department of 
Fish and Game will avoid the need for a duplicative individual permit 
process under CESA for qualifying renewable energy projects.

IV.  EXAMPLES OF USE OF SECTION 4(D) TO AUTHORIZE LOW IMPACT ACTIVITIES 
        OR ACTIVITIES PENDING COMPLETION OF REGIONAL CONSERVATION PLAN.
A.  THE GNATCATCHER 4(D) SPECIAL RULE.
    In 1993, the Service issued a 4(d) Special Rule limiting the take 
prohibition of the threatened coastal California gnatcatcher 
(``Gnatcatcher 4(d) Rule''). 58 Fed. Reg. 65088 (Dec. 10, 1993); 
codified at 50 CFR Sec. 17.41 (b). As the Service explained, the 
Gnatcatcher 4(d) Rule provides ``another regulatory mechanism [in 
addition to incidental take authorization provided under sections 7 and 
10]--to allow take of the gnatcatcher incidental to otherwise lawful 
activity.'' 58 Fed. Reg. 65088, 65091.
    Under the Gnatcatcher 4(d) Rule, incidental take of the gnatcatcher 
was permitted during the period in which a natural community 
conservation plan (``NCCP'') was being prepared, provided the take 
occurs within an area under the jurisdiction of a local government 
agency that engaged in the preparation of a NCCP and such take results 
from activities conducted in accordance with the NCCP Conservation 
Guidelines and Process Guidelines. 50 CFR Sec. 17.41(b)(3).
    The California Department of Fish and Game, in coordination with 
the Service and the NCCP scientific review panel, prepared the Coastal 
Sage Scrub NCCP Process Guidelines and the Coastal Sage Scrub NCCP 
Conservation Guidelines to define the roles of local, state, and 
federal government in the NCCP planning process (collectively, 
``Guidelines''). The Guidelines set forth, among other things, the 
process and the substantive requirements for securing interim approval 
of loss of coastal sage scrub (i.e., gnatcatcher) habitat, thus 
allowing take of gnatcatcher under the 4(d) Special Rule. The table 
below summarizes the requirements of the 4(d) Special Rule and the 
Guidelines.

[GRAPHIC] [TIFF OMITTED] T9683.007

B.  CALIFORNIA TIGER SALAMANDER.
    In 2004, the Service adopted a 4(d) Special Rule with regard to the 
California tiger salamander. 50 C.F.R. Sec. 17.43; 69 Fed. Reg. 47212 
(August 4, 2004). The Special Rule provided an exemption for routine 
ranching activities on private and Tribal lands. The Service explained 
that:
        Under section 4(d), the Secretary may publish a special rule 
        that modifies the standard protections for threatened species 
        found under section 9 of the Act and Service regulations . . 
        with special measures tailored to the conservation of the 
        species. We believe that, in certain circumstances, easing the 
        general take prohibition on non-Federal lands may encourage 
        continued responsible land uses that provide an overall benefit 
        to the species.
Id. at 47241.
SALMON.
    NOAA Fisheries promulgated a 4(d) Special Rule for certain salmon 
species listed as threatened (``Salmon 4(d) Rule). 70 Fed. Reg. 37160 
(June 28, 2005); codified at 50 CFR Sec. 223.203. Among the 13 
activities for which the take prohibition was limited was municipal, 
residential, commercial, and industrial development provided that the 
development occurs pursuant to local government ordinances or plans 
that NOAA Fisheries has determined are adequately protective of the 
subject species. Id. Sec. 223.203(b)(12). The Salmon 4(d) Rule lists a 
dozen conditions that NOAA Fisheries would use to evaluate the adequacy 
of local government plans, which must provide for ``properly 
functioning conditions'' for the salmon species, as summarized in the 
table below.

[GRAPHIC] [TIFF OMITTED] T9683.008

V.  PROPOSED SECTION 4(D) RULE FOR QUALIFYING RENEWABLE ENERGY 
        PROJECTS.
    The issuance of a 4(d) rule for renewable energy projects with low 
impacts on threatened species involves the following general steps:
    1.  Preparation of conservation guidelines establishing 
requirements applicable to projects subject to the 4(d) rule. The 
guidelines would identify (i) substantive requirements that a 
qualifying project would be required to meet, (ii) mechanisms to insure 
implementation of the requirements, and (iii) oversight by the Service 
and the Department of Fish and Game.
    2.  It is anticipated that the conservation guidelines would 
require qualifying projects to meet identified ``low impact'' criteria. 
For example, the conservation guidelines could require any qualifying 
project satisfy all of the following requirements:
         a.  The total acreage of the project is no greater than 1280 
        acres, including acreage associated with permanent disturbance 
        from the project's electrical interconnection to transmission 
        system.
         b.  The project is sited on privately-owned ``disturbed or 
        degraded land'' (as defined below) that is not within a 
        National Park, National Recreation Area, National Monument, 
        designated Wilderness Area, Area of Critical Environmental 
        Concern or critical habitat previously designated by the 
        Service for listed species. ``Disturbed or degraded land'' 
        means land that is on or within 2 miles of land that is or has 
        been used within the last 50 years for agriculture, mining or 
        mineral extraction, landfill, wastewater treatment, pipeline, 
        transmission line, rail line, airport, military operations, or 
        state or federal road or highway or other similar uses;
         c.  Unless within an existing BLM-designated or contingent 
        corridor, the project's electrical interconnection line is not 
        within a National Park, National Recreation Area, National 
        Monument, designated Wilderness Area, Area of Critical 
        Environmental Concern or critical habitat previously designated 
        by the Service for any threatened or endangered species;
         d.  Except for grading and compacting portions of a project 
        site that have been in agricultural use within the past 10 
        years, no more than 30% of the project site will be graded;
         e.  During operation, consumptive use of surface or ground 
        water that is suitable for potable and agricultural uses does 
        not exceed 5 gallons/MWh;
         f.  Insignificant operational air emissions; and
         g.  ``Best management practices'' established for construction 
        and operation of such projects are implemented to minimize 
        impacts on endangered and threatened species.
    3.  Preparation of an environmental assessment regarding the 
environmental impacts of the 4(d) rule;
    4.  Publication of the proposed 4(d) rule in the Federal Register 
requesting public comment;
    5.  Providing a minimum of 30 days for public comment;
    6.  Adopting a Finding of No Significant Impact; and
    7.  Approving the final rule and publishing the final rule in the 
Federal Register.
    It is anticipated that the Service could complete the process for 
promulgating a section 4(d) rule for qualifying renewable energy 
projects in approximately one year.
                                 ______
                                 
    [A statement submitted for the record by Anthea Hartig, 
Regional Director, Western Office, The National Trust for 
Historic Preservation, follows:]

   Statement submitted for the record by Anthea M. Hartig, Regional 
 Director, Western Office, The National Trust for Historic Preservation

Introduction
    The National Trust for Historic Preservation (National Trust) 
commends the Chairman and the Subcommittee for their leadership in 
bringing diverse voices together to build consensus regarding the 
future of solar energy development on federal lands. The National Trust 
fully supports the effort to expand our nation's renewable energy 
portfolio, and we recognize that federal public lands will play a 
significant role. Federal land managers, project proponents, resource 
specialists and the interested public have a unique opportunity to work 
collaboratively in advancing our renewable energy goals without 
compromising our nation's significant historic and natural resources. 
Potential legislation to promote solar energy development should not 
simply aim to accomplish this goal in an expeditious manner, but should 
do so in a way that emphasizes protection of historic and natural 
resources, thus ensuring a holistic environmental approach.
Background on the National Trust
    My name is Anthea M. Hartig and I am the Director of the Western 
Office of the National Trust, the largest private, nonprofit membership 
organization dedicated to protecting the Nation's irreplaceable 
historic and cultural resources. Chartered by Congress in 1949, the 
National Trust provides leadership, education, and advocacy to protect 
America's diverse historic places and revitalize its communities. Staff 
in our headquarters in Washington, D.C., nine regional and field 
offices--including the Western Office in San Francisco--and 29 historic 
sites work with our 235,000 members and thousands of local community 
groups in all 50 states.
Solar Energy Development and Cultural Resources on Public Lands
    The National Trust supports solar energy development on federal 
public lands; however, we caution against expediting such development 
at the expense of irreplaceable historic and cultural resources. We 
understand that some impacts may be unavoidable. However, future 
administrative and legislative efforts should emphasize the need to 
balance our energy needs with the protection of sensitive resources. 
Certainly, federal agencies, project applicants, Congress, and interest 
groups such as the National Trust, working collaboratively, can ensure 
that every effort is made to avoid impacts where possible.
    Achieving the nation's energy goals should be done through a 
careful and deliberate process, relying on existing environmental and 
preservation laws to guide decision-making. In fact, the Bureau of Land 
Management (BLM) is doing just that. BLM recently initiated Section 106 
of the National Historic Preservation Act (NHPA) to evaluate the 
potential adverse effects of a solar energy development program on its 
lands. To meet the requirements of the Section 106 process, BLM is 
preparing a Programmatic Agreement (PA) that, when finalized, will 
guide the implementation of the Section 106 review process. The 
National Trust is participating as a consulting party in the 
development of this agreement. We believe the PA will ensure that 
specific projects are sited wisely and approved only after their 
impacts are properly understood.
    Such upfront efforts to regulate the siting of utility-scale solar 
energy developments are important because these projects can occupy 
massive footprints on the land. If improperly located, they can have 
devastating consequences for historic and cultural resources. Several 
proposed projects could have particularly severe visual impacts on one 
of the last rural stretches of Route 66, a cherished American 
landscape. Other threatened cultural resources are large land areas 
significant to Indian tribes. These traditional cultural properties and 
cultural landscapes derive their significance from the land itself, and 
visual intrusions may negatively impact the rich heritage and continued 
cultural practices of tribes. Additionally, significant archaeological 
sites--many unaltered for centuries--are prevalent on BLM lands, 
particularly in the southwestern United States.
    The National Trust is pleased to see significant leadership from 
the BLM's California Desert District on these issues. In pre-
application meetings, BLM's resource managers have effectively steered 
applicants away from well-known sensitive historic sites and have not 
permitted development in our preferred exclusion areas listed below. In 
addition, BLM has made clear that developers will be required to 
conduct comprehensive cultural resource surveys of affected land prior 
to project approval. As less than 7% of BLM land nationwide has been 
inventoried, we expect significant cultural resources will be 
identified during this process. The surveys will be useful for avoiding 
and minimizing impacts to sites and, when avoidance is impossible, will 
provide guidance for mitigating resource losses.
    As both administrative and legislative efforts to promote and 
advance solar energy development move forward, the National Trust 
believes that the following guidelines will help achieve this goal 
while also ensuring the best possible protection of irreplaceable 
historic and cultural resources:
Conduct Resource Inventories on Potentially Impacted Land
    Understanding where historic and cultural resources are located in 
advance of solar projects will help to alleviate potential conflicts 
between these resources and solar energy development. For important 
tribal resources, this can be accomplished with early and thorough 
consultation with Indian tribes and Native Hawaiian organizations. 
Early consultation is vital for siting solar developments in ways that 
avoid impacts to properties of traditional religious and cultural 
significance. Given the potentially extensive footprints of utility-
scale solar developments, tribal input will be important for guiding 
solar projects to appropriate parts of landscapes. Consultation should 
be initiated at the earliest possible time after a project is proposed 
and, ideally, should be conducted via methods most preferred by the 
tribes involved. Making a concerted effort to develop trusting 
relationships with tribes can help to ensure that the collection of 
information about potential impacts to sites, resources and landscapes 
is timely and thorough. This information can then be used to identify 
more appropriate locations for solar development.
    Similarly, completing early cultural resource surveys of areas with 
high potential to produce utility-scale solar energy will help to 
identify lands with few resource conflicts, and avoid direct and 
indirect impacts to significant cultural resources. These resources 
represent the most intact, important and unique information known about 
our nation's history and prehistory and, accordingly, should be 
preserved in place whenever possible. If impacts are unavoidable, 
cultural resource survey findings should be used to help identify the 
best measures for first, minimizing and second, mitigating impacts. 
Minimizing impacts could include adjusting a project's location so that 
it physically and visually impacts the fewest significant sites 
possible, or using technology that does the least damage to surface 
sites. Mitigating impacts--the least desirable option--could include 
creating educational materials for nearby teachers and students or 
pursuing off-site mitigation, such as stabilizing and interpreting 
nearby sites to balance out impacts to sites within the project area.
Employ Preferential Siting
    The National Trust also urges the Subcommittee to prioritize siting 
of utility-scale solar development on those public lands that have 
already been disturbed by previous agricultural, mining, or other 
activities that may already have compromised cultural resource values 
or resulted in contamination by pollutants or hazardous substances. The 
Environmental Protection Agency (EPA) tracks these contaminated 
``brownfield sites,'' which include abandoned mine lands, Superfund 
sites, and Resource Conservation and Recovery Act (RCRA) sites. At the 
end of 2008, EPA listed at least 263 such sites, totaling nearly 6.5 
million acres, that have very good or excellent potential for utility-
scale solar development. <SUP>1</SUP> In addition to the health, 
environmental and economic benefits to communities from brownfield 
remediation <SUP>2</SUP>, these lands may have great advantages for 
utility-scale solar energy development. First, they often are already 
zoned for industrial uses and frequently have existing electrical 
transmission infrastructure that can be upgraded more quickly and 
inexpensively than new infrastructure can be developed. Second, these 
lands frequently are located near population centers, thus allowing 
electrical generation close to the point of use and increasing 
efficiency in energy transfer while reducing landscape disturbances. A 
success story from Colorado illustrates the benefits of siting utility-
scale solar developments on previously disturbed sites. The Fort Carson 
Landfill Solar Development near Colorado Springs is a 2 MW photovoltaic 
array built on 12 acres of a former landfill. Generating approximately 
3200 MWh/year, the development fulfills approximately 2.3 % of Fort 
Carson's energy consumption. <SUP>3</SUP>
---------------------------------------------------------------------------
    \1\ See Environmental Protection Agency 2008. ``Mapping Data Excel 
File''. http://www.epa.gov/renewableenergyland/maps_incentives.htm
    \2\ Environmental Protection Agency 2008. ``About Brownfields''. 
http://www.epa.gov/brownfields/about.htm
    \3\ United States Army Environmental Command 2008. ``Solar Power 
Array Constructed on Fort Carson Landfill''. http://www.aec.army.mil/
usaec/newsroom/update/win08/win0812.html
---------------------------------------------------------------------------
    Another way to facilitate solar energy development while minimizing 
impacts to historic and cultural resources would be to locate solar 
projects within or as close to existing energy corridors as possible. 
This siting strategy would confine disturbances to already impacted 
areas, rather than spread the impacts across the landscape. It would 
also reduce the cost of constructing transmission lines for getting 
electricity to the grid, and lessen landscape disturbances associated 
with new transmission lines.
    Finally, the National Trust believes that federal agencies should 
make every effort to avoid the impacts of utility-scale solar energy 
development on lands that have been designated or acquired by the 
federal government for the purpose of conserving historic and cultural 
resources. Accordingly, the National Trust suggests that the following 
lands be excluded from utility-scale solar development:
    <bullet>  Units of the National Park System;
    <bullet>  Units of the National Landscape Conservation System;
    <bullet>  National Monuments;
    <bullet>  National Historic and Scenic Trails;
    <bullet>  National Historic Byways;
    <bullet>  National Historic Landmarks;
    <bullet>  National Historic and Archaeological Districts;
    <bullet>  National Heritage Areas;
    <bullet>  U.S. Forest Service Archaeological Areas;
    <bullet>  Areas designated by Congress for the purpose of 
protecting cultural resources;
    <bullet>  Properties eligible for or listed on the National 
Register of Historic Places including Traditional Cultural Properties;
    <bullet>  Sacred Sites identified by Executive Order 13007; and
    <bullet>  Areas of Critical Environmental Concern.
    In addition to excluding these lands, it is important to establish 
adequate buffers between them and solar development projects. The sizes 
of buffers would depend, in part, on the topography of the area, the 
types of cultural resources present, and the size and type of the solar 
project and supporting energy infrastructure. Establishing guidelines 
for best siting practices, including the use of buffers around 
significant cultural resources, would expedite environmentally 
responsible utility-scale solar energy development.
Promote Technologies With the Least Potential for Impacts
    The National Trust believes that ongoing advances in solar, energy 
storage and transmission technologies will enable the United States to 
meet and even exceed its renewable energy goals. We specifically 
promote the use of current technologies and the development of future 
technologies that have the least possible physical and visual impacts 
to significant cultural resources. Such low-impact solar developments 
include those that can be sited on ungraded landscapes and those whose 
components can be dispersed to lessen physical and visual impacts to 
specific significant resources.
Conclusion
    America's rich cultural heritage represent the history of our 
society and help to define us as a nation. We are fortunate that many 
of these important places and artifacts are located on our federal 
public lands. The federal land managing agencies are the stewards of 
our public lands so they have a responsibility to afford the highest 
degree of preservation to our irreplaceable historic and cultural 
resources, independent of the lands' renewable energy development 
potential. The National Trust believes that conducting early stage 
planning and dialogue among diverse stakeholders, including performing 
tribal consultation and cultural resource surveys of lands with high 
potential for solar energy development, will help to promote 
preservation while facilitating cost- and time-efficient development. 
Early identification of high potential development areas that contain 
few significant resources will promote expedited and mutually agreeable 
solar energy development.
    As the Subcommittee considers how to build consensus for solar 
energy development on public lands, the National Trust strongly 
encourages inclusion of early planning that considers historic and 
cultural resources. Our nation's goal should be to foster renewable 
energy development without destroying significant components of our 
national historic and cultural heritage.
    We are happy to answer any questions the Subcommittee may have 
about our recommendations, and we appreciate the opportunity to share 
our comments.
                                 ______
                                 
    [A letter submitted for the record by the Natural Resources 
Defense Council follows:]

                   Natural Resources Defense Council

May 20, 2009

The Honorable Jim Costa
Chairman
House Subcommittee on Energy and Mineral Resources
1626 Longworth House Office Building
Washington, DC 20515

Dear Mr. Chairman:

    The Natural Resources Defense Council (NRDC) appreciates the 
opportunity to enter into the public record the following comments 
regarding the Subcommittee's Field Hearing on solar energy siting held 
in Palm Desert on May 11, 2009.
    NRDC is a national, nonprofit organization of scientists, lawyers 
and environmental specialists dedicated to protecting public health and 
the environment. Founded in 1970, NRDC has more than 1.2 million 
members and online activists nationwide, served from major offices in 
New York, Washington, Los Angeles, San Francisco, Chicago and Beijing.
    NRDC would like to endorse the testimony provided by Carl Zichella, 
Director of Western Renewable Programs for the Sierra Club. NRDC is 
working closely with the Sierra Club and other environmental 
organizations on the issue of solar energy siting. Like many of our 
colleagues in the environmental community, NRDC and the Sierra Club 
recognize the need to balance renewable energy production with 
protection of our most treasured natural lands.
    Mr. Zichella's testimony highlights guiding principles that will be 
essential to striking this critical balance. These principles include 
siting projects on disturbed lands whenever possible, providing 
incentives for siting on private lands, and conducting both short and 
long term planning processes for renewable energy development on public 
lands. NRDC strongly supports these policies and believes that they can 
help put us on a ``road to consensus'' as Mr. Zichella's testimony 
asserts.
    NRDC would also like to call to the attention of the Subcommittee 
members an apparent mis-characterization of NRDC's Path to Green Energy 
online mapping tool that occurred during the field hearing. We 
understand that a utility representative suggested that the Path to 
Green Energy maps indicate expansive areas in Southern California that 
NRDC has ``green lighted'' for energy development.
    The Path to Green Energy tool developed by NRDC in collaboration 
with the Audubon Society and Google Inc. identifies the most well-
known, environmentally sensitive lands across 13 western states in 
order to show where renewable energy would be inappropriate. The maps 
do not ``green light'' or endorse the siting of renewable energy in any 
specific areas.
    Knowing the location of important natural resources is just the 
first step towards ensuring that new projects and transmission lines 
are built in an environmentally responsible manner. The Path to Green 
Energy maps are not intended to serve as substitutes for the complex 
siting decisions which must take place in full compliance with 
environmental law. Any characterization of the project that suggests 
otherwise is inaccurate and in fact has the potential to be 
counterproductive to the goal of facilitating environmentally 
responsible siting.
    Thank you for the opportunity to enter these comments into the 
public record.

Sincerely,

Johanna Wald
Senior Attorney

cc: The Honorable Kenneth Salazar, Secretary of the Interior
                                 ______
                                 
    [A letter submitted for the record by Ceal Smith, Director, 
San Luis Valley Water Protection Coalition, follows:]

Congressman Jim Costa
Chairman, Subcommittee on Energy and Mineral Resources
1324 Longworth House Office Building
Washington, DC 20515
Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0e636f7c6d676b206d61617e6b7c636f604e636f67622066617b7d6b20696178">[email&#160;protected]</a>

Subject: Solar development in the San Luis Valley, CO, comment letter 
on the field hearing on Solar Energy Development On Federal Lands: The 
Road to Consensus held in Palm Desert, California, May 11, 2009.

Dear Congressman Costa and Subcommittee Members:

    Thank you for extending the comment period on above mentioned 
hearing. The San Luis Valley has become the major focal point for 
industrial solar development in Colorado. More than 50% of the Valley 
is publicly owned, thus the future of our high-elevation rural Valley 
hangs in the balance of Federal energy policy decisions currently being 
debated by the Department of Interior, Congress and this committee. 
Being far from DC, Denver and the urban demand centers, the concerns of 
our 40,000 constituents have not been heard. I hope this marks an end 
to our invisibility.
    The San Luis Valley is home to one of our nations most spectacular 
natural and cultural landscapes, recently recognized when Congress 
passed the Sangre de Cristo National Heritage Act of 2009.
    Solar energy development on the massive industrial scale currently 
being proposed is entirely untested. Impacts on air quality, 
watersheds, ecosystems, biodiversity and our communities remain largely 
unexamined. In the absence of an informed energy policy, unregulated 
market-driven solar energy development could very well undermine the 
extraordinary ecological and cultural values of our Nations rural areas 
including the San Luis Valley.
    Large-scale solar facilities are already being sited on private 
lands within the Valley. I do not believe we should sacrifice our 
public lands too. Until existing degraded lands and the built 
environment, especially near urban point-of-use centers are fully 
utilized, it simply makes no sense to destroy intact (and carbon 
sequestering) ecosystems on our most valuable public lands.
    By providing incentives for distributed generation, solar energy 
development can be integrated into the existing fabric of our rural 
agricultural economy rather than uprooting it through large-scale 
industrialization. As you consider solar energy development on public 
lands I urge you to prioritize the following:
    1.  Energy efficiency and conservation;
    2.  Smart-grid upgrades to existing infrastructure before 
constructing new transmission;
    3.  Federal and state incentive programs to promote point-of-use 
distributed generation through Feed-In Tariffs, progressive net 
metering and long-term, low-interest loan programs targeting 
agriculture, business, municipalities, rural communities and 
households;
    4.  Use of degraded lands and the build environment near urban 
centers first;
    5.  Use of low-water dry cooling solar technologies in arid and 
semi-arid environments;
    6.  Avoidance of National Parks and Monuments, National Wildlife 
Refuges, Wilderness, Roadless Areas, State, Federal, County or citizen 
recognized special conservation areas, intact public lands, prime 
agricultural lands, wetlands, wildlife corridors, cultural sites and 
Federal or State endangered species habitat;
    7.  Pilot studies geared at developing effective mitigation and 
``best management practices'' for large-scale solar energy facilities 
should they be proven to be necessary;
    8.  Development of a comprehensive study by our nations top 
independent energy and policy experts leading to adoption of a National 
Energy Policy.
    Lastly, I would like to encourage the Subcommittee to continue 
holding hearings on renewable energy development, particularly in our 
part of the Southwest. Vital to an authentic public process, we urge 
you solicit non-industry citizen and expert testimony. As we stand at 
the crossroads of the new energy transition, a fundamentally new 
paradigm is emerging that those of us at ``ground-zero'' are acutely 
aware of.
    I respectfully submit these comments for the Record of the Hearing 
on behalf of our members and stakeholders in the San Luis Valley and 
beyond. Please notify us of further hearings on renewable energy 
development.

Sincerely,

Ceal Smith
Director
San Luis Valley Water Protection Coalition

cc:  Sen. John Salazar
    Sen. Michael Bennett
    Sen. Mark Udall
    Interior Secretary Ken Salazar
    DOE Secretary Steven Chu
    Gov. Bill Ritter
    Sen. Gail Schwartz

_______________________________________________________________________

    The San Luis Valley Water Protection Coalition is a grassroots non-
profit organization representing a broad spectrum of stakeholders 
united by the belief that the vital ecological, wildlife, cultural, 
agricultural and water resources of the upper Rio Grande Basin in the 
San Luis Valley, CO should not be jeopardized by unsustainable 
industrial development. By working with communities, government and 
various stakeholder groups, WPC is actively engaged in promoting an 
emerging culture of sustainability in the San Luis Valley that is 
responsive to climate change and the need to move away from destructive 
fossil fuel dependency.
                                 ______
                                 
    [A letter submitted for the record by The Protect Our 
Communities Foundation follows:]

                 The Protect Our Communities Foundation

May 26, 2009

Congressman Jim Costa
Chairman, Subcommittee on Energy and Mineral Resources
House Natural Resources Energy and Mineral Resources Subcommittee
1324 Longworth House Office Building
Washington, DC 20515

Subject: The Protect Our Communities Foundation Comment Letter on May 
11, 2009 Field Hearing on ``Solar Energy Development on Federal Lands: 
The Road to Consensus''

Dear Congressman Costa:

    Thank you for extending the comment period following the May 11th 
hearing to allow organizations like The Protect Our Communities (POC) 
Foundation (www.protectourcommunities.org). POC was unable to send a 
representative to the hearing and we are grateful for this opportunity 
to submit comments on use of federal lands for large-scale solar 
development. POC is a 501(c)(3) non-profit corporation headquartered in 
San Diego County that began as a grassroots citizen organization three 
years ago. The main focus of POC is the energy future of San Diego 
County and Southern California. POC fully supports the California 
Energy Action Plan, developed jointly in 2003 by the California Public 
Utilities Commission and the California Energy Commission. The Energy 
Action Plan prioritizes local distributed generation to meet 
California's energy needs.
    California's renewable energy approach to date has been almost 
completely focused on remote renewable energy resources and the 
transmission associated with such development. Such an approach had 
merit in the 1980s when California became the world leader in renewable 
energy and solar panels cost $12 to $15/watt (2008 dollars). However, 
the world has changed. Commercial solar photovoltaic (PV) installations 
now cost less than $4/watt.
    Nevertheless, the Subcommittee on Energy and Mineral Resources 
appears to accept as a given that large-scale desert solar 
installations are so much more cost-effective than the urban PV solar 
alternative that it justifies the transmission cost, environmental 
trade-offs, and controversy of such desert development. This may have 
been true in the 1980s. It is not true in 2009.
    The least-cost solar resource in 2009 is in California's developed 
urban and suburban areas, and this resource is vast. All urban solar 
deployments would be compatible dual-use of existing rooftops and 
parking lots, avoiding the dilemma you noted in your opening remarks at 
the hearing--``Solar power is very land-intensive, and siting a solar 
plant means that most if not all of the other uses of that land are 
precluded.''
    It is true as you noted that ``some of the largest (solar) 
resources are to be found on our public lands.'' However, these large 
solar resources are only useful to the extent they are cost-effective 
in their own right and can be delivered efficiently to California or 
Southwestern population centers. As we are discovering through 
individual transmission line proposals and the Renewable Energy 
Transmission Initiative (RETI) process, the cost of delivery via new 
transmission may be astonishingly high, without even addressing the 
environmental compromises necessary to construct the transmission 
lines.
    The RETI process also revealed that the least-cost solar solution 
to reaching our target of 33 percent renewable energy by 2020 would 
consist predominantly of distributed PV. Why? Because state-of-the-art 
PV is more cost-effective than solar thermal, and tens of thousands of 
megawatts of PV could be added at the distribution level with little or 
no upgrading to the existing transmission system required.
    The California Energy Commission's RETI Phase 1B Final Report 
(January 5, 2009 version) makes the following points about state-of-
the-art PV (pp. 5-27, 5-28):
        There is considerable commercial interest in utility-scale 
        ``thin film'' systems. This sensitivity tests an alternate thin 
        film technology for solar with capital costs of about $3,700/
        kWe (AC), roughly half that of tracking crystalline. Notably, 
        these (PV) capital costs are also lower than the large-scale 
        solar thermal projects; therefore thin film solar is assumed to 
        occur both at the distributed scale (20 MW) and also in large 
        scale blocks (150 MW).
    Unlike solar thermal technologies, PV can be deployed in urban and 
suburban areas in compatible dual-use applications that require no 
environmental trade-offs. Urban/suburban PV is more cost-effective than 
remote PV because it avoids the (1) high cost of new transmission lines 
and (2) high line losses, in the range of 15 percent, during peak 
demand periods.
    The RETI report goes on to say that distributed PV at a current 
state-of-the-art capital cost of $3,700 per kilowatt can provide two-
thirds of what California needs going forward to reach 33 percent by 
2020 (p. 5-31):
        The results of this sensitivity run are dramatic. More 
        importantly, the cost-competitive in-state (distributed PV 
        resources) increase by more than 20 times to about 45,000 GWh/
        yr. This figure is over two-thirds of the net short 
        requirement. The large majority of these (distributed) 
        resources are 20 MW solar PV projects assumed to connect to the 
        distribution system.
    In February 2009 RETI reduced its estimate of the gap that must be 
filled to reach 33 percent by 2020, such that 45,000 GWh/yr from 
distributed PV could meet 75 percent of the need.
    The November 2008 Los Angeles Department of Water & Power (LADWP) 
``Solar Los Angeles'' strategic plan is a good real-world example of 
the RETI distributed PV scenario. It consists of 780 megawatts of urban 
PV and 500 megawatts of remote solar. This is two-thirds urban solar, 
one-third remote solar. With this urban/remote balance little if any 
new transmission will be necessary for the City of Los Angeles to go 
solar. LADWP is a public utility and ``Solar Los Angeles'' reflects the 
intent of the City of Los Angeles to become a leader in smart and urban 
renewable energy development.
    San Diego Gas & Electric (SDG&E) service territory offers another 
example of the large role urban PV could and should play in 
California's, and the Nation's, renewable energy portfolio:
    <bullet>  There is approximately 4,500 megawatts of commercial 
rooftop and commercial parking lot PV potential in SDG&E territory;
    <bullet>  Peak load in SDG&E territory in 2008 was 4,348 megawatts, 
and the average load over the course of the year is approximately 2,400 
megawatts;
    <bullet>  4,500 megawatts of PV is equivalent to approximately 900 
megawatts of continuous power generation over the course of a year;
    <bullet>  The San Diego area could generate approximately 40 
percent of its year-round power demand from urban commercial rooftop 
and commercial parking lot PV alone.
    <bullet>  That is without considering approximately 2,500 megawatts 
of PV potential on residential rooftops in SDG&E territory;
    <bullet>  If the residential PV resource is fully developed in 
addition to the commercial PV resource, 60 percent of the San Diego 
area's year-round power demand could be met with urban PV;
    <bullet>  This huge solar resource has no land use requirements, as 
it is all compatible dual-use, and has no environmental impacts.
    RETI has attempted to sidestep the implications of its oblique 
endorsement of distributed PV solution to California's renewable energy 
goal by stating there is no way PV manufacturers could mobilize quickly 
enough to provide 2,000 to 3,000 megawatts of PV per year to realize 
the potential of the distributed PV scenario. This is not a valid 
concern. Spain, with about the same population as California and a less 
productive economy, added nearly 2,500 megawatts of PV in 2008.
    More than 5,000 megawatts of PV was installed worldwide in 2008. A 
POC representative attended the 1st Thin-Film PV Summit in San 
Francisco in early December 2008. Statistics on worldwide PV 
manufacturing capacity were presented at the Summit. Worldwide thin-
film PV production capacity reached 3,600 megawatts per year in 2008. 
It is projected to reach 7,400 megawatts per year in 2010. Worldwide 
conventional polycrystalline silicon PV production capacity reached 
13,300 megawatts per year in 2008. It is projected to reach 20,000 
megawatts per year in 2010. There will be some scale-back on the 2010 
capacity numbers due to the state of the world economy.
    Worldwide PV manufacturing, either thin-film alone or thin-film and 
conventional polycrystalline silicon, could readily supply a 3,000 
megawatts per year PV demand in California and much higher PV demand 
for the U.S. as a whole. The Wall Street Journal recently reported that 
conventional solar panel prices have fallen by $2/watt since 2008, due 
to too much solar manufacturing capacity chasing too few solar 
projects. It is disingenuous of RETI to dismiss the distributed PV 
solution on grounds of PV manufacturing capacity constraints.
    POC views the emphasis on new transmission as necessary precursor 
to substantial progress on renewable energy goals as a testament to 
very effective lobbying by America's investor-owned utilities (IOUs). 
The IOUs have for the moment successfully adapted a critical new 
problem, climate change, to a century-old revenue generation scheme.
    IOUs make far more profit on transmission lines than any other 
types of infrastructure they build. For example, SDG&E's proposed 1,000 
MW Sunrise Powerlink transmission line, with an estimated cost of $1.9 
billion, will generate at least $1.3 billion in profits (in current 
dollars) for SDG&E shareholders over the financial life of the project. 
$700 million of those profits will be credited to the company in the 
first eight-and-a-half years. Remote renewable energy generation 
requires transmission. Local renewable energy generation does not.
    The nation has over 527,000 miles of existing high voltage 
transmission. See Figure 1. This transmission infrastructure serves a 
declining demand for electricity. U.S. electricity demand declined 
approximately 2 percent in 2008 and is expected to decline another 1 
percent in 2009.
    Southern California, with an average electrical demand of 
approximately 14,000 megawatts, has approximately 20,000 megawatts of 
import capacity on existing transmission lines. See Figure 2. Southern 
California can already import 100 percent of its average electrical 
load. There may be some need to upgrade older lines so they can 
continue to provide decades of reliable service. However, neither 
California nor the Nation is experiencing a shortage of transmission as 
a general matter.
    The policy challenge is the difficult work of ramping down the 
existing flow of fossil power on these lines and methodically replacing 
it with renewable energy generation. A reasonable proposal of this sort 
was presented to the California Energy Commission in early 2007 by, 
Solar Millennium, a major solar thermal developer. Called the Mojave 
Solar Development Zone, it would preferentially locate solar thermal 
projects along the right-of-ways of major existing highways with 
existing high voltage transmission lines in the Mojave Desert. These 
highway corridors already have a combined 6,000 megawatts of existing 
transmission capacity.
    Figure 3 shows the corridors identified by Solar Millennium for 
inclusion in its proposed Mojave Solar Development Zone. In reality the 
zone identified by Solar Millennium is far larger than it needs to be 
to generate 6,000 megawatts or even 10,000 megawatts of solar power. 
Solar thermal or PV can produce about 100 megawatts per square mile. 
One hundred square miles would produce about 10,000 megawatts. One-half 
mile solar right-of-ways on each side of the highway for only 100 miles 
of the 100s of highway miles shown on the Solar Millennium map would 
suffice to provide 10,000 megawatts of solar power.
    This commonsense proposal pre-dates the RETI process and apparently 
gained little or no traction within the RETI process itself. One likely 
reason is that the solar land rush had already begun, and restricting 
solar develop to a limited Mojave Solar Development Zone would have 
inconvenienced developers with more remote and undeveloped properties 
in some phase of negotiation. Another likely reason is that it made use 
of existing transmission and presumed that existing fossil transmission 
rights would be transferred to the solar projects. This is a reasonable 
presumption, but is also a strategy the IOUs have steadfastly opposed. 
The California Energy Commission and the state of California missed a 
golden opportunity in 2007 to gain some control of the desert land rush 
through some form of the Mojave Solar Development Zone and failed to 
act.
    The easiest pathway from a political standpoint, to give the IOUs a 
mandate to overlay public lands and the Nation with new transmission, 
will result in tremendous controversy and probable gridlock in moving 
forward on the development of renewable generation. The affected 
citizens and interest groups will oppose many of these projects for the 
right reasons--that there are better, more cost-effective, and less 
damaging solutions that are being ignored or dismissed for reasons of 
political convenience.
    It is understandable why an IOU would see renewable energy 
solutions through a transmission lens. However, that lens is costly, 
inefficient, controversial, and damaging. The fact that a solar 
strategy with heavy reliance on new transmission would be very costly 
is positive financial news to an IOU. The more the new transmission 
system costs, the more the IOUs will thrive economically. Yet it is an 
unnecessary and largely avoidable financial burden on everyone else. 
The Subcommittee on Energy and Mineral Resources should not reflexively 
adopt today's IOU financial reward system as the point-of-departure for 
crafting the nation's solar energy development policy on public lands.
    POC believes that you and all members of the Subcommittee on Energy 
and Mineral Resources genuinely want to address climate change. POC is 
glad for this opportunity to provide input about the most efficient way 
to achieve that end. We do believe that, when we put all the costs on 
the table, there is no question that urban solar should be the 
centerpiece of our solar strategy and not an afterthought.
    POC looks forward to continuing to work with the Subcommittee on 
Energy and Mineral Resources to maximize solar energy production in the 
most cost-efficient and environmentally sound manner. Please contact 
Denis Trafecanty at (760) 703-1149 or by e-mail at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5430313a3d2714223d2035383d202d2331367a373b39">[email&#160;protected]</a> if you would like further information regarding 
any of the comments in this letter.

Sincerely,

Denis Trafecanty, President
The Protect Our Communities Foundation
PO Box 305
Santa Ysabel, CA 92070

Bill Powers, P.E., POC Board Member
Powers Engineering
4452 Park Blvd., Suite 209
San Diego, CA 92116
tel: 619-295-2072
e-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="93f1e3fce4f6e1e0d3e3fce4f6e1e0f6fdf4fafdf6f6e1fafdf4bdf0fcfe">[email&#160;protected]</a>

cc:  Sen. Dianne Feinstein
    Sen. Barbara Boxer
    Sen. Harry Reid
    Sen. Jeff Bingaman
    Congressman Nick Rahall
    Congressman Henry Waxman
    Congressman Ed Markey
    Congressman Bob Filner
    Congresswoman Susan Davis
    Congressman Duncan Hunter, Jr.
    Interior Secretary Henry Salazar
    DOE Secretary Steven Chu
    EPA Administrator Lisa Jackson
    Gov. Arnold Schwarzenegger
    Carl Pope, Sierra Club
    Frances Beinecke, NRDC
[GRAPHIC] [TIFF OMITTED] T9683.009


[GRAPHIC] [TIFF OMITTED] T9683.010

[GRAPHIC] [TIFF OMITTED] T9683.011

                                 __
                                 
    [A letter submitted for the record by The Wildlands 
Conservancy (TWC) follows:]

May 26, 2009

To:  Committee on Natural Resources 1324 Longworth House Office 
Building Washington, D.C. 20515

From:  The Wildlands Conservancy (TWC)

SU BJECT: Comments re: Congressional Subcommittee on Energy and Mineral 
Resources Field Hearing on Solar Power Development on Federal Lands: 
The Road to Consensus, in Palm Desert, CA on Monday May 11th, 2009

Greetings,

    Thank you for the opportunity to comment on the Congressional 
Subcommittee Field Hearing and we appreciate Congressman Jim Costa's 
leadership in facilitating the hearing and bringing people together to 
discuss this important issue. The Wildlands Conservancy (TWC) is a 
501c3 non-profit conservation organization with the dual mission to 
preserve the beauty and biodiversity of the earth and to fund outdoor 
education programs for the youth. TWC has a vested interest in the 
current renewable energy discussion and corresponding developments 
being proposed for federal lands within the California desert region. 
TWC has preserved more land in California with private funds than any 
other conservation organization and owns the largest nonprofit preserve 
system in CA.
    TWC is very supportive of renewable energy and eliminating our 
dependence on fossil fuel energy sources and reduce our carbon 
footprint. TWC leads by example and our first preserve was established 
off-the-grid and self-sufficient in 1995. TWC is also passionate about 
land conservation and preserving functioning ecosystems and initiated 
the largest private land acquisition project in U.S. History, The 
Catellus Land Purchase. The purchase of over 600,000 acres in the CA 
Desert connected Joshua Tree National Park to Mojave National Preserve 
with public conservation lands. These lands were all gifted to the 
Department of Interior for management with the understanding that they 
were purchased for conservation. Just 4 years after the completion of 
the project, applications for renewable energy development began to 
cover the CA Desert. We feel it is imperative that the siting of 
renewable energy projects and the greening of California's energy 
supply be accomplished while protecting our treasured landscapes and 
fragile ecosystems. We encourage our political representatives to 
engage in an open and transparent process with all stakeholders, 
including those in the CA deserts, to make responsible decisions about 
siting projects that benefit the public and rate payers while 
protecting the environment.
    Currently there is a ``land rush'' in the CA desert because the low 
cost of ``leasing'' public lands for renewable projects creates an 
economic incentive for industry. Also since these projects result in a 
permanent impact on the land and degrade adjacent habitat the current 
process of using the Right of Way (ROW) application is inappropriate 
and does not adequately address the costs and impacts of such projects. 
Furthermore, there is intense pressure to get projects online and take 
advantage of federal stimulus funds which creates additional pressure 
to accelerate the siting, planning, and permitting of these projects 
and fast-track the environmental review processes. We urge renewable 
energy developers to access and acquire disturbed lands, both private 
and public, as this will surely speed the environmental review process 
and have the best chance of getting projects ``shovel-ready'' by 
December 2010. These least-conflict areas provide a win-win solution 
for all stakeholders.
    One strategy for private lands as outlined in the testimony given 
by Bill Corcoran of the Sierra Club supports companies acquiring 
disturbed lands by creating incentives to aggregate subdivided private 
lands by forming Enterprise Zones.
    We are adamant that special attention and consideration be given to 
the large footprint that will accompany these industrial-scale solar 
facilities in the California desert region. The bull-dozing and 
scraping of vegetation and topsoil that will occur in the construction 
of solar thermal power plants over thousands of acres is duplicitous to 
the cause of combating climate change, as much carbon is sequestered by 
desert flora and soil microbiota. We also feel that the destruction of 
critical habitat for Desert Tortoises and other wildlife, rare plants, 
and desert water resources (riparian habitats, aquifers, etc.) that 
will result from these projects being sited on pristine lands and core 
habitat cannot be mitigated properly.
    We would like to comment on part of the testimonies given by 
Rashelle Chong (CA Public Utilities Commission) and Julia Levin (CA 
Energy Commission) that refers to the state's RETI (Renewable Energy 
Transmission Initiative) process as being critical in this discussion. 
She stated that the RETI process is consensus-based and that everyone 
was invited during Phase 1 of the process. This, however, is not true, 
as several desert stakeholders (local governments, conservation groups, 
citizen action groups etc) requested a position on the Stakeholder 
Steering Committee (SSC) in (December 2007) and were denied. (Although 
many of the conference calls are now ``open'' initially many were not 
and folks were turned away from meetings and not allowed to give input 
or vote.) Furthermore the SSC is dominated by industry and energy 
agencies and some utilities are represented twice with votes.
    We do not agree that there should be one lead energy agency, such 
as Federal Energy Regulatory Commission or Western Governors' 
Association (as suggested by Congresswoman (WY) Cynthia Lummis); 
furthermore WGA is not an ``agency'' with authoritative power over 
these designations currently). However we do agree with Bill Corcoran 
that the power should not be concentrated in any one entity but should 
at the least include a co-lead of a federal land managing agency such 
as the Bureau of Land Management.
    We strongly encourage the question addressed to the utilities by 
Congresswoman Mary Bono-Mack that new transmission technologies, such 
as carbon fiber lines and superconductors, should be heavily researched 
and considered in the transmission planning process. Although these 
technologies may have higher initial costs the long term benefits and 
efficiency must be weighed against these short-term costs. It is 
essential to incorporate in a long-term strategic plan and protect 
public and private lands from reckless transmission corridor expansion 
and designation by restringing existing lines with these new wires.
    In closing we feel it is important to use many of the tools and new 
technologies to green the power supply. This includes exploring options 
such as feed-in tariffs, expanding AB 811 funding and creating other 
new incentives for local distributed energy at the source of need to 
minimize remote industrial-scale projects and unnecessary transmission. 
This will provide the maximum benefit to the residents of California, 
both present and future generations while providing the opportunity to 
incorporate other new technologies as they become available.
    Thank you for reviewing these comments. We hope that you earnestly 
consider these in the preparation and planning of future hearings that 
may incorporate public testimony regarding the issue of solar 
development on federal lands.

Sincerely,

April Sall
Conservation Director
The Wildlands Conservancy
Pioneertown Mountains and Mission Creek Preserves
(760) 369-7105
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="87e6f7f5eeebc7f0eeebe3ebe6e9e3f4e4e8e9f4e2f5f1e6e9e4fea9e8f5e0">[email&#160;protected]</a>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
